<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                       WEDNESDAY, MARCH 21, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:33 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Dorgan, Murray, Stevens, 
Cochran, Domenici, Bond, and Shelby.

                         DEPARTMENT OF DEFENSE

                      DEPARTMENT OF THE AIR FORCE

                        Office of the Secretary

STATEMENT OF HON. MICHAEL W. WYNNE, SECRETARY

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Today we welcome the Honorable Michael 
Wynne, Secretary of the Air Force, and General Michael Moseley, 
the Air Force Chief of Staff.
    Gentlemen, the subcommittee thanks you for being here today 
as we review the budget request for fiscal year 2008.
    Your fiscal year 2008 base budget request is $137 billion, 
a modest increase of $8 billion over the last year.
    The subcommittee recognizes the priorities of the Air 
Force, of fighting and winning the long war on terror, taking 
good care of the airmen and their families, and beginning a 
significant effort to recapitalize and modernize the U.S. Air 
Force.
    We also recognize the challenges associated with 
recapitalizing, while trying to modernize the existing fleet, 
and maintain readiness at the same time.
    With the average age of the fleet being 26 years old, it is 
imperative to find the correct balance between recapitalization 
with new inventory, modernization for existing assets, and 
readiness in order for the Air Force to posture itself for the 
future.
    I'd like to take this opportunity to remind everyone of the 
great support the Air Force is providing for Operation Noble 
Eagle (ONE) here, and Operation Enduring Freedom (OEF) and 
Operation Iraqi Freedom (OIF) overseas.
    It is easy for the media and my colleagues to focus on the 
role played by the soldiers and marines on the ground. But, 
these men on the ground rely heavily on the support provided by 
airmen.
    As a matter of fact, there are 7,700 airmen who are 
performing what is called ``in-lieu of'' taskings, where they 
support the Army in areas where the Army is stressed in their 
abilities to engage in current operations.
    Since the Air Force is becoming more involved in 
nontraditional taskings, and with the Army and Marine Corps now 
both increasing end strength, it brings into question the 
decision to begin a drawdown of Air Force personnel.
    It may be time to revisit that issue, since the environment 
in which the decision was made has significantly changed.
    We look forward to working with you to ensure that our Air 
Force is appropriately resourced to meet each of your tasks, 
and gentlemen, we sincerely appreciate your service to our 
Nation, and the dedication and sacrifices made daily by the men 
and women of the U.S. Air Force. We could not be more grateful 
for what you do.
    And, gentlemen, your full statements will be made part of 
the record. I'd like to now turn to my co-chairman, Senator 
Stevens, for his remarks.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you, Mr. Chairman. And gentlemen, I 
apologize for being slightly late. I do thank you for coming 
back again, and I know we all share the difficult task of 
trying to balance the competing requirements of modernization, 
readiness, and improving the quality of life. The demands on 
all of us for finding some way to meet your needs is great, and 
we want to work with you to achieve your goals. I thank you 
very much.
    Mr. Wynne. Thank you very much, Mr. Chairman.
    Mr. Chairman and members, thank you for having General 
Moseley and I here today to testify on behalf of American's 
airmen. We are extraordinarily grateful for your steadfast 
support of our Nation's airmen.

                          OUR NATION'S AIRMEN

    Leading the men and women of the United States Air Force is 
a high honor. They are responsive, whether answering calls for 
humanitarian relief, providing commanders and combatants real-
time intelligence, or striking with lethal and precise effect. 
We recognize that they set the strategic and the tactical 
conditions for victory.
    They are agile, with the ability to provide America's 
strategic shield, or to form an air bridge from the continental 
United States, halfway around the world to southwest Asia--an 
air bridge our airmen have maintained now for 17 years--or keep 
steadfast watch in space, and in the skies. We want to retain 
the image of the Nation's strategic shield and sword, and ask 
your help to do that.
    They are superbly trained to do all sorts of assigned 
missions. They even superbly perform our assigned ground force 
mission, although all realize that the adage, ``Every airman a 
rifleman'' sacrifices strategic leverage the Nation wants and 
needs from its airmen. We look for the ground force reset to, 
perhaps, rectify this.
    Given the age of our air and space equipment, there is no 
doubt that our freedoms are balanced on the courage, skills, 
and ingenuity of our Total Force airmen. Today, our airmen are 
incredibly busy, fully engaged in the global war on terror, not 
just in Iraq and Afghanistan, but around the world. Plus, they 
have a strategic deterrent mission that they perform every day, 
out of sight, with over 200,000 dedicated daily to all the 
combatant commanders.
    Our airmen are providing global vigilance through the 
manned and unmanned aircraft and space systems. For example, 
Air Force assets and airmen surveil, identify, track, and kill 
enemies as a part of the joint forces' critical counter 
improvised explosive devices (IED) mission.

                              GLOBAL REACH

    We are providing global reach. Our C-130s and C-17s execute 
precision air drop and conventional cargo missions, which are 
saving countless lives by taking dangerous convoys off the 
road. And our aero-medical evacuation personnel are giving 
soldiers, sailors, airmen, and marines the highest survival 
rate in the history of warfare.
    And, we provide global power--directing, conducting or 
threatening strikes, 24 hours a day, 7 days a week, 365 days a 
year. For example, our battlefield airmen levy global power 
through technology like ROVER, the remotely operated video 
enhanced receiver, which gives a new level of connectivity and 
situation awareness to the ground commanders by linking users 
with a laptop computer, with full-motion video sensors on our 
predator unmanned aerial vehicles, as well as advanced 
targeting pods on our fighters.
    ROVER-equipped users get real-time, full-motion video from 
these ``eyes in the skies.'' And we are also the only service 
with a dedicated combat search and rescue force. As airmen, we 
consider combat search and rescue a moral imperative, to be 
able to retrieve the airmen we send deep into enemy territory. 
But these combat search and rescue forces are equally adept at 
rescuing other services and coalitions' isolated personnel, 
when required.

                        OPERATIONS IN CYBERSPACE

    As in the other domains, your Air Force is engaged daily in 
cyberspace. We have established within the 8th Air Force a new 
cyber-command, to address how we can better train and present 
our forces to the U.S. Strategic Command, the combatant 
commanders, and other governmental agencies, to prosecute 
engagements in these domains. It's these linkages where other 
services and agencies count on us to own our warfighting 
domain--and we count on them to own theirs--that makes our 
military truly interdependent today. So, we owe our ground 
force and maritime partners the very best in leveraging our air 
space and cyberspace assets.
    Today, we're doing just that--meeting our wartime 
requirements, but frankly, wear and tear and loss of buying 
power all translate into risk to our future readiness capacity 
and capability. Today's emerging threats also threaten our 
future dominance. Proliferation of advanced technologies and 
new threats, such as double-digit surface-to-air missiles, 
nuclear weapons in North Korea, and the recent Chinese 
antisatellite test that proves space is not a sanctuary, nor 
are some of the areas that we consider our operating areas. It 
makes it imperative that we adjust our inventories for this new 
century.
    We are responding by fielding a next-generation long-range 
strike bomber by 2018, as well as funding new satellites, 
tankers, fighters, and combat search and rescue helicopters.

          RECAPITALIZATION OF AGING AIR AND SPACE INVENTORIES

    Last year, I laid out a very difficult strategy to address 
this most pressing need, recapitalizing our aging air and space 
inventories. We have started that process, and are remaining 
inbounds by self-funding to the maximum extent possible. We've 
self-funded by essentially restructuring our force structure. 
This has reduced our force size, and reshaped the Total Force 
on a ``mission first'' basis, buying fewer, but more capable 
platforms, and implementing new initiatives to improve our 
productivity and efficiency.
    When I was a young officer, leaving the Air Force in 1973, 
the average age of our equipment, including our space assets, 
was 8 years old. Our inventory's age is now triple that, 
averaging 26 years of age. With this in mind, I've advised our 
airmen it is their duty, as well as my own, to ensure the 
airmen of tomorrow are as confident and as capable against the 
threat as we are today, and so I understand the reductions, and 
I understand the need.
    We can ensure this only by intensively husbanding every 
resource--people, flying hours, and expenses--and dedicating 
the freed resources to recapitalization.
    I'd like to thank the Congress for its continued help in 
allowing the Air Force to manage our flying inventory without 
legislative restrictions, and assisting us in this duty to our 
future. I want to thank the Congress, also, for its continued 
help in recapitalizing our space inventory.
    We are taking the necessary steps in our fiscal year 2008 
budget to ensure uninterrupted, continuous service in 
communications, early warning, position, navigation and timing, 
and environmental sensing satellites. We appreciate your 
support in the development, procurement, and fielding of these 
critical space capabilities, because our military, and the 
citizens of this great Nation depend upon their continuous 
service.
    In a minute, General Moseley will introduce five of our 
amazing airmen, and I won't steal his thunder. But, let me just 
say, that to keep our Total Force ready, we must care for these 
airmen and their families.
    In the Air Force, our tenet has long been, ``We recruit 
airmen, but we retain families,'' making quality of life on our 
bases a very key component of our strategy. We are providing 
our airmen access to safe, quality, affordable, well-maintained 
housing, in a community where they chose to live through 
housing privatization.
    In summary, your Air Force is in the fight, and not just in 
Iraq and Afghanistan, but globally. Your airmen are the 
Nation's strategic edge. They are expeditionary, highly trained 
warriors, and with your help, we'll provide them with the 
necessary training, equipment, and quality of life to keep the 
Nation's asymmetric advantage of global vigilance, reach and 
power. Recapitalizing our aging equipment inventories is the 
key.

                           PREPARED STATEMENT

    Finally, I want to salute our airmen. They are amazing, 
they're eager to serve, and mindful of their mission all around 
the world. I'm very proud to be their Secretary, and look 
forward to your questions. Thank you, sir.
    Senator Inouye. Thank you very much, Mr. Secretary.
    [The statement follows:]

                 Prepared Statement of Michael W. Wynne

                       MAINTAINING AMERICA'S EDGE

    We are America's airmen. Our mission is to deliver sovereign 
options for the defense of the United States of America and its global 
interests--to fly and fight in air, space and cyberspace.
    Our Air Force core values of integrity first, service before self 
and excellence in all we do--embodied in every airman--guide our 
actions and ensure your Air Force remains committed and ready to deter, 
dissuade or defeat any adversary anywhere in the world.
    As airmen, we are the Nation's premier multi-dimension maneuver 
force, with the agility, reach, speed, stealth, payload, precision and 
persistence to achieve global effects. Control of the air, space and 
cyberspace domains provides the essential bedrock for effective Joint 
operations--securing freedom to attack and freedom from attack.
    In 2005, we revised the Air Force mission statement to include 
cyberspace. This inclusion of cyberspace reflects our recognition of 
cross-domain interdependence and emphasizes our nonnegotiable 
commitment to deliver sovereign options for the United States through 
not only air and space but also cyberspace.
    Our 2007 posture statement articulates the major elements required 
to fulfill our mission. It reaffirms our commitment to focus our 
energies on the global war on terror (GWOT); to develop and care for 
our airmen and their families; and to recapitalize and modernize our 
aging aircraft, spacecraft, and equipment.
    Our top acquisition priorities include: the KC-X tanker; the CSAR-X 
combat search and rescue helicopter; space communications, space 
situational awareness and early warning programs; the F35A Joint Strike 
Fighter (JSF); and Next Generation Long Range Strike--a new bomber.
    Our posture statement further reaffirms our commitment to be good 
stewards of the resources entrusted to us and our resolve to dominate 
air, space and cyberspace in defense of our Nation now and in the 
future.
Challenges
    America's Air Force faces significant challenges. We have been 
engaged in combat for 16 years while transforming into a smaller, 
leaner and more capable force. Fiscal constraints combined with 
operational challenges and a dynamic international security environment 
translate into risks we continue to manage and mitigate in order to 
provide capabilities America needs. The Air Force continues to fight 
the GWOT and prepares to face and overcome threats and conflicts of the 
future. In order to remain dominant, we must maintain our air, space 
and cyberspace power advantages over potential adversaries.
    Modern warfare is changing. This is nothing new to America's 
airmen, whose heritage spans and embraces change and whose culture 
embodies courage and innovation for America. We are ensuring a lean, 
lethal, and agile Air Force for America. We are building and posturing 
our force structure to meet future threats emerging on the dynamic 
world stage, and we are strengthening the interdependent Joint team.
    We face a security environment that poses an array of dynamic 
challenges and threats. The 2005 Quadrennial Defense Review (QDR) 
characterized this threat environment and mandated force structure 
goals for all of DOD. The Air Force and all of the Services must be 
able to operate and defend against traditional, irregular, disruptive 
and catastrophic threats. In the future, the Air Force and the entire 
Joint Team will operate within a strategic environment involving one or 
more of these challenges. We will prepare to defend against high-end 
conventional forces, asymmetric threats and irregular forces such as 
terrorists or insurgents. To mitigate potential for disruptive 
surprises, we will strive to stay ahead of adversaries' technology 
efforts. Most importantly, we will protect our homeland from hostile 
states' and non-state actors' use of weapons of mass destruction (WMD) 
and attacks in and through cyberspace. The threat array requires that 
we prepare the Air Force for a broad spectrum of future conflicts. At 
the same time, several factors have created a difficult and challenging 
fiscal environment in which to organize, train, and equip for the 
future.
    The 2005 QDR specified a force planning construct to shape the 
entire DOD force to protect our Nation, its ideals and interests now 
and in the future. Originally presented in the National Military 
Strategy (NMS), the force planning construct provides guidance for 
determining the capacity and capabilities needed to meet both steady 
State and surge demands for homeland defense, irregular warfare, and 
conventional campaigns. As a result of the NMS guidance and 
comprehensive analysis, the QDR determined America's Air Force needs to 
organize, train and equip 86 ``modern combat wings.''

            Emerging National Security Concerns and Threats

    While the GWOT is our immediate priority, America's airmen must 
also stay ahead of competitors preparing for conventional conflict and 
attempting to counter the asymmetric advantage our air, space and 
cyberspace power currently gives our Joint Team. Sustaining U.S. 
advantages in such conflicts will become increasingly more challenging 
as advanced air defense, aircraft, WMD, cyber and anti-satellite (ASAT) 
capabilities proliferate.
    Integrated Air Defense Systems (IADS) continue to evolve, placing 
current generation aircraft at increasing risk. Modern IADS incorporate 
more data sources, process and pass information faster, and are 
increasingly mobile. Man-portable air defense systems (MANPADS), 
shoulder-fired SAMs, also are an increasingly serious threat. Their 
availability, affordability, and proliferation increases the likelihood 
of modern MANPADS ending up in the hands of non-state actors, placing 
U.S. civil and military aircraft at risk around the world.
    The lethality and availability of fourth-generation combat aircraft 
is also increasing, and potential adversaries are already purchasing 
and fielding these complex and capable weapon systems. Many nations are 
enhancing the capabilities of their existing fighter and bomber 
aircraft through use of aerial refueling, signature reduction 
technology, and cyberspace weapons that inject confusion or mask 
operations. Ever greater numbers of states are not only acquiring 
advanced aircraft, but are developing indigenous production capability, 
increasing the likelihood of proliferation.
    Proliferation of WMD to countries and non-state actors remains a 
significant challenge to U.S. interests and a top priority in the QDR. 
While nuclear weapons and materials proliferation always pose grave 
dangers, chemical and biological weapons pose arguably greater 
detection challenges. Easier and less costly to make than nuclear 
weapons, chemical and biological weapons are easier to transport, 
produce and mask from detection because they can be camouflaged as 
dual-use civilian industrial products. Proliferation may also enable 
future adversaries, especially terrorist groups, to develop, use, or 
threaten to use WMD as an asymmetric response to American conventional 
warfighting dominance, which might otherwise deter them from directly 
challenging the United States.
    Perhaps less obvious, but all the more insidious, is the 
adversary's use of the cyberspace domain to support and carry out their 
attacks world-wide and on our shores. The adversary knows that they can 
contest our use of the electromagnetic spectrum and conduct their war 
of ideas from a supposed sanctuary in this domain.
    Finally, we see challenges to our current advantages in the space 
domain. Employment of Global Positioning System (GPS) jammers in an 
attempt to reduce U.S. and coalition air strike precision is an 
example. While we can currently overcome this threat through a variety 
of methods, such a challenge presents a warning and a valuable lesson 
as we posture our air, space and cyberspace forces for the future.
    Recent foreign testing of kinetic ASAT weapon capabilities further 
demonstrates an explicit willingness to challenge, disrupt, or destroy 
America's space assets and capabilities. This testing also demonstrates 
a disregard for both American and global concerns over space debris and 
the damage it may inflict upon any object stationed in or traversing 
through low Earth orbit.
    As technology matures and proliferates, and as access to space 
becomes available to more countries, organizations and individuals, 
threats to America's air, space, and cyberspace capabilities will 
continue to grow and evolve. America's airmen aim to be ready to meet 
these and all other threats to our Nation.
            Irregular Warfare
    Our Nation is now in its sixth year waging the GWOT while the Air 
Force is entering its 17th year of engagement in Southwest Asia. 
Current conditions portend this to remain a long war. The enemy chooses 
not to operate as a ``uniformed military,'' but rather uses criminal 
networks and terror tactics to attack from the shadows. They use 
indiscriminate violence against combatants and non-combatants alike. 
They extensively use propaganda to advance their radical ideology of 
tyranny and hatred. Iraq and Afghanistan are two current fronts in this 
war, but the struggle extends beyond these vital campaigns. The Air 
Force and the entire Joint Team must wage this war on a global scale, 
in multiple locations and domains at simultaneous times, and for a 
number of years.
    We are strengthening our ability to deter and defend against non-
state threats and our ability to conduct globally distributed irregular 
operations of varying duration. We stand ready to conduct a large-
scale, long-duration irregular warfare campaign as an integral part of 
the Joint Team, to include counterinsurgency, security, stability, 
transition and reconstruction operations.
            Adapting to Non-Traditional Roles
    Airmen are finding innovative new uses for our current systems 
while successfully executing irregular warfare operations in 
Afghanistan and Iraq. Airmen increasingly find themselves engaged in 
nontraditional roles requiring ingenuity and the use of Joint 
warfighting technology. Our missions and taskings range from standard 
close air support and armed reconnaissance to non-traditional taskings 
like convoy escort, infrastructure protection, provincial 
reconstruction, and host nation election support.
    Still other airmen have stepped in to fill Joint warfighter 
taskings in stressed skill areas in which other Services are 
shorthanded. The Air Force currently provides over 7,700 airmen to 
fulfill these ``In-Lieu Of'' (ILO) ground force taskings. These airmen 
fulfill ILO requirements in areas such as detainee operations, convoy 
operations and protection, explosive ordnance disposal, police training 
teams, provincial reconstruction teams, military transition teams, 
civil engineering, security, interrogation, communications, fuels, 
medical services, logistics, intelligence, and base operating support. 
The Air Force also fills another 1,200 Joint Individual Augmentee 
positions. Airmen began fulfilling these requirements in 2003 and will 
continue to do so through 2007 and beyond--until the ground force 
component recaptures these missions and our job is done.
    Finally, Air Force mission, training, and force structure 
requirements will necessarily increase correspondingly as Joint ground 
force, Army and Marine Corps requirements and end strength increase. 
The full range of Air Force air, space and cyberspace capabilities and 
personnel are interdependently woven into Joint ground forces 
operations.
    Recognizing there will be an impact of increased ground forces on 
our budget, we are assessing our programs. We forecast there may be 
increased requirements in the areas of inter- and intra-theater 
airlift; command, control, communications, computers, intelligence, 
surveillance and reconnaissance (C4ISR) capabilities; close air support 
(CAS); tactical air control party (TACP) personnel; and extended ILO 
personnel requirements. While the Army and Marine Corps reset and 
recapitalize, we are following through in every way with our Joint 
teammates.
            Defending Our Homeland
    Future threats to our homeland are constantly evolving. They 
present challenges to the established methods and structures of 
homeland defense. Development, fielding and proliferation of standoff 
weapons, such as long-range cruise missiles, provide potential 
adversaries with offensive capabilities of increasing accuracy and 
range. In addition, we can expect many of these future weapons to be of 
relatively small size, presenting an extremely difficult detection and 
tracking challenge.
    As we safeguard the aerial, maritime and cyber approaches to our 
Nation, the Air Force will continue to play a large role in providing 
the full spectrum of air sovereignty options, including air defense, 
missile defense and support to civil authorities for consequence 
management. Additionally, as illustrated by our response to Hurricane 
Katrina, the Air Force will surge and contribute to national responses 
in the event of natural disasters or catastrophic events, supplying 
airlift, communications, imagery from unmanned aerial vehicles (UAVs) 
and space assets, and combat search and rescue capabilities.
Cyberspace
    America's Air Force is redefining air and space power for the 21st 
century.
    Our current and potential adversaries already operate in 
cyberspace, exploiting the low entry costs and minimal technological 
investment needed to inflict serious harm. We cannot allow them to 
expand their foothold. We seek to deny our adversaries cyberspace 
sanctuary while ensuring our access and operations in this domain. Our 
Nation's ability to deliver effects in air, in space, on land, and at 
sea depends on control of this domain.
    Cyberspace dominance goes beyond communications and information 
technology. It requires superiority across the entire electromagnetic 
spectrum--DC to daylight--radio waves, micro-waves, infra-red, x-rays, 
directed energy, and applications we have not even begun to think 
about--to ensure global command and control, global reach, and global 
power. We have a well-established capability to operate in cyberspace. 
We take advantage of physics, technology, and synergies to operate in 
and through it. Therefore, we are establishing a new cyberspace command 
to stand alongside Air Force Space Command and Air Combat Command. 
America's airmen are force providers the President, Combatant 
Commanders (COCOMs) and the American people can rely on to preserve 
freedom of access and operations in air, space and cyberspace.
    The newly designated Air Force Cyberspace Command will provide 
combat ready forces trained and equipped to conduct sustained combat 
operations through the electromagnetic spectrum and fully integrate 
these with air and space operations. In November 2006, we held a 
cyberspace summit and, in January 2007, we hosted the first-ever 
integrated cyber exercise, Cyber Vision 2007, at the U.S. Air Force 
Warfare Center (USAFWC). This exercise focused on dominating the 
cyberspace domain in a potential conflict. These events and future 
integration of cyber aggressor teams into red flag will build upon the 
significant cyberspace capabilities we already contribute to homeland 
defense and the Joint fight.
    Cyberspace command will leverage, consolidate and integrate unique 
Air Force cyber capabilities and functions across the spectrum of 
conflict from peace, to crisis and war: Command and control; electronic 
warfare; network warfare; and intelligence, surveillance and 
reconnaissance (ISR). Many Air Force programs, while contributing to 
air and space power, also directly contribute to our dominance of the 
cyberspace domain.
Loss of Buying Power
    While the Air Force is postured to meet our Nation's near-term 
requirements, our ability to meet steady state and surge requirements 
over the long term hinges on our ability to organize, train and equip 
86 modern combat wings, as mandated in the QDR. Achieving these goals 
will be difficult, as we balance fighting the GWOT, maintaining our 
readiness, maintaining America's air, space and cyberspace advantages, 
modernizing our equipment and capabilities, and shaping our airmen, 
organizations and force structure for the future.
    Several factors have applied pressure to the Air Force budget: GWOT 
and operations costs; increasing costs of fuel, utilities, manpower, 
and health care; increased costs to own, operate and maintain our aging 
aircraft; unforeseen BRAC costs; and lost savings due to congressional 
restrictions on retirement and divestment of our least useful legacy 
aircraft. Although recent congressional support for planned legacy 
aircraft retirements has aided our divestment strategy, unnecessary 
restrictions draw critical resources away from our aircraft 
modernization programs and degrade our efforts to recapitalize our 
aircraft inventory.
    We are meeting our current wartime commitments. We are also 
operating within the resources entrusted to our service--we are staying 
in bounds. We are self-financing our modernization and recapitalization 
efforts to the maximum extent possible though initiatives such as force 
shaping, Air Force smart operations for the 21st century (AFSO21) and 
aircraft retirements, while focusing on a ``mission first'' basis. 
Furthermore, we are committed to operate, organize, train and equip to 
meet the projected demands of the future--they are many. The Future 
Years Defense Plan (FYDP) involves taking acceptable risk in lower 
priority areas in order to meet future readiness, capability, force 
structure and national security requirements.
Next Generation Air Force
    Our loss of overall buying power means the Air Force must attempt 
to rebalance our available resources and force structure to achieve 
force planning construct goals. To reach our 2025 force structure 
objectives, we will synchronize our investments to maximize their 
effect.
    In 2005, we began divesting significant numbers of our oldest, 
least capable, and most costly and difficult to maintain aircraft. In 
2006, we also initiated a carefully calculated reduction in personnel 
end strength to match our declining force structure. As investments in 
research, development, and procurement grow, we will continue building 
our force structure towards 86 modern combat wings. Our personnel end 
strength must concurrently keep pace as we modernize our force 
structure. These two elements--force structure and personnel end 
strength--drive our resource requirements.
    The Air Force is committed--now and in the future--to not only 
defend our Nation but also provide good stewardship of the resources 
entrusted to us. We look forward to working closely with Congress to 
ensure our force structure and personnel investments are synchronized, 
and our efforts to posture, recapitalize and modernize America's Air 
Force fly together in close formation.
Air Force Priorities
    As the Air Force strives to defend America's interests within a 
dynamic strategic environment, we remain committed to our top service 
priorities, as stated by Air Force leaders and outlined in our vision:
  --Fighting and winning the GWOT developing and caring for our airmen 
        and their families recapitalizing and modernizing our aging 
        aircraft and spacecraft inventories
    These priorities, together with our enduring core values of 
integrity, service and excellence, provide America's airmen a steady 
beacon, guiding how we organize, train and equip in defense of our 
Nation. Our national strategic requirements, global complexities and 
threats, and fiscal elements within the overall strategic environment 
will continue to shape how we execute these priorities. We remain 
focused on the GWOT, our people, and a modern, capable force.
    Your Air Force is dedicated to maintaining, evolving, and expanding 
America's capabilities in air, space and cyberspace. These capabilities 
are America's edge--the foundation of America's unparalleled global 
vigilance, reach and power.
             fighting and winning the global war on terror
    Our Air Force has been engaged in over 16 years of continuous 
combat in Iraq, currently a central front in the GWOT. In addition to 
OIF, the Air Force is a critical player on the Joint and coalition team 
in Operation Enduring Freedom (OEF) in Afghanistan. Airmen also 
vigilantly defend the skies of our homeland in Operation Noble Eagle 
(ONE). Our enemies are vile, unrelenting, adaptive and global. They are 
motivated by extremist ideologies and bent on subjugation and denial of 
basic freedoms of expression, government and religion. It will 
ultimately require all elements of national power to defeat them. 
Militarily, the Air Force remains committed to finding and destroying 
our Nation's enemies wherever they seek sanctuary, fighting side by 
side with friendly nations in this struggle against violent extremism.
    America's airmen operate on a global scale every day. The full, 
complete impact of Air Force engagement includes airmen deployed 
outside of the Continental United States (OCONUS) to contingencies, 
forward deployed in Europe and the Pacific, and employed from their 
home stations as they execute global missions. The Air Force has nearly 
30,000 airmen deployed in central command conducting theater 
operations. Similarly, 60,000 Pacific Air Forces and U.S. Air Forces 
Europe airmen are fully engaged in the full spectrum of dissuasion, 
deterrence, coalition training, and military-to-military activities.
    Furthermore, the inherent qualities of air, space and cyberspace--
speed, range, and payload--allow the forward deployed Air Force 
footprint to be smaller, less vulnerable, and vastly more flexible. 
Airmen are also fully engaged in the GWOT from their home stations, 
controlling satellites, standing on alert with intercontinental 
ballistic missiles (ICBMs), providing intelligence assessments, 
operating UAVs, and launching airlift, tanker and other aircraft 
missions essential to Joint operations worldwide. Every day over 
200,000 Active, Guard, and Reserve airmen fulfill COCOM missions around 
the world.
A Day in the Life of America's Airmen
    The Air Force delivers global vigilance, global reach and global 
power for our Nation. America's airmen provide vigilance that is 
persistent, focused and predictive; reach that is reliable, rapid and 
agile; and power that is flexible, precise, stealthy and decisive.
    A snapshot of current Air Force operations illustrates the myriad 
ways in which COCOMs employ air, space and cyberspace power to 
accomplish their missions.
            Global Vigilance
    Air Force global vigilance capabilities are critical elements of 
the GWOT, at home and abroad. For instance, the Air Force currently 
operates and maintains satellites directly serving central command and 
providing the communications, sensor, and navigation capabilities on 
which the lives and missions of soldiers, sailors, airmen, marines and 
coast guardsmen depend. From bases in the continental United States, 
our airmen also maintain space situational awareness (SSA) for the 
region, tracking over 500 daily orbital passes over Baghdad of 
satellites of all nations.
    Theater-based aircraft have become critical elements in the 
Counter-Improvised Explosive Device (Counter-IED) effort by ``scanning 
and jamming.'' On a daily basis U-2s, Global Hawk and Predator UAVs, 
and E-8C Joint Surveillance Target Attack Radar System (Joint STARS) 
aircraft survey, track, identify--and sometimes destroy--insurgents and 
safe houses. In fact, the Air Force maintains over 10 24/7 UAV Combat 
Air Patrols (CAP) in central command, providing persistent ISR and--in 
the case of Predator--a lethal strike option. In addition to their 
global responsibilities, stateside Airborne Warning and Control System 
(AWACS) crews and airplanes fly and stand on alert as part of our 
homeland defense surveillance requirements.
            Global Reach
    Air Force airlifters and tankers provide the global reach that 
underwrites the Joint effort in the GWOT. An air mobility command 
aircraft departs a runway somewhere on the planet every 90 seconds, 24 
hours a day, 365 days a year. On a typical day, the Air Force flies 
over 250 airlift sorties, moves over 1,000 tons of cargo, and 
transports nearly 2,500 passengers. In central command, intra-theater 
airlift aircraft like the C-130 and C-17 have borne heavy loads, taking 
thousands of convoys off dangerous roads and reducing the threat of 
IEDs to about 8,500 people each month.
    Aeromedical evacuation (AE) has emerged as a critical capability 
for the Joint Force. In fact, Air Force AE is responsible for the 
transport and care of over 36,000 patients in the GWOT. Our airmen have 
achieved a record-setting average patient movement time of 72 hours, a 
dramatic reduction from the 10-14 days required during the 1991 Persian 
Gulf War. Such rapid global movement provides U.S. service men and 
women the highest survival rates in the history of warfare.
    Air Force tankers provide global mobility and reach for Air Force 
aircraft, the Joint Team and coalition forces. While the average tanker 
is over 40 years old, KC-135s and KC-10s nonetheless fly 30 tanker 
missions on a typical day in central command and stand on alert to 
provide additional endurance for our aircraft performing homeland 
defense missions.
            Global Power
    At the sharp end of Air Force capabilities, America's airmen 
deliver global power in the GWOT. Using UAVs, tight air-ground 
integration, and time sensitive targeting, we have eliminated several 
high-value terrorist and insurgent targets in Afghanistan, Somalia and 
Iraq. In a war where intelligence is fleeting, the Air Force has made 
constant innovations to shorten the time cycle it takes to deliver 
rapid, precise effects. Fighters originally designed for strike 
missions are now using their targeting pods as non-traditional ISR 
sensors over Iraq and Afghanistan, providing a unique extension of both 
vigilance and power for the Joint Force Commander (JFC). Battlefield 
airmen serve side by side with our Joint partners on the ground and use 
live streaming video from predators or targeting pods to orchestrate 
rapid air and ground attacks on insurgents. The successful June 2006 
strike against Al-Qaeda leader Abu Musab al-Zarqawi is only one 
illustration of how the Active Duty, Air National Guard, and Air Force 
Reserve Command seamlessly integrate capabilities from around the globe 
into precise, dislocating, and decisive effect.
    Since the beginning of the GWOT, the typical strike mission has 
evolved from a pre-planned sortie against a fixed target to a flexible, 
on-call mission profile responsive to a rapidly changing battlefield. 
In central command, fighters typically fly nearly 80 strike, electronic 
warfare, or non-traditional ISR sorties each day. Back in the United 
States, fighters stand guard over our homeland, ready to launch at a 
moment's notice. Worldwide, Air Force fighters and bombers, coupled 
with the strength of America's space and cyberspace capabilities, are 
the tools of reassurance, deterrence and dissuasion. America's airmen 
are the global, strategic muscle behind U.S. diplomacy, providing a 
lethal over-the-horizon capability to directly influence events on the 
ground--whether based in Japan, Guam, or Whiteman AFB, Missouri.
Fostering Joint Interdependence
    Air Force dedication to Joint interdependence is illustrated in the 
GWOT. Around the world, we are committed to providing COCOMs an 
increased ability to integrate air, space and cyberspace capabilities 
and gain cross-dimensional synergies in pursuit of National Security 
Joint Force objectives.
            Fifth-Generation Fighters
    Currently in production and fully operational at Langley AFB, 
Virginia, the F-22A is the newest member of the Air and Space 
Expeditionary Force--our airmen are putting the world's first fifth-
generation fighter into action. Its attributes of speed, stealth, 
maneuverability, advanced sensors and adaptable, integrated avionics 
will meet our Nation's enduring national security requirement to gain 
and maintain Joint air dominance, as well as enable precise engagement 
against a broad range of surface targets.
    America's airmen are understandably proud of their contributions to 
the Joint fight. They have prevented enemy aircraft from inflicting any 
U.S. ground force casualties for over 50 years. We dedicate our efforts 
and risk our lives to sustain this record. Production in sufficient 
numbers of fifth-generation fighters--both the F-22A Raptor and the F-
35A Lightning II--remains the best guarantee of homeland air 
sovereignty and Joint air dominance.
            Numbered Air Forces
    The Air Force has established component Numbered Air Forces (NAFs) 
dedicated to supporting each COCOM across the full range of military 
operations. Each component NAF provides an integrated and 
technologically advanced command and control capability, adaptable to 
contingencies across the spectrum of conflict. Over the next several 
years, we will continue to refine this command and control structure 
through the development of centralized ``reach back'' capabilities, 
integration of Guardsmen and Reservists, and more advanced cyber 
technologies.
            Air and Space Expeditionary Force
    The Air and Space Expeditionary Force (AEF) organizational 
construct is a modern design for the modern world.
    Since the end of the Cold War, the Air Force has evolved from a 
force based at large, permanent United States and overseas bases to an 
expeditionary force, requiring fewer permanent bases and using an 
expanded network of temporary forward bases. As we adapted to this new 
operating environment, we quickly recognized the deployment construct 
for our force also had to change. Since 1999, we have organized our Air 
Force combat forces into 10 AEFs that present capability to COCOMs, 
provide trained and ready forces for emerging threats and 
contingencies, and help manage high deployment tempo through a stable 
and predictable rotation schedule. When demand for American air power 
skyrocketed after 9/11, the Air Force extended the deployment period 
from 90 to 120 days to accommodate the COCOMs' demands.
    We continue to adapt our people and organizational constructs to 
ensure airmen are highly motivated, exceptionally well trained, and 
equipped with the right skill sets to present the Joint warfighter with 
a broad set of capabilities. We realigned the AEF Center under the Air 
Force Personnel Center at Randolph Air Force Base, Texas, to leverage 
similar functions and merge permanent authorizations, wartime 
requirements, and assignments under a single commander. The Air Force 
is also moving forward with fielding of Contingency Response Groups 
(CRGs), organized, trained and equipped to provide an initial ``Open 
the Base'' capability to COCOMs. The CRG provides a rapid response team 
to assess the location-specific support requirements necessary to open 
an expeditionary airfield, as well as provide a rapid projection of 
America's vigilance, reach and power.
            Joint Warfighting Integration
    Due to the dynamic demands of the GWOT, airmen fly strike, ISR, 
combat search and rescue (CSAR), AE, electronic warfare and airlift 
sorties everyday over Afghanistan and Iraq. They also augment ground 
forces to provide security and stability in both countries. Airmen are 
working hand-in-hand with ground and naval forces training and 
augmenting both Iraqi and Afghan security forces, rebuilding critical 
infrastructure, and providing medical services to these war-torn 
countries.
    Air Force CSAR helicopters remain on alert in Iraq and Afghanistan, 
providing commanders with the capability to rescue isolated military 
and civilian personnel. Air Force CSAR crews answer the moral 
obligation to safely secure and return any and every member of our 
Joint team.
    The effectiveness CAS provides soldiers and marines is another 
example of interdependence. Tactical training at the National Training 
Center provides soldiers and airmen the opportunity to see how they 
will deploy and fight together on future battlefields. The Army's 
Stryker Brigade combat teams now in service and the future combat 
system under development both rely heavily on Air Force strike 
capabilities to remain effective. Therefore, we are adding 700 TACP 
airmen to serve with ground components to ensure the Air Force's timely 
and precise effects are always available.
            Building Global Partnerships
    Fighting and winning the GWOT requires commitment, capability, and 
cooperation from allies and partners around the world. We depend on our 
international partners to secure their territory, support regional 
stability, provide base access and overflight rights, and contribute a 
host of air, space and cyber power capabilities as interoperable 
coalition partners. As the pace of economic, political and cultural 
globalization increases, the importance of strong global partnerships--
both now and in the future--is abundantly clear.
    The Air Force leads the way in developing enduring Air Force-to-Air 
Force relationships around the world. To strengthen these 
relationships, we are expanding Red Flag access to our allies and 
partners. We are also working to establish the Gulf Air Warfare Center 
as a tactical center of excellence. In addition to integrating 
coalition partners into our most robust combat training scenarios, we 
have established the Coalition and Irregular Warfare Center of 
Excellence to facilitate development of relevant airpower capabilities, 
capacities, and relationships in partner nations in the GWOT, and to 
facilitate development of innovative Air Force irregular warfare 
applications. We are also expanding the 6th Special Operations Squadron 
to bolster our ability to train foreign air forces and expand our 
repertoire of non-kinetic capabilities in the GWOT. Furthermore, our 
aircrews, especially airmen executing global mobility and airlift 
missions, interact daily with host nation personnel, representatives 
and citizenry, enhancing America's image of strength, freedom, and 
hope.
    Through the Air Force Security Cooperation Strategy, we continue 
working with allies and friends to help them attain capabilities that 
complement our own air, space and cyberspace capabilities. This 
document uses the OSD Security Cooperation Guidance as a foundation and 
aligns with COCOM Theater Security Cooperation strategies. This 
comprehensive, coordinated effort builds capability in potential 
partner air forces using the six U.S. Air Force distinctive 
capabilities as driving tenets.
    Recent commitments, such as procurement of C-17 airlifters by 
Australia and the NATO Alliance, and broad international participation 
in the F-35A Joint Strike Fighter (JSF) program, will further reinforce 
our current and future interoperability with global partners. Finally, 
we have infused expeditionary, regional, cultural and linguistic 
education throughout our training programs at every level. The Air 
Force executes a global mission. Our approaches to operations, 
interoperability and training exemplify our global, international 
perspective.
            Air Staff Intelligence Directorate
    Intelligence is becoming more critical in today's rapidly changing 
security environment. Collection, analysis, and timely distribution of 
information are essential to kinetic and non-kinetic approaches to our 
Nation's security challenges. Accordingly, we moved Intelligence 
directly under the Chief of Staff, creating the position of Deputy 
Chief of Staff for Intelligence (A2) and elevating the position to a 
three-star billet from its former two-star billet.
            Partnership with the National Reconnaissance Office
    The Air Force and the National Reconnaissance Office achieved a 
groundbreaking agreement on June 7, 2006, to share expertise and best 
practices. The agreement focuses specifically on sharing lessons 
learned in developing, acquiring, fielding and operating modern space 
systems. Both organizations recognize the need to enhance their 
respective capabilities, as well as to work collaboratively to respond 
to future challenges.
            Combat Search and Rescue Realignment
    The transfer of the CSAR mission from Air Force Special Operations 
Command to Air Combat Command provides a clearer presentation of forces 
to Joint commanders and ensures a direct CSAR link to the Combat Air 
Forces and the personnel they serve. In addition, the Air Force's Next 
Generation Combat Search and Rescue aircraft (CSAR-X) will modernize an 
aging CSAR fleet, provide greatly improved all-weather combat search 
and rescue worldwide--an essential component of our commitment to the 
Joint Team and our allies.
            Air and Space Operations Centers
    In June 2005, we achieved an initial operational capability with 
our Air and Space Operations Center (AOC) Weapon System and are well on 
our way to a full operational capability for the entire AOC inventory. 
The Air Force leads the way in delivering sovereign options to defend 
our homeland and our global interests by providing a global command and 
control (C2) capability to COCOMs, enabling them to orchestrate air, 
space and cyberspace effects in pursuit of national military 
objectives. AOCs are the central operational nodes in this capability, 
and the combined AOC in operation at Al Udeid, Qatar, exemplifies the 
most advanced and robust AOC system in the Air Force today.
            Aeromedical Evacuation
    Air Force AE contributes a unique, nationally vital capability to 
the Joint fight. Air Force AE innovations include use of ``designated 
vs. dedicated'' aircraft, ``universally-qualified'' AE crewmembers, 
able to fly on any AE-configured aircraft, and the extensive use of 
critical care air transport teams to transport stabilized patients.
    Air Force AE is combat proven. Since late 2001, we have 
orchestrated the care and transfer of more than 36,000 overseas 
patients to CONUS facilities. We continue to refine this remarkable 
capability and the ``en route care'' system built upon our 
expeditionary medical system.
    Air Force AE is a total force system, and both AE and en route care 
are built on teamwork, synergy and Joint execution. Technological 
advances such as the single integrated patient data system, high-flow 
ventilators, high deck patient loading system, and the Joint patient 
isolation unit are under development and will further enable safe 
patient movement regardless of transportation mode.
    America's Air Force has provided soldiers, sailors, marines, coast 
guardsmen and airmen the highest casualty survival rates in the history 
of warfare. By leveraging AE and en route care, we will continue to 
improve our ability to save and sustain lives.
Space Capabilities in Joint Operations
    The entire Joint force depends on Air Force space-based 
capabilities to meet not only the needs of military operations, but 
also the full spectrum of civil, economic, and diplomatic activities. 
Moreover, rescue and recovery operations in 2005 following Hurricanes 
Katrina and Rita clearly demonstrated the humanitarian mission utility 
of space-based communications, positioning and navigation services, and 
environmental monitoring. America's airmen safeguard the high ground of 
space and ensure America's unimpeded access to vital space 
capabilities.
            Space Applications in Afghanistan and Iraq
    Operations in Iraq and Afghanistan highlight the importance of 
space-based capabilities to the United States and coalition forces. An 
example of Air Force response to warfighter needs is the successful 
deployment of the Satellite Interference Response System (SIRS), a 
defensive counterspace prototype. It aids in the identification, 
geolocation and reduction of interference sources for critical 
satellite communications. SIRS has improved the response time to 
unknown interference sources within the CENTCOM AOR and reduced 
friendly interference sources from impacting operations.
    Blue Force Tracking capability is another success story. Joint Blue 
Force Tracking has fundamentally changed ground warfare. The ability to 
accurately locate friendly forces with GPS timing and positioning 
information, and then share that information, dramatically improves 
understanding on the battlefield and reduces the risk of friendly fire. 
The unprecedented real-time knowledge of friendly force locations 
renders all operations--especially night and urban operations--less 
dangerous and more effective.
            Joint Space Operations Center
    The 14th Air Force Air and Space Operations Center (Space AOC) at 
Vandenberg AFB, California, serves as the core of the United States 
Strategic Command (USSTRATCOM) Joint Space Operations Center (JSpOC). 
The Space AOC/JSpOC is the primary command and control node for 
integrating the full resources of space-based sensor and command-
control systems. The Space AOC/JSpOC proactively reaches forward to 
COCOMs, ensuring accomplishment of theater and global space objectives, 
while providing a continually updated space common operating picture 
for integration into current wartime and peacetime missions.
    The Space AOC/JSpOC consists of personnel, facilities, and 
resources providing long-term strategy development, short-term crisis 
and contingency planning, real-time execution, space asset 
reallocation, and space forces assessment. The Space AOC/JSpOC provides 
tailored space effects to Joint forces worldwide.
    The Space AOC/JSpOC maintains SSA through the fusion of 
intelligence, space- and ground-based sensor readings, and operational 
indications to allow the United States and allied forces unfettered 
access to space. The Space AOC/JSpOC also provides predictive analysis 
of adversary space activity and supports the protection of National 
Security Space assets.
            Counterspace
    Air, space and cyberspace superiority are the foundational elements 
of Joint success in any action. Counterspace and countercyber 
technologies and operations provide America with the tools to achieve 
space and cyber superiority, allowing America freedom of action while 
denying freedom of action to an adversary or enemy. SSA, Defensive 
Counterspace (DCS) and Offensive Counterspace (OCS) capabilities 
comprise the main elements of Air Force counterspace efforts.
    SSA provides airmen with detailed knowledge of the space 
environment, enabling responsive, effective execution of DCS and OCS 
actions. Enhanced ground-based and new space-based SSA assets would 
provide the needed information. In the near-term, the Rapid Attack 
Identification Detection and Reporting System (RAIDRS), along with 
SIRS, will test detection and geo-location technologies. The Space 
Based Space Surveillance (SBSS) and Space Fence programs will deliver 
transformational capabilities to improve responsiveness, surveillance 
coverage, and small object detection. We expect to field these improved 
capabilities in the fiscal year 2009 and fiscal year 2013 timeframes, 
respectively.
    Air Force defensive counterspace efforts will protect National 
Security Space capabilities vital to Joint success. Some defensive 
strategies comprise technical solutions integrated into satellite 
designs. We will design other systems specifically to counter 
adversarial threats. Additionally, our airmen are continuously 
developing new tactics to mitigate potential threats to our space 
systems.
    Offensive counterspace technologies and operations seek to disrupt, 
deny or degrade an adversary's ability to leverage space capabilities. 
The Counter Communications System (CCS) provides COCOMs a method to 
deny an adversary's access to satellite communications through 
temporary, reversible and non-destructive means. CCS expands the 
options available for the COCOM to address the proliferation of 
advanced space technologies and their availability to potential 
adversaries.

                  DEVELOPING AND CARING FOR OUR AIRMEN

    Your Air Force today is a seamless total force, with over 690,000 
airmen serving on Active Duty, in the Air National Guard (ANG), in the 
Air Force Reserve Command (AFRC) and as Air Force civilians. While 
modern equipment, technology and capability are essential to success, 
your airmen are the bedrock of America's ability to succeed in an era 
of challenge and uncertainty.
    While emphasizing our global expeditionary culture, organization 
and mission, we remain committed to providing and maintaining the 
highest possible standards of education, training, health care and 
installation services for America's airmen.
Force Shaping
    When the Air Force began to develop a long-term force structure 
plan, we started with divestment of legacy aircraft. While we have 
achieved some success, significant investment gaps remain. Moreover, 
the costs of personnel continue to rise. Personnel costs have increased 
57 percent in the past decade. In early 2006, Program Budget Decision 
720 directed additional end strength reductions over the FYDP. As we 
manage this downsizing, we remain committed to a balanced force. We 
will increase manning in stressed career fields, and expand 
opportunities for career development and training. Our goal is a lean, 
more capable, more lethal Air Force, organized, trained and equipped 
for our global, expeditionary mission.
    To tailor our personnel mix to the new security environment, we 
authorized implementation of annual Force Shaping Boards (FSBs). The 
purpose of the fiscal year 2006 FSB was to reduce officer overages by 
identifying eligible officers for separation, while balancing career 
fields and officer commissioned year groups. Prior to the board, 
eligible officers were offered voluntary options to transition to other 
forms of service in and out of the Air Force. The Air Force also waived 
most Active Duty Service Commitments (ADSC) to allow officers to 
separate early. In addition, the Air Force is offering voluntary 
separation pay to officers in overage career fields, and we will 
convene a selective early retirement board to identify retirement-
eligible officers for early retirement if necessary.
    To achieve the required reductions of enlisted airmen, the Air 
Force instituted a date of separation rollback for personnel with 
limitations on their assignment or enlistment eligibility. We also 
offered a limited number of ADSC waivers for eligible members in 
overage career fields. These initiatives to shape the enlisted force 
join the tools already in place: Career job reservations, reduction in 
accessions, and the Non-Commissioned Officer retraining program.
    Overall, the Air Force aims for a reduction of over 4,000 officers 
and 10,000 enlisted members by the end of fiscal year 2007. These 
reductions are difficult but necessary to ensure the Air Force 
maintains the right size and mix of forces to meet the fiscal and 
global challenges of today and tomorrow.
Total Force Integration
    A distinguishing hallmark of the Air Force is the ease with which 
airmen from Active Duty, ANG, and AFRC work together at home and 
abroad. From the build-up of the ANG after World War II, the first 
Reserve Associate unit in 1968 and the full integration of Guard and 
Reserve units into the Air & Space Expeditionary Force in the 1990s, 
the Air Force has a history of employing airmen from all components in 
innovative and effective ways.
    One of the Air Force's significant commitments to long-term 
transformation is Total Force Integration (TFI). The Total Force 
construct seeks to maximize the Air Force's overall Joint combat 
capability with Active Duty, Air National Guard and Air Force Reserve 
airmen working together cohesively. TFI is critical to meeting the 
challenges of competing resource demands, an aging aircraft inventory, 
and emerging missions.
            New and Emerging Missions
    As the Air Force transforms to a smaller, more agile and lethal 
force, we will retain the strengths of the Guard and Reserve and use 
them in new ways to reflect a changing mission set. Increased 
integration allows Air Force personnel to capitalize on experience 
levels inherent in the Guard and Reserve, while building vital 
relationships necessary to sustain successful combat operations.
    Ongoing Total Force initiatives integrate Air Force components into 
missions critical to future warfighting, and include ISR, UAVs, space 
and cyberspace operations. Given the ease of employing these 
capabilities from home station, these missions are ideally suited for 
the Guard and Reserve. In a time of increasing demand for these 
capabilities, it only makes sense to use reachback technologies to tap 
into our Air Reserve Component. Using this approach improves our 
operational effectiveness, reduces reliance on involuntary 
mobilization, and provides more stability for our airmen and their 
civilian employers. It also allows the Air Force to capitalize on the 
state-of-the-industry advanced skills and best practices residing in 
the ranks of the ANG and AFRC.
            Way Ahead
    The Air Force continues to make significant progress on our Total 
Force initiatives. We have identified 136, secured funding for 98 
opportunities and are executing 19. We have established associate units 
at several locations including F-22As in Virginia and Alaska, C-17s in 
Hawaii, F-16s in Utah, and C-130s in Wyoming. Additionally, guardsmen 
are analyzing GWOT intelligence in Kansas, and Reservists are flying 
operational GWOT UAV missions from Nevada. With over 100 initiatives in 
the planning phase and many more in the development phase, Total Force 
Integration is paving the way for a smaller, more capable, more 
affordable Air Force.
Improving Training Opportunities
    Spanning six decades of Air Force history, particularly over the 
past 16 years, our airmen have proven themselves as the global first 
responders in times of crisis--taking action anytime, anywhere. The 
foundation for this well-deserved reputation is the quality and 
frequency of the training and education we provide. Our Air Force 
training initiatives continue to evolve, improving our ability to 
develop and retain the world's best air, space and cyberspace 
warriors--expeditionary, knowledge-enabled, ethical, and prepared for 
the interdependent fight.
            Air Force Basic Military Training
    We changed Air Force Basic Military Training (BMT) curriculum to 
stress an expeditionary mindset in all phases of training, providing 
airmen with more expeditionary capability from day one. These changes 
are the most significant in BMT history. The Air Force basic training 
experience now mirrors the AEF cycle with a pre-deployment, deployment 
and reconstitution phases. We emphasize basic war skills and practical 
application throughout BMT. Beginning first quarter fiscal year 2009, 
BMT will incorporate 2 additional weeks of instruction--lasting 8.5 
weeks total--to provide more opportunities for practical application 
and field exercises. Finally, we have added ``Airman's Time,'' 
mentoring sessions in which our veteran instructors share their real 
world experiences, relate daily training events to warrior and 
airmanship qualities, and reinforce the core values expected of all 
airmen.
            Space Professional Development
    Space capabilities have become vital in the defense of our Nation 
and the continued growth of the United States and world economies. 
Developing, fielding, operating, and maintaining the Air Force's broad 
array of space systems demands a highly trained, expertly managed 
workforce of space professionals. As we begin to field even more 
capable and complex systems, the demands on our space professionals 
will only increase. We have brought these personnel together within the 
Space Professional Development Program, ensuring our operations, 
acquisition and support personnel receive the training, education and 
experience necessary to accomplish our mission in space--now and in the 
future.
            U.S. Air Force Warfare Center
    The U.S. Air Force Warfare Center (USAFWC) integrates initiatives 
across the Air Force. USAFWC sets the standard for executing Joint and 
coalition air, space and cyberspace operations. The USAFWC provides 
advanced training designed to ensure our Air Force warfighting 
capability remains unrivaled. USAFWC provides performance assessment 
and Joint integrated exercise venues for units from the USAF, USN, USMC 
and USA--as well as our allies. They provide adversary analysis through 
a unified and coordinated ``Red Force'' ready to ``combat'' the United 
States' and their coalition partners during all phases of testing, 
tactics development, training programs, and integrated exercises.
            Red Flag
    In addition to its original location at Nellis AFB, Nevada, the Air 
Force now conducts Red Flag exercises in Alaska using Eielson AFB, 
Elmendorf AFB, and the Pacific Alaska Range Complex. The two exercises 
are designated Red Flag--Nellis and Red Flag--Alaska, respectively.
    Red Flag is expanding aggressor capabilities to provide enhanced 
training at both locations. The Air Force added an F-15 aggressor unit 
in Nevada and, starting in October 2007, we will establish an F-16 
aggressor squadron at Eielson AFB ready to participate in Red Flag-
Alaska exercises in 2008. Aggressor functions have expanded to include 
air defense, space, and cyber operations. This integrated aggressor 
force provides all Red Flag exercises with a consistent, world-class 
training capability. Bolstering the dissimilar combat experience, the 
Air Force also has taken steps to expand the participation of coalition 
partners and allies in Red Flag.
    Overall, enhanced aggressor operations and common training concepts 
will increase the quality of Red Flag training, and two locations will 
increase the quantity of training opportunities. When complete, these 
changes will make a great program even better--saving lives in the next 
fight.
            Military Personnel Exchange Program
    Through the Military Personnel Exchange Program, the Air Force 
builds, sustains, and expands international relationships that are 
critical enablers for our Expeditionary Air and Space Force. Long-term 
success in the GWOT calls for broad international partnership and 
integration. Expanding our exchange programs to Eastern Europe, the 
Middle East, and Southeast Asia is critical to the conduct of the GWOT 
and in building lasting partnerships with our Allies.
Quality of Life
    Your Air Force has been at war for nearly 17 consecutive years. 
These challenging times underscore the importance of properly 
maintaining the capabilities of the primary weapons in our Air Force 
arsenal--our airmen. Our focus on their quality of life ensures these 
vital ``weapon systems'' remain ready when called upon.
            Expeditionary Support
    We ensure the best possible facilities and programs at all our 
expeditionary locations. Our dining facilities are unequalled--
currently serving over 36,000 meals daily to deployed forces. We also 
provide fitness and recreation support to help maintain the health and 
morale of our airmen. Additionally, our learning resource centers 
provide the necessary means for distance learning, continued 
professional development, and connectivity with friends and family.
    Our Airman and Family Readiness Program is an aggressive effort to 
prepare airmen and their families for deployment challenges. Mandatory 
pre-deployment briefings provide information on personal planning and 
stressors related to extended duty away from home, while mandatory 
post-deployment briefings prepare airmen for the dynamics of reuniting 
with their families.
            Language and Cultural Education Opportunities
    We are moving beyond traditional Air Force and Joint warfighting 
skills development. Our educational programs provide increased 
opportunities for airmen to receive focused cultural and language 
training, facilitating greater professional interaction, deeper 
understanding, and more effective operations.
    The expanded instruction includes cultural awareness, regional 
affairs, and foreign language proficiency. All Air Force Academy cadets 
and Reserve Officer Training Corps (ROTC) nontechnical scholarship 
cadets will be required to take language courses. Additionally, both 
Academy and ROTC cadets have increased opportunities for foreign 
language and area studies degrees and have expanded cultural immersion 
and foreign exchange programs. Our enlisted basic military training 
also will provide instruction on cultural sensitivity.
    Once in the Air Force, each level of officer and enlisted 
professional military education (PME) provides additional cultural, 
regional and foreign language instruction, developing leaders who can 
articulate United States policy and operate effectively in foreign 
settings. Furthermore, we will increase developmental educational 
opportunities for global skills, including overseas professional 
military education and the Olmstead Scholars Program. We will then 
vector these airmen into Political-Military Affairs or Regional Affairs 
Strategist career tracks, maximizing America's return-on-investment.
            Housing and Military Construction
    Air Force investments in housing underscore our emphasis on 
developing and caring for airmen. Through Military Construction 
(MILCON) and housing privatization, we are providing quality homes 
faster than ever before. Over the next 2 years, the Air Force will 
renovate or replace more than 4,200 homes through military 
construction. We are on track to meet our fiscal year 2009 goal of 
eliminating inadequate housing at overseas locations.
    Investment in dormitories continues to provide superior housing to 
our unaccompanied members. We have over 3,000 dormitory rooms 
programmed for funding over the next 6 years. Approximately 75 percent 
of these initiatives rectify inadequate dormitory conditions for 
permanent party members. Our new ``Dorms-4-Airmen'' standard is a 
concept designed to increase camaraderie, social interaction and 
accountability. The remaining dormitory program modernizes inadequate 
``pipeline'' dormitories that house young enlisted students during 
their initial technical training.
    MILCON is an essential enabler of Air Force missions; however, we 
are accepting risk in facilities and infrastructure funding in order to 
bolster our efforts to recapitalize and modernize our aging aircraft 
and equipment. We have prioritized the most critical requirements to 
support the Air Force and DOD requirements. Our MILCON strategy 
supports these priorities by focusing on new mission beddowns, 
dormitories, fitness centers, childcare centers, and depot 
transformation.
            Joint Basing
    The Air Force has a long and successful history of working toward 
common goals in a Joint environment, without compromising Air Force 
principles and the well-being of our people. Joint basing initiatives 
are no exception. We want Joint basing to be a raging success. 
Therefore, each Joint base should be required to provide an attractive 
setting to all of its assigned personnel.
    To accomplish this end, we advocate the establishment of the 
highest quality of life standards of individual bases as the Joint base 
quality of life standards. Joint basing is an opportunity to improve 
efficiency, quality of life standards and common delivery of 
installation support services. Joint basing will consider best business 
practices to ensure enhancement of Joint warfighting capabilities, 
eliminate duplication, and ultimately achieve synergy for base support 
services. These actions will optimize Joint use of limited resources 
and result in more efficient installations from which all Services will 
project combat power for our Nation.
    Through the establishment of the highest level of quality of life 
standards at each Joint base, our airmen, soldiers, sailors, marines, 
DOD civilians and their families will benefit from efficient, 
consistent installation support services. These standards will ensure 
the Air Force and our sister Services continue to provide all personnel 
with the level of installation support services they deserve.
    As we work with OSD and our sister Services, we will ensure all 
Joint basing initiatives guard against any interference with the DOD's 
ability to perform its mission. Joint basing allows us to build closer 
relationships and forge stronger ties among the Services. We will not 
only train as we fight, we will live as we fight.

                RECAPITALIZING AND MODERNIZING THE FORCE

    To meet the needs of our Nation at war and successfully build the 
86 modern combat wings necessary to maintain a credible defense posture 
in the future, we are committed to aggressively recapitalizing and 
modernizing our inventories of aircraft, space systems, equipment and 
operational infrastructure. Executing a successful recapitalization 
plan is a balancing act. We will continue to meet today's operational 
needs while striving to ensure America and our future airmen inherit an 
Air Force that is ready, capable and sustainable. We are committed to 
maintaining air, space and cyberspace advantages and America's 
unparalleled global vigilance, reach and power--America's Edge.
Comprehensive Plan
    Our recapitalization and modernization plan follows an integrated 
strategy of retirement, procurement, selective Service Life Extension 
Programs (SLEPs) and modifications--coupled with the broadest, most 
innovative science and technology program in DOD. We will progressively 
shed our oldest, most costly, and least capable legacy aircraft, while 
reinvesting in a smaller--but more capable--expeditionary force, 
emphasizing global and Joint capabilities. While these strategies will 
sustain selected legacy systems for near term, we will avoid billions 
of dollars on further SLEPs by working our stewardship of funds today. 
It has become far more expensive to continuously extend the life of 
older aircraft. We are fast approaching the point where it is cheaper 
to buy new aircraft.
    Our plan will allow effective, efficient modernization and 
replacement of our air superiority, strike, space, ISR, mobility, 
special operations, and combat support systems. Fully recapitalized, 
America's Air Force will remain dominant in the conduct of modern, 
networked, cross-dimensional 21st century warfare.
            An Aging Inventory
    The Air Force is meeting today's combat requirements--but not 
without increasing risks and costs. We have an aging and increasingly 
unfit inventory of aircraft, space systems and equipment. Of our 
inventory of approximately 6,000 aircraft, a significant number operate 
under flight restrictions. Many transport aircraft and aerial refueling 
tankers are more than 40 years old. The average age of the bomber force 
exceeds 30 years. The fighter force is the oldest it has ever been, at 
an average age of more than 18 years. Additionally, our airmen operate 
and maintain many satellites well in excess of their originally 
designed mission durations. Across every mission, the Air Force is 
experiencing detrimental effects of high tempo operations and age, 
including engine and structural fatigue, deterioration, corrosion and 
increased rates of component failure.
    As a result, the Air Force's ability to meet the combat 
requirements of tomorrow is in question. The increased tempo of current 
operations delays routine maintenance and we find our systems becoming 
progressively less effective and more costly to own and operate. 
Aircraft and equipment modifications currently absorb 20 percent of the 
Air Force's procurement budget. This is the highest percentage in the 
history of the Air Force. In fact, 14 percent of our Air Force fleet is 
either grounded or operating under mission-limiting flight 
restrictions. Our comprehensive plan for modernization and 
recapitalization outlines the prudent investments necessary today to 
avoid the future capability risks and spiraling maintenance and 
modernization costs we currently experience with our legacy systems.
            Inventory Management
    Fiscal responsibility is a critical element of our plan. The Air 
Force is committed to planning and operating within our allocated 
resources. However, we face fiscal constraints that introduce risk into 
our efforts to successfully posture America's Air Force for the future. 
We appreciate congressional language in the 2007 National Defense 
Authorization Act supporting our efforts to retire older aircraft and 
manage our inventory of aging equipment. However, remaining legislative 
restrictions on aircraft retirements remain the biggest obstacle to 
efficient divestiture of our oldest, least capable, and most costly to 
maintain platforms and equipment. Keeping these legacy aircraft on the 
flightline levies additional operations and maintenance costs at the 
expense of modernization programs and funding. These costs cascade into 
procurement delays for future platforms and divert resources away from 
expanded Joint capabilities. We welcome the opportunity to work with 
Congress to overcome these fiscal challenges, reduce risks to meeting 
our National Security and Joint requirements, and successfully prepare 
our Air Force for the future.
            Procurement Priorities
    We design and structure every Air Force program throughout our 
diverse, comprehensive recapitalization and modernization plan to meet 
critical Air Force, Joint, and National requirements. Several programs 
currently receive our highest attention and represent our top 
priorities within the plan.
    Our top acquisition priorities include: the KC-X tanker; the CSAR-X 
combat search and rescue helicopter; space communications, space 
situational awareness and early warning programs; the F-35A Joint 
Strike Fighter (JSF); and Next Generation Long Range Strike--a new 
bomber. We will continue to advocate and advance these and many other 
modern elements of air, space and cyberspace capability. Collectively 
they will strengthen America's advantages in global vigilance, reach 
and power for years to come.
Global Vigilance
    The Air Force acts as the global eyes and ears of the Joint Team 
and our Nation. Using a vast array of terrestrial, airborne and 
spaceborne sensors, we monitor and characterize the Earth's sea, air, 
space, land, and cyber domains around the clock and around the world. 
Our command, control, communications and computers (C4) networks link 
the Joint Team together and speed information to users at the point of 
action, from commanders in AOCs, to ground units engaged with the 
enemy, to a pilot dropping a precision-guided munition.
    The future vision of all the U.S. military services is information-
driven. Success will hinge on America's cyberspace advantages. Air 
Force assets like Joint STARS, AWACS, Rivet Joint, Global Hawk, 
Predator and our constellations of satellites, contribute vital 
networking and C4ISR products and services to every aspect of every 
Joint operation. Our recapitalization and modernization plan aims to 
increase dramatically the quantity and quality of C4ISR capabilities, 
products and services available to the Joint Team and the Nation. Our 
plan especially focuses on ensuring Air Force space communications, SSA 
and early warning missions provide uninterrupted continuity of service 
for America and our allies.
            Transformational Satellite Communications System
    The Air Force continues to pursue next-generation satellite 
communications technology with the Transformational Satellite 
Communications System (TSAT). The TSAT program will employ internet 
protocol networks, on-board routing and high-bandwidth laser 
communication relays in space, dramatically increasing warfighter 
connectivity. TSAT capabilities will enable the realization and success 
of all DOD and Joint visions of future network-centric operations, such 
as the Army's Battle Command-on-the-Move and the Navy's Sea Power 21 
vision and Fleet FORCEnet/FORCEview concepts. In 2007, we expect the 
TSAT program to complete system design milestones.
            Advanced Extremely High Frequency System
    The Advanced Extremely High Frequency (AEHF) satellite 
communications system reaches assembly integration and test in 2007, 
preparing for first launch in spring 2008. When deployed, AEHF will 
provide the secure, survivable, anti-jam communications that MILSTAR 
currently provides. AEHF will, however, also provide greater bandwidth, 
larger throughput, faster dissemination, and better service quality to 
the United States and Allied users.
            Wideband Global SATCOM System
    In 2007, the Air Force will take the first major step in the 
modernization of its satellite communications architecture with launch 
of the first satellite in the Wideband Global Satellite Communications 
(SATCOM) System (WGS), a program formerly known as Wideband Gapfiller 
Satellite. A single WGS satellite has more communications capacity than 
the entire Defense Satellite Communications System it replaces, 
enabling direct broadcast of digital multimedia, high-bandwidth imagery 
and digital video information directly from global and theater sites to 
deployed warfighters.
            Terminal Programs
    Air- and ground-based satellite communications terminals provide 
warfighters with critical links to America's space assets from anywhere 
in the world. Our terminal modernization programs are maintaining pace 
with the high performance satellites they support. Through programs 
like the Family of Advanced Beyond Line of Sight Terminals (FAB-T) and 
the Ground Multi-band Terminal, the Air Force will transform its air- 
and ground-based space capabilities with terminals that consolidate 
logistics support, provide increased communications throughput, and 
ensure seamless command and control.
            Space Based Missile Warning Capabilities
    The Air Force is America's only provider of space-based missile 
warning. Providing a robust missile warning capability to the Nation 
through enhanced space-based ISR systems remains a priority in 2007. We 
expect to launch the final Defense Support Program launch (DSP-23) in 
spring 2007, continuing 36 years of the DSP constellation's outstanding 
service.
    The Space Based Infrared System (SBIRS) represents the next 
generation of Early Warning satellites. The first SIBRS Highly 
Elliptical Orbit (HEO) payload is currently deployed on-orbit and 
undergoing operational testing. The HEO-2 payload has been delivered 
for integration. Launch of the SBIRS Geosynchronous Earth Orbit (GEO)-1 
satellite is scheduled for late 2008. Once fielded, SBIRS will provide 
a transformational leap in capability over our current DSP system.
            Space Radar
    Space Radar (SR), another key transformational space-based ISR 
program, will have the ability to look into denied areas and to cue 
additional sensors, such as those on Predator and Global Hawk. The SR 
will provide COCOMs unprecedented surface wide-area surveillance 
capabilities, updating its AOR coverage report several times per hour. 
SR will characterize objects and activities of interest for target 
development in conjunction with other assets to meet critical Joint 
warfighter requirements. In 2007, the program will focus on building 
engineering development hardware while emphasizing risk reduction, 
integration, and systems engineering.
            National Polar-orbiting Operational Environmental Satellite 
                    System
    The National Polar-orbiting Operational Environmental Satellite 
System (NPOESS) is a tri-agency program sponsored by DOD, the 
Department of Commerce, and NASA. NPOESS will support DOD forces 
worldwide as well as homeland security agencies. The system will 
provide assured, timely and high-quality environmental data to our 
warfighters for weather forecasting, mission planning and weapons 
employment. NPOESS environmental data will also enhance our domestic 
preparedness when dealing with natural disasters.
            Rapid Attack Identification Detection and Reporting System
    Meeting the requirement to assist in the protection of our space 
assets, the Rapid Attack Identification Detection and Reporting System 
(RAIDRS) will provide a capability to detect and locate satellite 
communications interference using fixed and deployable ground systems. 
A fully operational RAIDRS Spiral 1 will be delivered in fiscal year 
2008 and provide detection and location of SATCOM interference. Future 
developments will automate data analysis and fusion, as well as provide 
decision support tools for near-real-time actions.
            Global Hawk
    The RQ-4A Global Hawk is a high altitude, long endurance UAV 
providing the Joint warfighter with persistent vigilance and 
observation of targets in day, night and adverse weather. Global Hawk 
entered development in 2001 after completing a successful advanced 
concept technology demonstration. We plan to develop and field the 
aircraft in blocks of increasing capability, allowing accelerated 
delivery to the warfighter, while the system evolves and expands to its 
full potential.
    We have already employed block 10, the first of four production 
variants, in support of GWOT. It provides an effective, persistent 
imagery capability using synthetic aperture radar (SAR) and electro-
optical/infrared (EO/IR) sensors. The larger Block 20 aircraft, which 
will begin development test in early 2007, will provide 50 percent more 
payload capacity carrying enhanced SAR and EO/IR sensors for even 
clearer images at greater ranges.
    In 2012, Block 30 will field a more versatile, multi-intelligence 
capability by integrating Block 20 imagery sensors with a robust 
signals intelligence (SIGINT) suite. The fourth Global Hawk variant, 
Block 40, will be available for operations in 2011. It will carry a 
single payload--a Multi-Platform Radar Technology Insertion Program 
sensor--to provide the warfighter a highly advanced radar imagery and 
moving target indicator capability. Global Hawk has demonstrated its 
combat value in GWOT and the Air Force will continue to mature and 
enhance its capabilities in the coming years.
            MQ-1 Predator
    Leading the way in armed reconnaissance, the Air Force is currently 
flying MQ-1 Predator missions 24 hours a day, 7 days a week. The MQ-1 
Predator is a medium-altitude, multi-role, long endurance UAV, 
providing persistent ISR and strike capabilities to COCOMs. Predator 
aircraft are able to transmit live, full motion digital video to 
ground-based and airborne targeting teams equipped with the Remote 
Operations Video Enhanced Receiver (ROVER) system.
    The Predator is operational, and by 2010, we will expand its 
capability from 10 to 21 total CAPs to meet increased COCOM and 
warfighter demands. We also plan to incorporate target location 
accuracy improvements to rapidly provide targeting data for GPS-guided 
munitions.
    Total Force airmen in Nevada and California control Predator 
aircraft operating in numerous locations around the world, including 
Iraq and Afghanistan. By 2010, this capability will spread to Air 
National Guard units in Arizona, North Dakota and Texas. The Predator 
has transformed the way we fight, providing persistent ISR, reliable 
target acquisition and lethal strike capability for COCOMs and our 
Joint warfighters.
            RC-135 Rivet Joint
    The RC-135 Rivet Joint continues its four decades of success in 
providing SIGINT capabilities across the full spectrum of Joint 
operations and national information needs. Most missions directly 
support OEF and OIF tactical operations, adding to Rivet Joint's 
outstanding record of accomplishment and continuous presence in CENTCOM 
since 1990.
    In addition to mission equipment upgrades, we have completed re-
engining and cockpit modernization, keeping the force viable until 
2040. In 2007, the Air Force will procure Rivet Joint 17, a GWOT 
acquisition for additional medium-altitude SIGINT capacity.
    Rivet Joint has become the cornerstone of an airborne targeting 
modernization effort known as Net-Centric Collaborative Targeting. 
Rivet Joint has demonstrated the capability to horizontally integrate 
C4ISR assets across the entire Joint Force and dramatically improve 
target location accuracy, timeliness and identification.
            Joint Surveillance Target Attack Radar System
    The E-8C Joint Surveillance Target Attack Radar System (Joint 
STARS) is an airborne battle management, command and control, 
intelligence, surveillance, and reconnaissance platform. Its primary 
mission is to provide theater ground and air commanders with surface 
moving target indications (SMTI) and tailored surveillance in support 
of operations and targeting. Joint STARS has been a significant 
contributor to U.S. Air Force fighting effectiveness in Operations 
Desert Storm, Joint Endeavor, Allied Force, OEF, and OIF. Continuing 
modifications and enhancements will sustain Joint STARS viability 
beyond 2034.
            E-3 Airborne Warning and Control System
    The E-3 Airborne Warning and Control System (AWACS) is the premier 
airborne command and control platform in the DOD and a key element of 
all airborne operations. AWACS supports decentralized execution of the 
Joint air component missions and provides theater commanders with the 
ability to find, fix, track and target airborne or maritime threats, 
and to detect, locate and identify radars. AWACS has been the key 
airborne asset in all operations since its fielding in 1983. Our 
ongoing modernization of the platform will position AWACS to remain a 
viable airborne command and control platform beyond 2035.
            Air and Space Operations Center
    The Air and Space Operations Center (AOC) weapon system is the 
Combined/Joint Force Air Component Commander's (C/JFACC's) tool for 
employing air, space and cyberspace power. The AOC enables decision-
makers to focus and synchronize our air, space and cyber superiority, 
global attack, precision engagement, information superiority, and rapid 
global mobility capabilities across the full range of military 
operations in multiple, geographically separated arenas.
    The AOC weapon system, with its Theater Battle Management Core 
System (TBMCS), has evolved significantly since its designation as a 
weapon system in 2001. We used the Al Udeid Combined AOC model to 
establish the AOC Weapon System Block 10.1 baseline. Creating this 
baseline enabled us to standardize our development, procurement and 
presentation of C2 capabilities to Joint and combined commanders 
worldwide. Increment 10.1 standardizes configuration among the five 
deployed FALCONER systems, providing operators with greater and faster 
access to air battle management information. The program team efforts 
continue to generate greater system performance for warfighters, with 
major improvements planned for delivery over the next 2 years.
    The Air Force has committed to continue evolving and modernizing 
our AOC weapon system through the FYDP, building toward a fully 
operational, cross-dimensional C2 enterprise by fiscal year 2014.
            Battle Control System--Fixed
    The Battle Control System--Fixed (BCS-F) system is a cooperative 
program with Canada. The system provides air defense and surveillance 
capability for the entire North American continent. BCSF supports ONE 
and serves as the Air Force's homeland defense battle management, 
command, and control system. The BCS-F system integrates data from 
multiple radar sensors providing tactical communications and data link 
capabilities with other military and civil systems responsible for air 
surveillance, air defense and control of sovereign U.S. air space.
            Battle Control System--Mobile
    The Battle Control System--Mobile (BCS-M) is the next generation of 
Low Density/High Demand (LD/HD) ground-based tactical C2 nodes 
supporting the warfighter with theater air defense, airspace 
management, aircraft identification, wide-area surveillance and 
tactical data link management. These are the same missions the current 
legacy system, the Control and Reporting Center, performs in support of 
OIF, OEF, and ONE, as well as homeland defense activities such as 
counter-drug operations and special security events.
            Air Force Distributed Common Ground System
    The Air Force Distributed Common Ground System (AF-DCGS) is the Air 
Force's premier ISR Tasking, Collection, Processing, Exploitation and 
Dissemination (TCPED) weapon system. From reach back locations, AF-DCGS 
operators collect raw sensor data from the Global Hawk, Predator, and 
other platforms around the world, turn it into decision-quality 
intelligence in near-real-time, and send it directly to those in need 
at the Joint Task Force level and below. Its proven capabilities in 
sharing and correlating multi-source SIGINT, imagery intelligence, and 
signature intelligence data will be enhanced with the fielding of the 
AF-DCGS Block 10.2, which is leading the way in DOD's net-centric ISR 
enterprise transformation.
Global Reach
    America's airmen provide not only the long legs and heavy lifting 
for Joint warfighters' rapid global mobility, but also the long arms 
for global strike and high endurance for global persistence and 
presence. On a daily basis, Air Force mobility forces support all DOD 
branches as well as other government agency operations all over the 
world. Increased demand and decreased availability underscore the 
critical need for tanker recapitalization and investment to ensure the 
long-term viability of this national capability. Without prudent, 
timely investment, our national defense, global vigilance, reach, 
presence and power are put in serious peril.
            Tanker Recapitalization
    Aerial refueling capability is essential to the expeditionary 
nature of America's armed forces. Aerial refueling serves as a Joint 
force multiplier, providing American and coalition air forces with 
increased range, persistence, and endurance. We are committed to 
maintaining an inventory of tankers that guarantees the projection of 
U.S. combat power.
    For the past 50 years, the Air Force's primary tanker platform has 
been the KC-135, and it has served with distinction. However, we are 
carrying great risk operating this aircraft beyond expected service 
life. Some of the oldest models already operate well beyond the point 
of cost-effective repair. Tanker recapitalization is not a new idea. In 
1999, a thorough GAO report presaged the declining operational utility 
of our aging tankers and underscored the need for immediate investments 
in recapitalization. Given the increased operational requirements of 
the GWOT, procurement of a new tanker aircraft--the KC-X--has become 
both an operational necessity and the most fiscally prudent option to 
maintain America's global presence and expeditionary capabilities.
    The KC-X is our number one procurement priority. KC-X tankers will 
provide increased aircraft availability, more adaptable technology, and 
greater overall capability than the current inventory of KC-135E and 
KC-135R tankers they will replace. Enhancements in every aspect of 
aircraft operation will provide the Joint warfighter with more flexible 
employment options. It is imperative we begin a program of smart, 
steady reinvestment in a new tanker--coupled with measured, timely 
retirements of the oldest, least capable tankers. Recapitalizing our 
tankers will ensure the viability of the vital national capability they 
provide.
            Intra-Theater Airlift
    The Air Force has a two-pronged approach to modernize America's 
intra-theater airlift capabilities. First, we are striving to replace 
our oldest aircraft with a mixture of new C-130Js and Joint Cargo 
Aircraft (JCA). The JCA offers the potential for additional solutions 
to the Air Force's intra-theater airlift recapitalization strategy. JCA 
will provide a modern mobility platform suited to accessing an array of 
demanding and remote worldwide locations, including short, unimproved 
and austere airfields.
    Second, we will standardize remaining C-130s via the C-130 Avionics 
Modernization Program (AMP) and center-wing box replacement programs. 
C-130 modernization extends operational lifetime, reduces operation and 
sustainment costs, and increases the combat effectiveness of our intra-
theater airlift capability.
    For decades, C-130s have been the workhorses for intra-theater 
airlift during numerous contingencies. Additionally, the C-17 has done 
a superb job augmenting the C-130s in the intra-theater airlift role. 
Similarly, the new C-130Js, which are far more capable than legacy C-
130s, have proved their worth supporting GWOT and humanitarian 
operations since December 2004.
            Inter-Theater Airlift
    The C-17 continues its outstanding support for Joint operations 
across the spectrum of conflict. During the past year, C-17s flew over 
44,000 sorties, bringing the total number of OEF and OIF missions to 
over 123,000. Additionally, the C-17 flew 900 humanitarian and disaster 
relief sorties following Hurricanes Katrina, Rita and Wilma, as well as 
the Southeast Asian tsunami, Pakistani earthquake, and the Lebanon non-
combatant evacuation operations. Given this high operational tempo, the 
Air Force appreciates congressional action to procure additional C-17s 
to sustain a fleet of 190.
    During 2006, the Air Force's other heavy lifter, the C-5 Galaxy, 
flew 5,500 sorties in support of the GWOT. Since September 11, 2001, C-
5 have flown over 50,000 sorties in support of the Joint warfighter and 
provided humanitarian aid around the world. To keep the C-5 mission 
capable and maximize capability, the Air Force is continuing the C-5 
Avionics Modernization Program (AMP) and the Reliability Enhancement 
and Re-engining Program (RERP). The AMP and RERP efforts ensure 
compliance with emerging airspace requirements, upgrade aircraft 
propulsion, and improve over 70 other unreliable C-5 systems, enabling 
this large airlifter to remain viable through 2040.
    Together, the C-17 and C-5 weapons systems provide complementary 
capabilities and are critical to meeting our U.S. inter-theater airlift 
requirements today and in the future--for the entire Joint force.
            Space Launch Operations
    The Air Force continues to fulfill its role as the guardian of the 
world's premier gateways to space and America's vital national space 
launch capabilities. Space launch is another element of Air Force space 
capability that is vital to American global military, political and 
economic success.
    With 14 operational launch successes, the Evolved Expendable Launch 
Vehicle (EELV) program provides assured access to space in support of 
operational requirements. In fiscal year 2007, we expect to continue 
building upon our DOD launch successes with seven EELV and three Delta 
II launches.
                Launch and Test Range System
    The Eastern and Western Ranges, located at Cape Canaveral Air Force 
Station, Florida and Vandenberg AFB, California, respectively, comprise 
the Launch and Test Range System (LTRS). The LTRS, part of the DOD's 
Major Range and Test Facility Base (MRTFB) infrastructure, provides 
tracking, telemetry, communications, command and control to support the 
testing of ballistic missiles, precision weapons, national missile 
defense and advanced aeronautical systems. The LTRS also provides the 
vital infrastructure necessary to support manned and unmanned space 
launches for DOD, national, civil and commercial space missions. We 
will continue LRTS modernization and further reinforce our capabilities 
to ensure space launch safety and mission success.
Global Power
    The U.S. Air Force provides the Joint Team a historically 
unprecedented ability to deliver a precise, tailored effects whenever, 
and wherever and however needed--kinetic and non-kinetic, lethal and 
nonlethal, at the speed of sound and at the speed of light. It is an 
integrated cross-dimensional capability that rests on our ability to 
control air, space and cyber. We exploit these domains to hold at risk 
any target on the surface of the Earth. As we continue to transform 
this capability, we will focus on expanding our effectiveness in 
multiple dimensions. We will continue to refine our abilities to 
deliver lethal and non-lethal effects at the time and place of our 
choosing, shortening the sensor-to-shooter ``kill chain.''
            Combat Search and Rescue
    Uniquely within DOD the Air Force organizes, trains and equips 
dedicated forces for Combat Search and Rescue (CSAR) mission. Air Force 
CSAR crews fulfill our absolute moral imperative to safely secure and 
return all of our airmen and any member of our Joint Team.
    We are recapitalizing this vital combat capability with the CSAR-X 
aircraft. This effort represents one of our top Air Force acquisition 
priorities. These modern aircraft will enable COCOMs to recover 
isolated Joint or coalition personnel engaged across the spectrum of 
military operations as well as perform non-combatant evacuation and 
disaster relief operations. CSAR-X aircraft will relieve the high 
OPSTEMPO strain placed on the current LD/HD inventory of HH-60G Pave 
Hawk helicopters, and they will present COCOMs with key combat and non-
combat mission options.
    This new aircraft will dramatically improve Air Force CSAR mission 
capabilities. It will provide our personnel recovery forces with an 
aircraft that is quickly deployable and capable of operations from 
austere locations. It will operate day or night, during adverse weather 
conditions, and in all environments including nuclear, biological and 
chemical conditions. On-board defensive capabilities will permit the 
CSAR-X aircraft to operate in an increased threat environment, and in-
flight refueling will provide an airborne alert capability and extend 
its combat mission range.
    These increased capabilities are crucial to meeting current and 
future Joint operational needs, while providing greater capability to 
Air Force CSAR forces, ``that others may live.''
            F-35A Lightning II
    The F-35A Lightning II JSF is a fifth-generation multi-role strike 
fighter aircraft optimized for air-to-ground attack. The F-35A is the 
Conventional Take-off and Landing (CTOL) variant, and it will 
recapitalize F-117, F-16 and A-10 combat capabilities. The F-35A will 
complement the capabilities of the F-22A. Like the Raptor, the F-35A 
reaps the benefits of decades of advanced research, development and 
field experience.
    The F-35A will provide affordable precision engagement and global 
attack capabilities for the Air Force, Navy, Marines, and our 
international partners. In 2006, the JSF program delivered the first 
CTOL variant test aircraft and completed its first flight on December 
15, 2006.
            Next Generation Long Range Strike
    Range and payload are the soul of an Air Force. These elements form 
the foundation of strategic military deterrence. The LRS mission, a 
primary reason the Air Force became a separate Service in 1947, 
continues as a vital and unique Air Force contribution to national 
defense. The Air Force has a three-phased strategy to help ensure the 
United States meets its enduring LRS capability requirements. Phase one 
includes near-term maintenance and modernization of current bombers and 
air-to surface weapons.
    By 2018 and in accordance with QDR goals, phase two will deliver a 
new LRS bomber incorporating highly advanced technologies. This next 
generation bomber will combine speed, stealth, payload, and improved 
avionics/sensors suites. This new bomber will bring America's bomber 
forces up to the same high standard we are setting with our F-22A and 
F-35A fifth-generation fighters. It will ensure our bomber force will 
continue to be effective in meeting COCOMs' global needs across the 
full range of military operations. The analysis of alternatives will be 
complete in the spring of 2007.
    In phase three, the Air Force plans to field a revolutionary LRS 
capability in the 2035 time frame using an advanced system-of-systems 
approach. We expect technology maturation to yield advancements in 
several areas, including hypersonic propulsion, advanced materials and 
non-kinetic weapons.
            F-22A Raptor
    The F-22A Raptor is the Air Force's primary air superiority 
fighter, providing unmatched capabilities for operational access, 
homeland defense, cruise missile defense and force protection for the 
Joint Team. The F-22A's combination of speed, stealth, maneuverability 
and integrated avionics gives this remarkable aircraft the ability to 
penetrate denied, anti-access environments. The F-22A's unparalleled 
ability to find, fix, track, and target enemy air- and surface-based 
threats ensures air dominance and freedom of maneuver for all Joint 
forces. In addition, the F-22A is the only airborne system in the U.S. 
military that can conduct network-centric warfare and provide ISR 
capability from inside adversary battlespace in the opening moments of 
any contingency.
    Until the F-22A became operational in 2005, America's Air Force had 
not fielded a new fighter since the 1970s. Today, combat-capable 
Raptors are in full-rate production on the world's only fifth-
generation fighter production line. As of January 1, 2007, 84 aircraft 
have been delivered, including 44 combat coded aircraft, and another 25 
are in production. The first operational F-22A unit declared initial 
operational capability at Langley AFB, Virginia in December 2005. The 
second operational F-22A unit will pick up the AEF rotation in May 
2007. Meanwhile, the third operational unit is standing up at Elmendorf 
AFB, Alaska with a projected AEF rotation of May 2008. We will also 
station a fourth unit at Elmendorf, followed by fifth and sixth units 
at Holloman AFB, New Mexico and the seventh unit at Hickam AFB, Hawaii.
    The F-22A flew its first operational mission in support of ONE in 
January 2006, participated in the Alaskan Northern Edge exercise in 
July 2006, and is preparing for upcoming AEF deployments.
            MQ-9 Reaper
    Similar to its smaller MQ-1 Predator sibling, the MQ-9 Reaper is a 
medium-altitude, multi-role, long endurance UAV that will provide 
persistent ISR and improved strike capabilities to COCOMs. MQ-9 
incorporates MQ-1 operational design improvements, a larger airframe, 
battle-proven sensors, full motion digital video, Rover connectivity 
and expanded munitions capability.
    Initial mission capability will begin at Nellis AFB Nevada, with 
future expansion to New York ANG. In 2007, we expect to continue 
rigorous MQ-9 development and demonstration, as well as operational 
employment with pre-production aircraft to meet urgent Joint warfighter 
needs.
    The MQ-9, like the MQ-1, will also incorporate target location 
accuracy improvements to support GPS-guided munitions. Ultimately, the 
MQ-9 will provide theater commanders with expanded employment options 
in a vastly improved hunter-killer UAV, incorporating a larger payload, 
automatic cueing, and self-contained capabilities to strike time 
sensitive and hard targets.
            CV-22 Osprey
    The Air Force will procure 50 CV-22s, with an initial operational 
capability scheduled for fiscal year 2009. The CV-22 is a V-22 tilt-
rotor aircraft designed to meet a U.S. Special Operations Command 
(USSOCOM) requirement for long-range infiltration, exfiltration, and 
re-supply of Special Operations Forces. The CV-22's advanced systems 
include terrain following/terrain avoidance radar, integrated RF 
countermeasures, directional infrared countermeasures, the multi-
mission advanced tactical terminal, and additional fuel tanks and 
tactical communications gear.
            Global Positioning System
    The Global Positioning System (GPS) constellation serves as a 
global utility for precision navigation and timing. GPS is yet another 
Air Force mission that has become vital to American military and global 
economic activity. As with all elements of the Air Force space mission, 
we are dedicated to ensuring uninterrupted continuity of GPS services.
    GPS modernization continues in 2007 with additional launches of GPS 
IIR-M satellites. The GPS IIR-M satellites will provide a new military 
signal more resistant to jamming and a new civil signal for improved 
position accuracy for civil, commercial, and recreational GPS users. 
The follow-on system, GPS IIF, will provide IIR-M capabilities plus an 
additional civil signal for aviation safety-of-flight services. The 
development of the next-generation GPS-III will further enhance 
navigation and precision-engagement capabilities and improve resistance 
to jamming, as well as add a third civil signal compatible with the 
European Galileo System.
            Counter Communications System
    As part of the broader counterspace mission, the ground-based, 
theater-deployable CCS provides COCOMs with a non-destructive, 
reversible capability to deny space-based communication services to our 
adversaries. CCS enhances our capability to ensure air, space and 
cyberspace superiority for the Nation.
    We plan to procure three additional operational CCS and one 
training system. This comprises the full complement of systems for two 
space control squadrons. We will continue block upgrades to the CCS to 
enhance our offensive counterspace capabilities and begin pre-
acquisition work for the next generation CCS.
            Intercontinental Ballistic Missiles
    America's ICBM force remains the foundation of our Nation's nuclear 
deterrent capability. Modernization programs are crucial to the 
Minuteman ICBM, which, when initially deployed in the 1960s, were 
designed to last 10 years. Service life extension programs are underway 
to ensure the Minuteman III remains mission capable through 2020. These 
programs replace obsolete, failing, and environmentally unsound 
materials, while maintaining missile reliability, survivability, 
security and sustainability. These efforts are critical to sustaining 
the ICBM force and are vital to America's nuclear deterrent posture.
            Operationally Responsive Space
    The Air Force intends to continue its demonstration, acquisition, 
and deployment of an effective Operationally Responsive Space (ORS) 
capability in support of the DOD's focus on meeting the urgent needs of 
the COCOM.
    ORS includes the ability to launch, activate and employ low-cost, 
militarily useful satellites to provide surge capability, reconstitute 
damaged or incapacitated satellites, or provide timely availability of 
tailored or new capabilities. ORS capabilities can lead to long-term 
benefits by advancing technology, improving space acquisitions, 
enhancing the skills of the technical workforce, and broadening the 
space industrial base.
                Space Development and Test Wing
    In 2006, the Air Force established the Space Development and Test 
Wing (SDTW), headquartered at Kirtland AFB, New Mexico, to focus on the 
development and testing of orbital assets with the goal of encouraging 
innovation in the space mission area.
    One of the wing's responsibilities is ORS. Working with other 
services and agencies, it will perform concept development, design, 
manufacturing, and operation of small satellites, as well as other 
activities required to support the fielding of ORS capabilities. As 
capabilities are developed and fielded, the wing will directly 
interface with user organizations responsible for employing ORS 
capabilities in Joint and coalition operations.
    During fiscal year 2007, we will develop a plan further refining 
ORS. This plan will fully define ORS roles and missions, along with the 
organization and reporting structure. In addition, we plan to develop 
specific acquisition policies, implementation schedules, funding, and 
personnel requirements to support deployment of ORS capabilities.
Science and Technology
    True to our history over the past century of powered flight, the 
Air Force continues to maintain the most complex, diverse and ambitious 
Science and Technology (S&T) portfolio of all the Services. History 
clearly demonstrates the broad benefits to America of our S&T efforts, 
in terms of military power, industrial capability, economic growth, 
educational richness, cultural wealth, and national prestige. Examples 
include aerospace technology and propulsion, materials science, 
advanced computing and communications, atmospheric science, remote 
sensing and satellite navigation. What has been good for the Air Force 
has been great for America. We are committed to building upon this 
heritage.
    The Air Force S&T program develops, demonstrates and tests 
technologies and advanced warfighting capabilities against the spectrum 
of 21st century threats. As we continue to adapt to a volatile and 
uncertain world, today's focused investment in our S&T program will 
strive to produce the future warfighting capabilities needed to ensure 
America's continued technological pre-eminence and military 
flexibility. Additionally, Air Force S&T organizations work closely 
with the other Services, Defense Agencies, Intelligence Community, and 
other Federal agencies, such as the National Aeronautics and Space 
Administration, as well as partner nations. Through these partnerships, 
we leverage efforts, share information, and advance state-of-the-art 
technologies.
    The Air Force S&T program provides the foundation for future Joint 
warfighting capabilities, focusing on dominance of the air, space and 
cyberspace domains for America.
            Improving Energy Efficiency
    The Air Force is taking the lead in reducing the DOD's dependence 
on foreign oil. As the DOD's leading consumer of jet fuel, we are 
currently engaged in evaluating alternative fuels and engine 
technologies leading to greater fuel efficiency. Air Force efforts 
focus on high-efficiency aerodynamic concepts, advanced gas turbines 
and variable cycle engines providing higher performance and greater 
efficiency.
    As a part of this effort, the Air Force is performing flight tests 
on a B-52 using a blend of MILSPEC JP-8 fuel and a synthetic fuel 
derived from natural gas. We plan to continue airworthiness 
certification testing of synthetic fuel.
            Cyber Technology
    Fulfilling its role as a leader in the information age, the Air 
Force is exploring technologies and concepts of operations within the 
cyberspace domain. Air Force cyberspace initiatives will provide tools 
for offensive and defensive cyberspace operations as well as bolster 
our information assurance capabilities. The Air Force is investing in 
technology concepts to ensure reliable, operational links between 
individuals and systems--in addition to machine-to-machine interfaces--
to ensure cyberspace dominance, information delivery, situational 
awareness, and rich connectivity across the Joint Team.
            Small Satellites
    The Air Force is pursuing development of small satellite 
technologies, including modular buses with ``plug-n-play'' payloads, 
along with the development of low-cost launch systems. We aim to 
provide a greater range of responsive space applications for the 
tactical warfighter. Small satellite technology demonstrations have 
achieved lighter payloads and reduced development and integration 
timelines. Additionally, these achievements serve to mitigate 
technology risks for larger, more complex satellite programs in 
development. Small satellites with operationally responsive payloads 
could potentially provide either specifically tailored, stand-alone 
capabilities, or rapid augmentation capability for a satellite or 
constellation of satellites that suffer failure or attack.
            Directed Energy
    Directed energy weapons will profoundly transform how we fly, 
fight, and defend ourselves, and we are integrating them into our 
broader cyber operations effort. As lasers and radio frequency weapons 
find applications in the battlespace, their ability to operate at the 
speed of light will change both offensive and defensive capabilities 
and tactics. New designs and technology may be necessary to offer 
adequate protection for our people and capabilities.
    Weapons in development include the Airborne Laser (ABL), a large 
aircraft carrying the high energy laser for missile defense. 
Additionally, the Active Denial System has demonstrated the viability 
for a long-range, non-lethal, anti-personnel weapon.
    These systems benefit from many years of technology development. 
Revolutionary technologies continue to be developed. These include 
versatile high power solid-state lasers; devices for aircraft self-
protection; higher power active denial components for airborne 
applications; relay mirrors to extend the range of systems like ABL; 
and high power microwave devices to disable electronics covertly 
without affecting structures or people.
            Hypersonics
    The Air Force is a world leader in the development of practical 
hypersonic air-breathing propulsion. Hypersonic research, relating to 
flight speeds greater than five times the speed of sound, offers 
dramatically reduced time-to-target for conventional weapons and, in 
the future, may provide ``airplane-like'' on-demand access to space. 
Our effort involving supersonic-combustion-ramjets (Scramjets)--
specifically our planned flight tests of the X-51 Scramjet Engine 
Demonstrator--highlights our commitment to maintaining America's 
leading role in this field.
    We also expect advanced hypersonic munitions technologies to 
improve penetration capabilities and decrease collateral damage. These 
characteristics will allow us to expand our target attack ability, 
particularly in urban environments and against time critical, hardened, 
and buried targets.
            Composites
    Air Force S&T is exploring advancements in composite structures and 
manufacturing technologies for lightweight unconventional aircraft 
shapes. Example applications include short take-off and landing 
capabilities, high-lift aircraft wing systems, integrated propulsion 
inlet/diffuser geometries, and integrated flight control surfaces. We 
expect these efforts to shorten development times for next generation 
aircraft with lighter, stronger airframes offering far greater mission 
utility than legacy aircraft.
    Simultaneously, we are addressing sustainment of composite 
structures, in order to ensure future aircraft built with these 
materials will be readily maintainable and serviceable.
            Nanotechnology
    Investment in nanotechnologies could provide stronger and lighter 
air vehicle structures including potential applications in unmanned 
vehicles. Other nano-materials show promise as high-performance water-
repellant coatings. These coatings may protect Air Force systems 
against corrosion and chemical/biological contaminants, providing 
significant savings in maintenance costs and extending the lifetime of 
aircraft and other military equipment.

                         DELIVERING EXCELLENCE

    Fighting the GWOT, developing and caring for our airmen and their 
families, and recapitalizing and modernizing the Air Force all require 
substantial national resources.
    Throughout 2006, the Air Force embarked on several forward-leaning 
initiatives to improve our organization, efficiency, agility and 
lethality. We are committed to good stewardship of America's resources, 
while strengthening America's current and future air, space and 
cyberspace capabilities.
    The Air Force is making strides in a range of activities and 
through multiple, overlapping initiatives to improve what the QDR 
refers to as ``reshaping the defense enterprise.'' The Air Force is 
moving toward financial transparency and reinforcing our culture of 
efficiency and process improvement through the AFSO21 initiative. We 
are also transforming our approach to infrastructure and maintenance, 
executing an aggressive energy strategy, and reforming our acquisition 
practices--emphasizing a ``Back to Basics'' approach to space 
acquisitions, in particular.
    All of these efforts will lead to greater efficiency, lower 
operating costs, and greater availability of resources for 
recapitalization and modernization of critical Air Force capabilities. 
In short, our airmen are striving to provide an even higher return on 
America's national security investments.
Air Force Smart Operations for the 21st Century
    To meet the challenges of this environment and the road ahead, we 
have embarked on an Air Force-wide effort embracing efficiency and 
process improvement. AFSO21 applies many concepts developed and proven 
in industry--Lean, Business Process Reengineering, Six Sigma, and 
Theory of Constraints methodologies. We expect significant savings from 
this initiative.
    The AFSO21 vision is to increase combat capability by integrating 
process improvement into the culture of all of the Active Duty, Air 
National Guard and Reserve airmen, as well as our civilians and 
contractors. All airmen must understand their role in improving daily 
processes. AFSO21 identifies and eliminates activities, actions and 
policies that do not contribute to efficient and effective operations.
    We seek several outcomes from AFSO21. First, we want all airmen to 
be fully aware of the importance of their work--how they contribute 
directly to the Air Force mission and national defense. Second, we will 
strive to improve safety and maintain quality of life for all Air Force 
personnel. Third, we push to decrease process cycle times, thereby 
increasing our ability to respond to rapidly changing demands. Fourth, 
we aim to cut costs and free up funds for modernization. Finally, we 
seek to eliminate waste.
    Process changes have occurred at every level of the Air Force, 
resulting in significant savings. We have more work to do, but 
institutionalizing AFSO21 concepts into daily operations allows us to 
meet the enormous challenges of the next decade and ultimately sustain 
and modernize the world's premier air, space and cyberspace force.
Business Transformation
    The Air Force vision of business transformation creates rapid and 
predictive operational support and leads to greater situational 
awareness for commanders. Our high-level business transformation goals 
include improving warfighter effectiveness through fast, flexible, 
agile, horizontally integrated processes and systems; establishing a 
culture of continuous process improvement; achieving efficiencies 
allowing us to return resources for the recapitalization of aging 
weapons systems and infrastructure; and creating an acquisition process 
unparalleled in the Federal Government.
National Defense Authorization Act Certification and Portfolio 
        Management
    The Air Force fully leverages DOD enterprise transition planning 
and DOD-mandated certification reviews. We ensure business systems 
development supports the effects and capabilities articulated in the 
agile combat support concept of operations. These certification reviews 
have resulted in the shutdown and elimination of hundreds of legacy 
systems and allowed us to redirect additional resources to critical 
warfighting requirements.
Transparency
    The Air Force is accelerating efforts to deliver authoritative 
information to decision-makers at all levels, improving information 
availability and quality, realizing warfighter cross-service 
information requirements, and implementing DOD-wide information 
priorities. We will achieve transparency by using correct information 
at all echelons--trustworthy, traceable, auditable, and valuable. We 
will support cross-domain or cross-mission efforts by defining 
architecture and information standards necessary for easy discovery, 
use and reuse of data.
Clean Audit Quick Look
    Warfighters perform their missions with increasingly limited 
resources and manpower. Decision-makers at every level need the best 
information when allocating these scarce resources. To achieve greater 
levels of information fidelity, the Air Force is committed to improving 
transparency in its business processes, to include financial 
management. A clean audit opinion defines a major objective of this 
commitment. Financial transparency requires the Air Force to have 
processes and procedures in place ensuring data is accurately collected 
at the source, flows efficiently through to reporting systems and 
analytical tools, and is error-free.
    The Air Force Information Reliability and Integration (AFIR&I) plan 
is our road map toward financial transparency. It is a key component of 
the DOD Financial Improvement and Audit Readiness (FIAR) Plan aimed at 
improving DOD financial health. The AFIR&I Action Plan reinforces our 
ongoing commitment to ensuring the absolute highest level of 
stewardship of our Nation's investments in the Air Force.
Energy Conservation
    We are pursuing an aggressive energy strategy and are committed to 
meeting and surpassing the energy goals mandated by the Energy Policy 
Act of 2005 (EPAct 05) and other national policies. We successfully 
reduced our energy consumption in accordance with past legislation and 
continue to use a variety of programs aimed at reducing our use of 
fossil fuels and controlling cost growth. Our vision creates a culture 
where airmen make energy considerations in all their actions. We aim to 
implement our vision with solutions that include alternate sources of 
domestic energy as well as an aggressive drive for greater efficiency 
in our facilities and vehicles.
    The Air Force remains the largest renewable energy purchaser in the 
United States. Our commitment to install 18 megawatts of solar 
photovoltaic energy at Nellis AFB is one example of our pursuit of on-
base renewable power generation. Currently 37 bases meet some portion 
of their base-wide electrical requirements from commercial sources of 
wind, solar, geothermal or biomass. We have several projects planned, 
in design, or under construction to expand this capability. With our 
combined purchase and production strategy, the Air Force is poised to 
surpass the renewable goals set by the Energy Policy Act.
    The Air Force applies sustainable development concepts in the 
planning, design, construction and operation of facilities using the 
Leadership in Energy and Environmental Design (LEED) certification 
process. Our long-term goal is to ensure 100 percent of eligible new 
facilities are LEED certifiable by fiscal year 2009. This complements 
our use of facilities construction and infrastructure improvement 
programs designed to create cost effective energy efficiencies in new 
and existing facilities.
    We have also taken an aggressive stance on replacing our existing 
general-purpose vehicles with low speed vehicles (LSVs) without 
adversely affecting peacetime or wartime mission requirements. This 
measure will reduce vehicle acquisition cost, fuel expenditures and 
ozone-depleting exhaust emissions and free up funds for use in other 
critical areas. Our goal is to replace 30 percent of general-purpose 
vehicles with LSVs by fiscal year 2010. Coupled with the goal to 
replace 100 percent our general-purpose vehicles with alternative fuel 
vehicles, the Air Force is taking the lead in the use of alternative 
energy technologies.
Acquisition Excellence
    The Air Force continues its goal of streamlining the acquisition 
process to providing efficient and responsive services to the 
warfighter. A number of completed and ongoing projects have contributed 
to the improvement of acquisition, and fiscal year 2008 promises more 
progress.
    We have revitalized the acquisition strategy panel, providing a 
systematic and disciplined approach to develop an effective acquisition 
program roadmap. The newly developed Air Force Review Board process 
provides a structured and repeatable system that aids decision-making 
on critical aspects of selected acquisition programs. We have also 
streamlined periodic review processes by combining several independent 
reviews into a single event, saving preparation and travel time.
    In 2006, the Defense Acquisition Performance Assessment (DAPA) made 
a number of recommendations for improving the acquisition system. The 
Air Force is in the process of evaluating and implementing key 
recommendations of the DAPA report. For example, the Air Force is 
exploring the concept of Time Certain Development (TCD) as the next 
step in evolutionary acquisition. TCD involves structuring a program to 
deliver its initial capability to the warfighter at an explicitly 
specified (and much shorter) interval. Such a policy helps improve the 
responsiveness of the acquisition system and keeps our warfighting 
capabilities aligned to current threat conditions.
    To enhance the credibility of the acquisition system, the Air Force 
is strengthening its efforts to analyze risks prior to initiation and 
execution of a program. The Air Force is prototyping the probability of 
program success model, a framework for identifying and reporting risk 
issues that threaten a developer's ability to deliver on time and 
budget. Use of this model has the potential to highlight risk areas 
requiring the program manager's attention.
    The Air Force is improving the source selection process, ensuring 
appropriate use of incentives, assessing current contracting 
organizational alignments, and implementing strategic sourcing 
strategies. We are committed to providing support of contingencies and 
to the warfighter by acquiring commodities and services by the most 
effective means possible. We continue to maintain the majority of the 
deployed contingency contracting assets in the Iraq/Afghanistan AOR, 
and we remain dedicated to supporting the COCOMs through Joint and Air 
Force taskings.
Space Acquisition
    The Air Force is committed to revitalizing and restructuring its 
overall space acquisition strategy. We will build upon our heritage of 
providing unmatched space capabilities to meet national, COCOM, and 
Joint force objectives by developing and executing more deliberate 
plans focused on cost and schedule containment.
    The Air Force ``Back to Basics'' initiative is part of our plan to 
improve space acquisitions. The initiative promotes a renewed emphasis 
on management techniques and engineering practices that lead to better 
definition of requirements as well as deliberate acquisition strategy 
planning. Clear and achievable requirements, appropriate resources, 
disciplined systems engineering, and effective management are the basic 
elements--the foundation upon which successful acquisition depends.
    The ``Back to Basics'' initiative promotes a block approach 
strategy focused on delivering capability through value-added 
increments. This concept is consistent with current policy specifying 
``evolutionary acquisition as the preferred strategy'' for DOD 
acquisition. Specific capability increments are based on a balance of 
capability, delivery timeline, technology maturity, risk, and budget. 
Well-defined increments reduce many of the instabilities plaguing our 
past efforts. We will deliberately apportion cost, schedule, and 
technical risk across these increments to meet the primary objective--
delivering combat capability on a predictable timeline and at a 
predictable cost.
    In 2006, the Air Force restructured two major programs to comply 
with the ``Back to Basics'' strategy initiative. We have restructured 
the GPS III and TSAT programs to reduce risk and define executable 
block strategies. We expect these changes to deliver warfighting 
capabilities in the least amount of time.
    In 2007, the Air Force will expand the implementation of its ``Back 
to Basics'' initiative by deliberately and establishing block 
development strategies for a greater number of programs within the Air 
Force space portfolio. We will continue our conscientious efforts to 
stabilize requirements, funding, and workforce within program blocks. 
This strategy will place increased emphasis on cost estimating, systems 
engineering, and risk management to provide capability to our 
warfighters.
Small Business Programs
    The Air Force employs over 129 small business professionals across 
the country. They strengthen our Nation's industrial base through their 
advocacy for the small business community. They also identify future 
procurement opportunities for small businesses and refer these 
companies to potential Air Force customers. We surpassed our small 
business goals for the third consecutive year across all Air Force 
primary small business programs. Small business prime contract awards, 
in both dollars awarded and percentage of total procurement, increased 
in every category. We awarded a record $8 billion in Air Force 
contracts to small businesses, accounting for 16.9 percent of all 
awarded contract dollars. Additionally, we awarded $86 million to 
Historically Black Colleges and Universities (HBCU) and other minority 
institutions, accounting for 9.1 percent of all awarded contract and 
grant dollars to institutions of higher education.
Operations and Maintenance Facility Projects
    The Air Force will continue to prioritize investments in facilities 
and infrastructure critical to mission operations. Maintenance and 
repair of runways, weapons system facilities, utility systems, and 
training facilities represent the Air Force's top projects. We will 
invest O&M funds to maximize the economic life and value of this 
critical infrastructure, minimizing mission disruptions. The Air Force 
continues to face significant challenges in preserving an aging 
inventory of utility systems, airfield pavements, and essential support 
facilities.
Depot Maintenance Transformation
    Throughout Air Force history, our depots have been vital to 
success. Our commitment to retain technically relevant depot-level 
maintenance and repair capability will ensure sustainment of the 
world's dominant air, space and cyberspace capabilities beyond the next 
decade. We programmed investments in depot infrastructure, equipment, 
and personnel throughout fiscal year 2004-fiscal year 2009 in order to 
implement the Air Force depot maintenance strategy and master plan. The 
Air Force strategy benchmarks industry standards to improve depot 
maintenance infrastructure, implement re-engineering initiatives, and 
transform depot processes to maintain ``world-class'' status.
Repair Enterprise
    As an expeditionary air, space and cyberspace force, we challenged 
our logisticians to develop agile combat support concepts that enhance 
our current and future warfighting capabilities. Repair Enterprise 
(RE21) is a lean logistics initiative and an integral part of the 
Global Logistics Support Center (GLSC) concept of providing global 
logistics support to the Air Force. RE21 leverages global visibility of 
all repair assets, centralized funds management, strategic sourcing, 
and partnerships with industry to provide the Air Force highly 
technical logistical support. The main RE21 goal is to establish an 
enterprise-wide single repair network supporting the entire Air Force 
supply chain and to optimize support to the warfighter through the 
GLSC.

                           MINDING THE FUTURE

    September 18, 2007, will mark the 60th anniversary of the creation 
of our independent United States Air Force. This year, we commemorate 
this anniversary of our proud service--a service born of revolutionary 
ideas, forged in combat, and proven through decades of progress and 
achievement. The mission of the Air Force remains to fly, fight and 
win--in, through and from air, space and cyberspace.
    While remembering our history and reaffirming our commitments to 
the current fight, we are ever mindful of the need for investment in 
future capabilities. We will remain focused on our top priorities: 
Fighting and winning the GWOT; developing and caring for our airmen; 
and recapitalizing and modernizing the Force. Meeting these priorities 
has become more challenging in light of current fiscal constraints. 
Nonetheless, we will move forward, striving to maintain the global 
vigilance, reach and power advantages America has come to expect. Our 
allies respect us, and our enemies fear us.
    The Air Force has faced challenging times in its past and is 
meeting the stress of today's operating environment. It is our heritage 
and mission to fly, fight and win. Our legacy inspires us. Our mission 
propels us. Our core values guide us. We have inherited and will build 
upon a rich heritage--a heritage shaped through the ingenuity, courage 
and resolve of great airmen who preceded us. Our proud heritage, 
focused priorities, and enduring core values will serve to guide our 
actions and reaffirm our commitments today, over the next 60 years, and 
beyond.

    Senator Inouye. Now may I call upon General Moseley.
STATEMENT OF GENERAL T. MICHAEL MOSELEY, CHIEF OF STAFF
    General Moseley. Mr. Chairman, distinguished members of the 
subcommittee and staff, thank you all for your continued 
support for your airmen, your Air Force and the joint team out 
there today, defending this country--soldiers, sailors, airmen, 
marines, coast guardsmen altogether.

                           OUTSTANDING AIRMEN

    Sir, if you'd allow me, instead of an oral statement, I'd 
like to introduce five great Americans that wear the uniform of 
the United States Air Force. I'd ask them to stand up as I 
introduce them.
    Let me start with Lieutenant Colonel Marty McBride. He is 
currently the 81st Fighter Squadron Commander in Spangdahlem 
Air Base, Germany. He's a graduate of Texas A&M University, 
he's a weapons officer, graduate of the Fighter Weapons School. 
He's recently returned from Afghanistan where he led a Total 
Force--Guard, Reserve and Active--group of airmen through 24 
hours a day, 7 days a week combat operations from May through 
September 2006. His squadron flew over 2,000 missions, 7,000 
combat hours. He accomplished over 520 troops-in-contact close 
air support missions. His squadron delivered 102,000 rounds of 
30 millimeter and delivered over 300 bombs against hostiles, in 
support of activities in Afghanistan.
    Next, Major Toby Doran, he's currently Chief of Tactics at 
Headquarters Air Force Space Command. He's a graduate of Oregon 
State University, and he was prior enlisted as an airborne 
crypto-logic linguist. He served in that capacity aboard our 
rivet joint aircraft, for Operations Desert Shield, Desert 
Storm, and Provide Comfort. He's most recently returned from Al 
Anbar Province, where he served alongside or embedded in the 
First Marine Expeditionary Force Forward from February to July 
2006, and where he was responsible for ensuring seamless 
connectivity from our space assets and our other airborne 
assets, to provide accurate targeting and navigation for the 
marines' activity in western Iraq.
    Next is Captain Andi McElvaine. She's a graduate of 
Syracuse University, she's also a weapons officer, graduate of 
the Weapons School, B-52 combat pilot. She's been an aircraft 
commander, a unit deployment manager out of Barksdale Air Force 
Base, Louisiana, and she's a weapons and tactics officer now at 
Minot Air Force Base in North Dakota. She was deployed multiple 
times on combat deployments, and on force presence deployments, 
in the Arabian Gulf, or Operation Southern Watch, two times for 
Operation Enduring Freedom, two times to Anderson Air Force 
Base on Guam as part of U.S. Pacific Command's continual bomber 
presence in the western Pacific.
    Next, is Tech Sergeant Jason Marfell. Mr. Chairman and 
subcommittee members, as a fighter pilot and an aviator, this 
is the guy that we have a moral and ethical obligation to, 
because he is a pararescueman, he is a PJ. If you dismount from 
your airplane, this is the guy that will come get you, 24 hours 
a day, 7 days a week, day or night, anywhere on the surface of 
the Earth. He's in the 38th Rescue Squadron at Moody Air Force 
Base, Georgia. He's the noncommissioned officer in charge of 
standardization and evaluation. He entered the Air Force in 
February 1993, and he's been a PJ since September 1995. He's 
earned two Sikorsky Awards for skill and courage during two 
actual life-saving missions. During one of those, he flew 200 
nautical miles out to save a Russian sailor who was having 
abdominal problems. He saved, also, an Icelandic fisherman who 
suffered abdominal traumas out over the water.
    He's also won the U.S. Air Forces in Europe Pitsenbarger 
Award for performing the top life-saving rescue of the year. 
He's also deployed multiple times for a wide range of 
contingency and combat ops: Operation Southern Watch, Operation 
Northern Watch, Operation Enduring Freedom. Three times he's 
deployed to the gulf coast for space shuttle transoceanic 
landing activities, he's deployed to Southern Africa for 
Operation Atlas Response, he's deployed to provide humanitarian 
disaster relief after flooding in Mozambique and in South 
Africa in February 2000. Sir, this is the guy who will come get 
you. That's why combat search and rescue for us is the number 
two procurement priority; to make sure he has a platform that 
he can dismount from.
    Last is Staff Sergeant Christine Chavez. She's a refueling 
boom operator, she's at McConnell Air Force Base, Kansas in the 
refueling wing. She entered the Air Force in 2001. Out of 
Airmen Leadership School she graduated as a top graduate with 
the Levitow Award. Other assignments include flight supervisor, 
refueling instructor at McConnell, in-flight refueling systems 
operator at McConnell. She's had numerous combat deployments 
also--Operation Southern Watch, Operation Enduring Freedom, 
Operation Iraqi Freedom. She's operated out of Diego Garcia; 
Sheikh Isa, Bahrain; Al Udeid, Qatar; and Al Dhafra, the U.A.E. 
She's got about 1,000 hours of combat flying time, and 163 
combat missions. Sir, this is a face on why the tanker is the 
number one priority for us, so we can be able to transfer fuel 
to be able to maintain the Air Force's asymmetric advantage in 
global reach, global ISR, and global strike.
    So, Mr. Chairman, and distinguished members of the 
subcommittee and staff, what a pleasure and an honor it is to 
serve alongside these people, and thank you for letting me 
introduce them to you this morning.
    Senator Inouye. On behalf of the subcommittee, I'd like to 
thank you ladies and gentlemen for service to our Nation. For 
your courage, your patriotism. Without you, our Nation would 
not have survived. Thank you very much.
    Senator Stevens.
    Senator Stevens. I join you, Mr. Chairman in commending the 
Secretary and the General, and also in welcoming these fine 
representatives of the Air Force here today. I do congratulate 
you all, and thank you for what you do.

              CHALLENGES OF MAINTAINING AIRCRAFT INVENTORY

    Secretary Wynne, what do you think the challenges are now 
for maintaining our inventory, given some of the legislative 
provisions about retirement of aircraft? It seems to me that 
you're at the juncture now that if we don't make the right 
decisions, the Air Force is going to go downhill. Do you share 
that opinion?
    Mr. Wynne. Sir, it does concern me. What really concerns me 
here as we present this opportunity for you is the minimal rate 
of replacement that we're doing--and in every one of our 
product areas, it is a minimal rate. If you remember back in 
the 1960s when we replaced tankers, or even when we bought 
bombers, they were at a rate approaching 50, 60 even sometimes 
100 a year. Now, we replace things at a rate of 12 or 14 a 
year. This, really, is why everybody's now enthusiastic about 
stretching out, service life-extending, or in fact, pursuing 
re-engine work on some of our aircraft.
    On the MC-130s, for example, we still have to inspect the 
wings, because we're afraid they'll crack and fall off. So, 
every 70 hours, we perform a 24-36 hour inspection. Sir, I 
would offer to you that the replacement rate of C-130s is 
probably inadequate, because we still have this kind of a 
problem.
    When I mentioned in my oral testimony that we rely on these 
superb airmen to maintain these older aircraft, I go back and 
think, in March 1937 is when we took delivery in our units of 
the first B-17. It is now 70 years later from when we took 
them. Some of the aircraft that we're refurbishing now are 
forecast to be in our inventory for 70 years, and I would say, 
we have never had airplanes, frankly, as old as those, and so 
we're into what I call ``geriatric maintenance'' and the 
attendant difficulties that comes with that.
    Right now, we've had an incident where Argentina refused to 
have C-5s land in their territory, because the last time we 
landed C-5s there, they all broke and they could not leave. So, 
they have now refused us. And, sir, this is really a slap in 
the face to America's Air Force. There is no one else that 
provides strategic lift for us, or for our allies.
    Our F-15s are now on flight restrictions. The flight 
restrictions are such that we have airplanes that, essentially, 
are like Indy racers where we restrict their racing speed to 
100 miles per hour during training knowing full well they race 
at 180 miles an hour. I think that training needs to be 
improved.
    We have, right now, U-2s where the wire bundles are 
beginning to arc, and we have pinhole leaks in the fuel tank. 
Those of you who have ever experienced very old cars recognize 
pinhole leaks are very difficult to find. In the U-2 it is only 
the pilot, the fuel tank, a sensor, and the engine, so there 
isn't anything else in the U-2. As a pilot in a space suit, if 
somebody told me that my airplane had a tendency to arc and 
have those small, but persistent, fuel leaks, it would bother 
me.
    So, I'm now talking about ISR, I'm talking about refuelers, 
I'm talking about strategic lift, I'm talking about our 
tactical fighters, and I'm talking about our tactical life. 
Sir, that is about the extent of our inventory, and in every 
one of them, I would love--as you know--to have an increased 
rate of replacement. Most of my problems are, in fact, because 
somebody's worried that we won't have the replacement fleet, 
and, therefore, their people on their bases will go without 
work. This all has to do with the rate of replacement.

                   RESTRICTIONS ON RETIRING AIRCRAFT

    Senator Stevens. Well, what about the restrictions we've 
provided in legislation that prevents you from retiring some of 
those?
    Mr. Wynne. Sir, if we could manage our own fleet, we could 
then husband those resources, and dedicate them to replacement. 
We know that we have to work with every individual base to make 
sure that we can do it, but I would say to you that we cannot 
continue this way, to husband these old units. At some point in 
time, having 70- to 75-year-old airplanes is going to catch up 
to us.
    Senator Stevens. And what about the C-17? We're going to 
close the C-17 line, don't we need more, rather than closing 
the line?
    Mr. Wynne. It bothers me greatly to see the C-17 line 
closed. Husbanding the C-5s have--and asking us to service life 
extend the C-5s--has added to the burden of our MCS, our 
Mobility Capability Study, and has made almost certain that we 
will not get the line extension that we're looking for over the 
long term.
    I would love to have the option in 10 years to have a C-17 
available. We may really need it in 10 years, but there will be 
no line within the 10-year span. I look at the F-22 and we may 
really need it within 10 years, and right now, we're looking at 
the potential for line closure in 11 and 12 years. All of these 
things, I think, add to our burden of strategic risk, and I 
really greatly appreciate the opportunity to comment on it.
    Senator Stevens. General, we're looking to an increase now 
in the numbers of people in the Army and the Marine Corps, will 
your lift be adequate to meet those increased numbers?
    General Moseley. Senator, that's a great question. We've 
asked that the Mobility Capability Study that was conducted 
before 2005 be updated to reflect that growth in the land 
component. We don't know exactly what that growth will entail 
yet, because we haven't seen the numbers in the Army or the 
Marine Corps, but we understand there's a significant growth in 
the number of regimental or brigade combat teams.
    Sir, I don't know what the mobility requirement looks like, 
but I suspect we're operating at the very minimum levels right 
now. Not knowing what that growth is, I suspect the strategic 
airlift inventory should probably go up. But, sir, we don't 
have those numbers yet.
    Senator Stevens. Mr. Secretary, you mentioned that you're 
restricting and reducing the growth of your own personnel in 
order to have funds available in this period right now. Isn't 
that also going to put a squeeze on you, as we face these 
increased requirements from the Marine Corps and the Army?
    Mr. Wynne. Yes, sir, I would tell you that, as you heard in 
the introductions, we have airmen who are directly assigned to 
ground combat units, whether they are Marine Corps or they are 
Army. So, we actually have a direct increase when you increase 
the number of brigade combat teams, or the number of marine 
divisions.
    We also have an indirect increase, because we have 
logistics support, we have your liaison officers, and we have 
actual supply missions that go with those missions. These 
concern us. So, one thing we are doing, is we don't understand 
the Army's future footprint, we know they're going to get 
increased by 67,000 over the course of 5 years, we know the 
marines are going up by about 25,000 over the course of the 
next few years. So, we're looking at, what is that impact? And 
we intend to do a reassessment, not during this budget cycle, 
but to impact the fiscal year 2009, and to assert to the 
Secretary of Defense and the various Office of Management and 
Budget (OMB) that maybe we cannot stay with the target we have.
    For right now, sir, we don't have enough money to 
essentially pay for any alteration in this budget we have 
crafted. And that is a concern to us.
    Senator Stevens. Mr. Chairman, I'd have further questions, 
but I've taken too much already.
    I really am worried about the Air Force in terms of its 
ability to meet the future needs, both manpower and aircraft, 
but we'll pursue it later. Thank you.
    Senator Inouye. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much. I'm 
pleased to join you and Senator Stevens in welcoming our 
distinguished panel before us today to talk about the budget 
for the Air Force.
    We appreciate the strong leadership you all are providing, 
and I am particularly impressed with reports that we've had 
about the performance of Air Force and Air National Guard units 
in our State. We are pleased to be the host for several 
training facilities, as well as Air National Guard facilities.
    And, we've known about the fact that the C-130s and the C-
17s have performed a very important role in the war on terror, 
and the Iraqi area. Can you tell us whether or not you think 
this budget request provides the funding that you need to have 
the resources to fully fund the C-17 requirement, and other 
needs of the airlift wings in Mississippi?

                             C-130 AIRCRAFT

    Mr. Wynne. I would say it this way, sir. That, right now 
our C-130Es are not allowed in theater. We have worn them out. 
There is one grounded C-130 and four restricted C-130s at 
Ramstein Air Base, Germany. We do not carry cargo but use the 
restricted aircraft for aircrew familiarization and proficiency 
rides. So, in the combat theater, we are performing airlift 
with C-130Hs.
    The C-130Hs are performing magnificently. I will tell you 
that one of the problems that the Air Force has is that our 
airmen perform so well that everybody says, ``Oh well, the Air 
Force has performed well again,'' and can't understand that it 
is on the backs of those magnificent airmen that it's being 
performed.
    The Special Operations Command has asked for 12 C-130Hs to 
be transferred to them. We are taking convoys off the road, 
every day, all of the marine cargo convoys are off the road, 
and 9,000 airmen and Navy and soldiers are off the roads each 
month, not having to drive cargo convoys. These are all 
performed by the C-130Hs and the C-17s that are in place.
    We've developed a precision airdrop system that essentially 
puts a global positioning system (GPS) on a pallet, and can 
deliver it now within 150 feet, or within one helicopter 
landing zone of an Army unit. They, actually, revel in this, 
especially in the high mountains of Afghanistan, where we can 
drop from 35,000 feet now, to right where they are, and no 
longer have to--if you will--do a 300-yard march to find their 
supplies.
    This has all put pressure on the airlift and the tactical 
airlift system. For right now, we are asking in the fiscal year 
2007 supplemental for five C-130Js. We also, on the unfunded 
list, have two C-17s. Through the graciousness of Congress last 
year, we got 10 C-17s marked in the supplemental. Right now 
we're concerned to make sure that the C-130Js remain in the 
supplemental.
    When the Office of the Secretary of Defense took its 
priority list and readjusted it for the growth in soldiers 
above 21,000, they removed the C-130Js, although we would 
advise that they are absolutely essential to making sure that 
the Air Force is going to succeed in this long war.
    We see the Air Force being in Iraq for some time to come. 
And we see maintaining a supply route, and maintaining support 
to our soldiers as dramatically important, and the C-130Js are 
going to be that backbone in 5 or 6 years.
    General Moseley. Senator, could I reinforce----
    Senator Cochran. General Moseley.
    General Moseley. The Secretary mentioned the inspection 
rates on the C-130s in theater. The ones that are broken, even 
with the center wing boxes that we've got fixed, the 
attachments to outer wings are still broken.
    On the older versions, which are the special operations 
airplanes we have in theater, every 70 hours--70 to 90 hours--
you have to pull the outboard engines, the props, take the skin 
off the wing--and do an inspection which takes somewhere 
between 24 and 36 hours. Every 70 to 90 hours of flying time, 
and you know how much we're flying these special operations 
airplanes in theater.
    So, imagine being the deployed commander forward, and every 
``x'' number of days you have to break the airplanes down, pull 
the engines out of them, the props off of them, and take the 
skin off of them to check the outer wing, so we don't lose a 
wing. So, that's the story on the C-130s.
    The Hs are great airplanes, but now, to take the troops off 
the roads and to supply the airfields, we're burning those up 
at high rates. And so that's why the J is very important to us.
    Senator Cochran. Thank you very much.

                      JOINT STRIKE FIGHTER ENGINE

    I understand the budget does not propose an alternative 
engine for the Joint Strike Fighter (JSF). As Congress provided 
additional funding last year for the alternative engine, I 
understand funding has been invested in the program, the 
program is on track--I would like to know what your comments 
are about your preference, having the benefit of competition 
for the propulsion system for the Joint Strike Fighter.
    Mr. Wynne. Well, sir, let me start with that. It has been 
fairly well-known that while I was in AT&L I, in fact, 
sponsored the second engine, so you have a very poor source, 
and you have me at somewhat of a disadvantage.
    Let me say it this way, though: the Office of the Secretary 
of Defense's argument revolves around economics. And it 
revolves around the fact that they don't see a payback for 
this, for the investment in the second engine, and they have a 
couple of studies undergoing from RAND, and I think they, the 
program analysis and evaluation is doing one.
    I don't know, because I don't know the length of time this 
airplane will actually be in service. Many of our models do not 
contemplate this fighter being in service for 50 years, and 
yet, I think the F-15 is going to be in service for 50 years, 
and I think the F-16 is going to be in service for 50 years. 
So, I will leave it there. There is something to additional 
reliability.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Inouye. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    General Moseley, I will direct this first to you. Thank 
you.
    At a time when the Nation is at war with Iraq and 
Afghanistan, the Air Force is also battling the common enemy 
that the Secretary mentioned--age.

                              KC-X PROGRAM

    The current fleet of refueling tankers is aging quickly and 
we cannot, I believe, wait 35 more years to replace them. And, 
I'm pleased that the Air Force has moved forward with acquiring 
a new generation of tankers, and I look forward to the award 
announcement later this year.
    But, I believe, General Moseley, that more than just being 
new, the new tankers should be modern, you know, the modern 
age. I think you would not replace a car you've been driving 
the past 35 years with the same one, although it might be new. 
You would upgrade, you would modernize.
    The new tanker, the KC-X needs to meet the challenges that 
we face today, that the Secretary alluded to. But, it also 
needs to confront the challenges that we will face 25, 30 years 
from now.
    General Moseley, how will the requirements that the Air 
Force has set forth through the KC address this need? And, 
before you answer that, I want to mention that several senior 
leaders in the Air Force have stated on the record that the 
next generation tanker must do more than just air refueling, 
although that is very important. It needs to have greater 
capabilities with operational features that the current tanker 
fleet does not have. Certainly--certainly, sir--refueling is 
important.
    Do you also view the airlift transport capability for 
passengers, cargo and aero-medical evacuation to be important? 
Would you like to address that?
    General Moseley. Sir, I would. Thank you for that question.
    Senator, you know the tanker, the KC-X Program is our 
number one procurement priority. Those airplanes that we're 
flying are 45 years old. As the guy that was blessed to command 
central command air forces (CENTAF) during Afghanistan and the 
early phases of Iraq, I don't know what I would have done with 
a B-17. We would have tried to make it work. But to think about 
flying a 70- to 80-year-old airplane in combat, is something 
that an airman is not warmed up to.
    Senator Shelby. Scary, to say the least, isn't it?
    General Moseley. Sir, there are other options, I believe. 
And for a Chief of Staff to look at her (Staff Sergeant 
Chavez), and ask her to fly a 70-, 80-year-old airplane in 
combat, I'm not sure that's the right thing to be doing. So, 
this tanker is a big deal for us.
    Senator, I think we would all agree that there's nothing 
that this country does in the sense of global reach, or global 
mobility that does not include a tanker--whether it's Navy, 
whether it's Army, marines, or even a coalition setting--to be 
able to range those distances and to be able to cover things on 
the surface of the Earth, requires a jet tanker.
    The single point of failure in all of those activities is 
the jet tanker. I don't know what will break on the KC-135 
next, because we're beyond the service life expectations of the 
designers of the Boeing 707. And so, to be able to move into a 
competition--and we are so happy that it is open, and we're so 
happy that we have a pair of teams looking to do exactly what 
you've described--this will take us to a better airplane.
    Senator, I believe the first requirement for the airplane 
is to be able to transfer fuel, and to be a reliable jet 
tanker.
    Senator Shelby. Yes, sir.
    General Moseley. I think alongside that, though, are some 
inherent opportunities that we have with new technology and new 
capabilities to do other things. We would always want the 
airplane to be capable of aero-medical evacuation. We would 
always want the airplane to be capable of other mission areas, 
and so your question is a good one. And we welcome that 
competition, and we welcome those folks coming back and telling 
us what they've got, so we can look at getting us a new 
airplane, so she and her successors won't have to fly a 70- or 
80-year-old airplane.

                  EDUCATIONAL OPPORTUNITIES FOR AIRMEN

    Senator Shelby. General, educational opportunities. I know 
how important educational opportunities are in the recruitment 
and retention of a high-quality Air Force.
    I understand that the current language in the National 
Defense Authorization Act hinders your ability to offer some of 
the educational programs that you would like to see at the Air 
University at Maxwell. What changes would you recommend to this 
language, and why is it important?
    General Moseley. Sir, education for the Air Force is the 
cornerstone of everything we do. And when I say Air Force, I 
mean Guard, Reserve and Active.
    Senator Shelby. The whole ball of wax.
    General Moseley. Sir, absolutely.
    You understand very well, Maxwell Air Force Base and Air 
University hold the intellectual throw-weight of the United 
States Air Force. We don't have separate schools in a variety 
of locations. Everything we have is at that one base. The 
Commander of Air University has been on a quest, because I've 
asked him to increase the capabilities and distance learning, 
to increase the capabilities so that every enlisted person in 
the Air Force can have an opportunity for an Associates and 
Bachelors Degree. Every officer can have an opportunity for 
Master Degrees, and now Ph.D.s, because we believe that those 
educational opportunities provide better NCOs and better 
officers across the board.
    Senator, there are some opportunities to make this better, 
with some proposals on accreditation, and to allow Air 
University--which is an accredited university--to go a bit 
further to be able to wrap its arm around the bigger population 
of the Air Force and do exactly what you're saying. And I would 
ask you to help us with that.

                          ACCESS TO CYBERSPACE

    Senator Shelby. Okay, thank you.
    And my last question deals with cyberspace command. I was 
pleased to see last fall that the Air Force stood up a 
cyberspace command with the mission of providing freedom of 
access to cyberspace.
    Within this command, I'm interested in the work the Air 
Force is doing in the area of network security. How does both 
network and application security fit into the construct of the 
mission of the new cyberspace command, and do you feel as 
though you have adequate resources to address the threat to our 
networks and applications and how important is this?
    General Moseley. Sir, those are all the operative 
questions. We believe we're just entering this domain and 
beginning to understand the challenges and the issues relative 
to jointness, to be able to operate inside the inter-agencies, 
to be able to operate with authorities under title X, versus 
the rest of the authorities that perhaps will be needed 
somewhere down the road.
    Sir, we have the 8th Air Force, the mighty 8th, which is 
now the cyber-command, and we are looking at, sometime soon, 
moving that into a major command status, the same as Air 
Mobility Command, or Air Force Space Command, to be able to 
address these issues.
    We're still a bit in the baby steps, all of us, on this--
whether it is our brothers that are doing this in the Army or 
the Navy or the NSC, or the National Security Agency--NSA, I'm 
sorry--on how to orchestrate this, and how to derive the 
desired understanding of what's going on in that domain, plus 
understand the authorities that will be required in the future.
    So, this is an interesting challenge, and it goes on at the 
speed of light, 24 hours a day, 7 days a week. It is a big 
issue for us.
    Senator Shelby. NSA can be very helpful to you.
    General Moseley. Very helpful, sir.
    Mr. Wynne. Let me tell you where we are, sir. This is 
really a two-part issue. First, we found that presentation of 
forces to Strategic Command is not as clear-cut as with other 
combatant commands, due to USSTRATCOM's unique functional 
component construct. Second, as we look to expand our 
capabilities in cyberspace, we also need to find efficiencies 
in organizing, training, and equipping those cyber forces that 
we present to all combatant commanders.
    So, the first steps, I asked General Elder, through General 
Moseley to do is to organize first, and just make sure we 
understand how those forces get presented, then begin to 
establish a training regimen to make sure we presented them in 
the best possible manner. And just as you've asked, I've said, 
``Okay, now in 2009, let's construct what resources we can 
do.'' Now, I will tell you through the benefit of working with 
the National Security Agency, they have funded a tremendous 
amount of research for us, and by the way, one of our 
laboratories up in New York is one of their premier 
laboratories to supply them this information.
    So, right now, we are looking to our agency partners and 
sometimes our Strategic Command partners, to provide us the 
resources. But, I think the time will come when we need to 
scale, we need to scale because 80 percent of the commerce of 
America now goes through the Internet. And we need to scale 
ourselves up to make sure that we are adequate to protect that.
    Senator Shelby. Thank you, Mr. Chairman.
    General Moseley. And, Senator, we----
    Senator Shelby. Okay.
    General Moseley [continuing]. We will probably have the 
major commands stood up to--we're on a path to do that, maybe 
to announce something about that, by late summer, early fall, 
to get at what you're talking about with a major command, and a 
major command staff.
    Senator Shelby. Well, this is imperative for you, is it 
not?
    General Moseley. Yes, sir.
    Senator Shelby. Mr. Chairman, thank you.
    Senator Inouye. Thank you.
    Senator Dorgan.

                   RESTRICTIONS ON RETIRING AIRCRAFT

    Senator Dorgan. Mr. Chairman, thank you very much.
    Let me say I've enjoyed working with both of you, I think 
you do an excellent job, give us straight talk when we need it, 
and I appreciate that.
    I do understand that you might chafe at the fact that 
Congress tells you you have to keep certain airplanes. I 
understand that, fully. I might say, some of the airplanes 
you've described today, the 117, C-5s, 130Es all have 
replacements, and some are flying with restrictions.
    One difference is the B-52. The B-52 bomber has no 
replacement at this point, the earliest we might have one is 
2018, it's more likely to be 2025, and it's flying under no 
restrictions.
    And, I just want to mention to you, I know both of you 
would expect me to, the B-52 is an older airplane, that's true, 
but we're funding the F-22 to kick down the door, and the B-52 
is your least cost bomb truck. It flies at less cost than any 
other bomber in the fleet. You used over 80 of them in the 
initial 30 days of the Iraq combat, in order to forward-deploy 
42, you had to use 80 B-52s. You obviously couldn't do that if 
we accept your recommendation to go from 94 down to 56 B-52s.
    Now, the authorizing committee told you that you could 
remove 18 attrition reserves, which would take us down to 76 B-
52s, but even before you do that, you have to provide a study 
to the Congress. Some of us think that study will show there is 
a bomber gap, if you boneyard those additional reserve 
airplanes.
    But my hope is that we will not take the bomb truck out 
there that's the least cost. Incidentally, in Iraq, during this 
initial phase, the B-52 dropped nearly 30 percent of the 
ordnance, with only 3 percent of the sorties. It has the 
longest reach, the greatest loiter time, at the least cost. 
And, you're telling us you want to go to 56 bombers in the 
President's budget, I do not understand that.
    I'm not asking you a question, because I've asked you those 
questions in meetings, many, many, many times. But what I--let 
me go to something else that I wanted to ask you about. I hope 
you will consider that, however. I just think that's a--and 
Congress, the House of Representatives has addressed this, the 
Senate has previously addressed it, as well.
    Let me ask you a question that I asked General Schoomaker, 
the Chief of Staff of the Army. You know, I was--when I came to 
Congress a long, long time ago, I joined the Defense Reform 
Caucus that former Senator Gary Hart was involved in, and we 
were talking about duplication of things in the various 
services, every service wants to do exactly the same thing. And 
so, you duplicate all of this spending.

                        UNMANNED AERIAL VEHICLES

    I asked General Schoomaker about why the Department of the 
Army wants to buy a bunch of unmanned aerial vehicles (UAVs) to 
fly at 20,000 feet over the battlefield. My understanding is 
that the Air Force wants to buy 241 medium and high-altitude 
unmanned aerial vehicles, the Army wants to spend $1.2 billion 
to buy 108 extended-range UAVs. So, the Army wants to fly its 
own Air Force up there in unmanned aerial vehicles at 20,000, 
25,000 feet, and I said, ``Why would you want to duplicate?'' I 
understand why you might want to do it at low-level, over the 
battlefield, that's a different issue, 2,000 feet, some UAV, 
but at 20,000 feet?
    General Moseley, let me ask you about this. I understand 
that you have done some writing and thinking about this, but 
tell me about it. Because, it seems to me to be duplication 
with respect to the Warrior that the Army wants to build, and 
the Predator that the Air Force is building.
    General Moseley. Senator, first can I respond to the 
bomber. We solicit the subcommittee's help and partnership on 
building that new bomber. We have a little over $4 billion in 
sustainment of the existing bombers, and we have a program in 
work for the next generation bomber, with a proposed initial 
operational capability (IOC) of 2018. And so we will be looking 
for the subcommittee's oversight, and the subcommittee's help 
and partnership to be able to field that bomber. So, this 
bomber pilot (Captain McElvaine) won't have to be flying an 80-
year-old airplane in combat, either. That's why the bomber's in 
our top five procurement priorities, is to be able to do 
exactly what you've said.
    Sir, the UAVs--I do have some experience in this--and 
General Schoomaker and I are dear friends, in fact, we're 
neighbors, we live on the same street, and we've had this talk.
    My desire is to be able to meet requirements, whether they 
are Army requirements, Marine Corps, Navy, Special Operations, 
or other Government agency requirements, and to be able to do 
this with a standardized set of languages, ground stations, 
understanding of bandwidth, and to be able to avoid 
duplication, while meeting the requirements. The requirements, 
to me, not only as a guy who was able to command central 
command air forces in two campaigns--in which we used these 
UAVs extensively--but also to look to the future and how we 
meet an almost insatiable appetite for these things.
    Right now, in theater, there are over 1,000 UAVs. A variety 
of systems--all good--all operated by well-meaning people. But, 
the ability to capitalize on billions of dollars of future 
investment, and to avoid duplication, has been my concern all 
along. We've worked this hard, we've stood up the Centers of 
Excellence to look at this, and they have been very helpful. 
They've worked tactics, techniques, procedures, and they've 
been very helpful.
    But down the road, these airplanes are going to begin to 
cost real money. The Air Force has $13 billion in this program, 
and we're looking to build close to 200 systems. My fear is we 
will hit a wall, and we will have a crisis in duplication of 
effort, and acquisition and money--which we don't have a lot 
of--and we will have issues with command and control, and we 
will have issues with meeting global requirements.
    Senator, right now, your Air Force attempts to meet the 
requirements for all combatant commanders in this area. Right 
now, everything we've got is deployed into U.S. Central 
Command's area of responsibility (AOR) and the requirements 
just in the special operations world alone, have gone from four 
combat air patrols (CAPs) to over 30, in the period of a couple 
of years.
    So, my desire is to be able to look at this from the top 
down, understanding the requirements and meeting those 
requirements, and see if there's not some way to reduce 
duplication and streamline this thing, because it is a big 
capability for all of us, and a joint capability.
    Senator Dorgan. Well, General, and Mr. Secretary, I'm 
just--I'm concerned about duplication, we have limited 
resources for nearly unlimited wants. People have talked about 
the need to recapitalize and so on, but if we've got two 
services doing essentially the same thing--and in this case, it 
seems to me the Air Force ought to be the executive agent for 
medium-level and high-level UAV operations. And I just--I hope 
we can resolve that. It just, it makes no sense to have a 
duplication of effort, duplication of development, duplication 
of research. I understand, perhaps, the Army has used some of 
the research that has been done, but I still think that that 
duplication is something we ought to take a hard look at.
    Mr. Wynne. Senator, one of the things that is not widely 
known is we fly those Predators in high altitudes from places 
in the United States. We actually are establishing squadrons in 
California, New Mexico, New York, and Arizona, to essentially 
fly Predators and Global Hawks from the Conus, so we have 
reached back into Conus, and all of our operating squadrons are 
actually forming up here.
    I will tell you that our, it's our ability to service them 
at airfields in the theater, but our tactics, techniques, 
procedures, and even the design of the flight, all take place 
here in Conus. It's not well-known.
    Senator Dorgan. Mr. Chairman, my time is up, but I want to 
follow this up, I know Senator Domenici also raised these 
questions at a previous hearing, and I just think our 
subcommittee wants to make sure that we're making the right 
investments, and not duplicating investments on research and 
development, especially between services.
    General Moseley. Senator, there are bodies of work out 
there that are outstanding. There are groups of people out 
there in industry that do this, that are outstanding. My desire 
is to harness all of that, and be able to leverage all of the 
things that industry can bring to bear against this problem, to 
meet these requirements.
    And, if you would allow me, I would ask you to include the 
letter that I've written into the record, which explains, I 
think, a lot of this.
    Senator Dorgan. Let me ask consent that the letter be a 
part of the record.
    Senator Inouye. Without objection.
    [The information follows:]

Chief of Staff of the Air Force
1670 Air Force Pentagon
Washington, DC 20330-1750

Commander, Air Force Reserve Command
1150 Air Force Pentagon
Washington, DC 20330-1150

Secretary of the Air Force
1670 Air Force Pentagon
Washington, DC 20330-1670

Chief, National Guard Bureau
2500 Army Pentagon
Washington, DC 20310-2500

Director, Air National Guard
1000 Air Force Pentagon
Washington, DC 20330

MEMORANDUM FOR NATIONAL GUARD ADJUTANTS GENERAL AFRC/CV
SUBJECT: Total Force Integration Phase IV Initiatives List

    Thank you for your hard work these last several months developing 
the comprehensive list of Total Force Integration initiatives which are 
attached. It is more than a list of missions. It represents positive 
movement toward fundamental Air Force integration of our Regular, Guard 
and Reserve forces so we can move into the future--together. Your 
efforts have succeeded in laying the foundations for far-reaching 
changes that include developing the conceptual framework, securing the 
necessary resources, and implementing such activities as CONOPS 
development. SATAFs and other important tasks.
    The attached list officially presents the results of your 
unprecedented, coordinated effort. The 138 initiatives listed are in 
various stages of development and implementation. We realize there may 
be changes to this plan; however, it accomplishes our intent to combine 
the earlier phase lists with the new initiatives into one, all-
inclusive list. We believe the key elements for normalizing Total Force 
Integration concepts are firmly in place--MAJCOM and component 
coordination is now standard procedure--from conceptualization through 
execution. We look forward to more outstanding Total Force successes.
    Again, we applaud your progress to date and your leadership in 
effecting these changes.
                                        T. Michael Moseley,
                                     General, USAF, Chief of Staff.
                                           John A. Bradley,
    Lieutenant General, USAF, Commander, Air Force Reserve Command.
                                         Craig R. McKinley,
            Lieutenant General, USAF, Director, Air National Guard.
                                          Michael W. Wynne,
                                        Secretary of the Air Force.
                                            H. Steven Blum,
              Lieutenant General, USA Chief, National Guard Bureau.

    Senator Dorgan. Let me just finally say thanks to the five 
members of the Air Force you've brought. They are inspiring, 
and all of us thank them for their service.
    Senator Inouye. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman and thank 
you, and welcome, Secretary Wynne, General Moseley, I join with 
you in welcoming and commending the five Air Force personnel 
that you have with you.
    The subcommittee wants to help you, but we need your 
assistance, and you've stated your top priority--your tankers, 
and General Moseley, we welcome your expression and recognition 
that competition is essential, a point I'm going to get back to 
later. No one will argue with the assessment that we need 
tankers. But, I think what we talked about today indicates that 
the warfighter needs strategic lift, and the improvement 
program for the C-5 may invoke Nunn-McCurdy, I understand and 
the Air Force is reluctant to move forward with the RERP 
because of the high cost and low return--we're told for a 50-
percent increase in cost, the warfighter only gets 10 percent 
increase in reliability, but you've mentioned that there's 
authorizing language that prohibits retiring it. It appears 
that you're going to need more lift, and right now, as has been 
said, the Boeing long-lead suppliers have been notified to shut 
down when we're going to need much more airlift.
    What do you propose? Do you propose that we eliminate the 
restriction on retirement?

                           STRATEGIC AIRLIFT

    Mr. Wynne. Well, sir, we are asking we get more freedom to 
manage our own inventory. We still see that we will probably 
need C-5s for some time to come.
    Senator Bond. Well, there are many C-5s that are----
    Mr. Wynne. Yes, sir, there are. We would actually 
appreciate the opportunity to line them up worst to best, and 
we actually see that there are somewhere between 20 and 30 that 
may be good candidates for standing down. We think we can work 
with the folks that have these, and actually backfill them.
    We do see that we are at an absolute minimum when it comes 
to the MCS and the definition of 292. As you know, even on the 
C-5s, we're restricted from retiring 112, and we crashed one at 
Dover, so we really only have 111.
    So, I would tell you that we are up against it when it 
comes to strategic lift. On the other hand--and I've told my 
colleagues within the contracting community--I can't afford to 
buy at the rate that they are proposing that we consume them. I 
would dearly love to figure out how to entertain a low rate, 
because sir, it bothers me that our strategic lift line may go 
quiet in the time we are looking forward to. I would love to 
have, in 10 or 15 years, the ability to call on additional C-
17s at a moment's notice. I just don't see my way forward to 
that level.
    Senator Bond. Well, Mr. Secretary, I think this is a 
management question, this is a broader management question. And 
I have some real concerns about management mistakes that were 
made before you and General Moseley got there. I think that 
the--some of these mistakes need to be revisited, number, 
there's been excessive focus on high technology to meet threats 
that are years away without having planned and prepared for--
it's not a threat, but it's the actual challenge, the war that 
we're fighting today. And, we you know, we have--we'll have 
some F-22s for a decade-away threat, but right now, we need 
airplanes that work in the environment that we have, to 
transport the troops, and refuel the planes, that carry the 
munitions we need.

                 AIRCRAFT ACQUISITION IN TACTICAL ARENA

    The second major problem was that in the tactical arena, 
the platforms are without competition. One prime contractor 
owns the Air Force lock, stock, and barrel, and the results are 
apparent. Because of the single-sourcing of the JSF, which I 
said at the time was a tremendous mistake and I believe has 
been demonstrated to be a mistake, you see cost overruns in the 
F-22, the F-35, and I hope that you will be able to rethink and 
take a broader management view, a review of where you are, and 
say, ``We have to look at this entire strategy, we have to have 
competition, we have to be able to meet the needs we face right 
now, as the hundreds of F-15s and F-16s are going to be 
retired.'' How best can you meet that with limited dollars?
    Right now, no F-22 is going to be able to fight terrorists 
and deliver munitions on target, like the F-15 Strike Eagle 
can. That is a capable, fully affordable, existing aircraft 
that can be produced. You're going to have to take a look from 
the beginning, with only, with a number of legacy aircrafts 
being retired, and the fact that the F-22 has been cut way 
back--you're going to have to come up with plans on how you 
husband your resources, focus your threats, not forgetting 
about the long-term threat. But also recognizing that we've got 
some short-term threats.
    Are you willing to take a broad management review and look 
at the mistakes that have been made in the past, and try to 
give us a plan that will go forward? And, I'd like both the 
Secretary and the General's comments on that.
    Mr. Wynne. I would start with the fact that when we put 
together the supplemental we were really concerned about how we 
work on the attrited aircraft. We've lost 50 fighters, and over 
130 airplanes since 2001.
    In 2003, when we first went down into Baghdad, we only took 
stealth aircraft with us. We took 117s, and we took the B-2. We 
need to make sure we have the same kind of capabilities, 
because the Russians have been selling Tehran a brand new, 
surface-to-air missile. The North Koreans have taken upon 
themselves to buy a pretty good integrated air defense system 
to protect themselves. The Chinese have fortified the entire 
strait of Taiwan.
    Now, I would say that--just like Curtis LeMay, ``Peace is 
our profession.'' And I would propose to you that I would not 
like at all to engage. But I would say, when diplomacy fails, 
you need your Air Force to be at the ready position. And when 
diplomacy fails, we need to be responsive.
    I would say, therefore, we decided that we would submit the 
F-35, and got criticized in the supplemental, and we did that 
because fourth generation airplanes are obsolete in the face of 
modern threats. We are moving to fifth generation. And we know 
this is hard, but change is hard, and we believe that if we 
don't do this, we simply won't be responsive to the double-
digit surface-to-air missiles, and the improving technologies 
that the Russians and Chinese are fielding.
    I didn't realize I was creating a brand when I said ``fifth 
generation'' airplanes--meaning stealth, precision, 
maneuverability, networked aircraft, and speed--but it turns 
out that the Russians and the Chinese are now promoting fifth 
generation airplanes to the Indians and some of their other 
sales areas. And they're doing this with something that looks 
largely like a tornado, and then with an extraordinarily 
capable Sukhoi.
    Neither one have the capability of the F-22, or the Joint 
Strike Fighter, but we're afraid that they do have some 
capabilities that may exceed some of our aging F-15s and F-16s. 
So we are, by the way, trying to make sure that we continuously 
upgrade the F-15 to keep it combat-ready, and the F-16, as 
well. But as a previous Chief of Naval Operations, Admiral 
Clark said, ``There will probably not be a future war like this 
war, and this war is not like any war we've ever fought.''
    General Moseley. Senator, thanks for that question. I have 
some entry-level understanding of the F-15 that's built in your 
district----
    Senator Bond. I know you--I know that very well.
    General Moseley. Sir, I've only flown her off and on for 30 
years. And it is part of my life, and it's part of my son's 
life, who flies the same airplanes that I flew as a captain.
    And so, I would offer to you that that airplane, as much as 
love it, is not as survivable as we would like it to be. When 
we look at the job of the Air Force, which is to maintain air 
dominance in the theater, so our Army and marine and Navy 
brothers can conduct operations. We will have a number of F-15s 
for awhile. And we've had, we've had several discussions about 
what could we do with them to keep them as operable and as 
survivable as we can to include the helmet-mounted sight, the 
new weapons systems and the new radar. We're committed to doing 
that on a number of the F-15Cs, so that the Total Force, Guard, 
and Active, can continue to fly those airplanes in the missions 
that are suitable.
    But, Senator, I'll tell you, there's a world out there that 
is increasing exponentially in technology and lethality, 
whether it is surface-to-air missiles, whether it is early 
warning radars, or whether it is air-to-air systems to include 
missiles, infrared search and track systems, or radars. We have 
to stay ahead of that if we are to maintain the air dominance 
for the theater, so that the Army, Navy, and the Marine Corps 
can operate. That's our challenge.
    Do we need 1,000 plus F-22s? No, sir. We just need enough 
to maintain the dominance in the theaters that we're tasked to 
do.
    The F-15E is a wonderful airplane, and we have her now 
deployed to Bagram because of the small diameter bomb, and the 
range and payload that the E can carry, which is the best-
ranged, best-capable fighter of its class in any service in any 
country. That's why we have them at Bagram now, to be able to 
do this business in the spring and summer of this year. In 
fact, that's a squadron out of Mountain Home, Idaho, that's up 
there right now.
    So, sir, our challenge is to be able to match this budget, 
and to be able to match this top line, and to do all of the 
things that the country's asked us to do, and still be the best 
Air Force in the world. That's the challenge, and the stretch 
that we've got.
    Senator Bond. Certainly, the underlying theme--which I 
subscribe to--is the American aerospace industry, at large, is 
shrinking. And, it does concern me about where do we go in the 
future for competition and for production? And that does 
concern me, and we are, in fact, periodically, trying to 
conduct a survey to try to determine just what will we do? 
Frankly, the introduction of the next-generation bomber is one 
of those energies that is energizing the engineering functions 
from St. Louis to Los Angeles, and we appreciate the support 
that this subcommittee gives, because we think that that is, 
perhaps, a real opportunity that shouldn't be denied.
    Senator Bond. Well, we certainly want to support that 
mission, but I hope you recognize that the failure for 
competition was one of the major failures, and I will have 
further discussions later. Thank you, Mr. Chairman.
    Senator Inouye. Senator Domenici.

            MISSIONS AT HOLLOMAN AIR FORCE BASE, NEW MEXICO

    Senator Domenici. Thank you very much, Mr. Chairman.
    I think this hearing certainly is not going to solve the 
total problem that we're discussing here today. There are very 
big decisions that have to be made about what happens to the 
American Air Force in this area during the next 2 to 10 years, 
and it's certainly going to be something very different than 
what we thought we had in mind when we started here. And the 
Department is pretty quick to tell us that when they meet with 
us and talk about what the problems are.
    We have, for instance, Holloman Air Force Base in New 
Mexico that has some amazing assets, including airspace and 
nearby training capabilities. And your budget process proposes 
retiring the remaining Holloman F-117s in fiscal year 2008, but 
I understand that a transition plan is in place to bring F-22s 
to the base. I'm excited about working with the Air Force on 
this transition, and I have a few questions about it.
    My first question is what is the total amount that the Air 
Force needs for the F-22 beddown at Holloman, and when will 
those funds be budgeted for? General?
    General Moseley. Sir, if you'll let us take that for the 
record, we'll get you our current assessments of the beddown 
and the transition from the 117 to the F-22.
    Senator Domenici. I think it's important, not just for me, 
but I think----
    General Moseley. Yes, sir. If you would let us take that 
for the record, and we'll get you those numbers, and the 
schedule.
    [The information follows:]

                      F-22 Beddown at Holloman AFB

    The Air Force will beddown forty F-22As (36 Primary 
Assigned Aircraft) at Holloman Air Force Base, New Mexico 
between the first quarter of fiscal year 2009 and the first 
quarter of fiscal year 2011 with a total estimated renovation 
and military construction bill of $40 million. In fiscal year 
2006, Holloman Air Force Base, New Mexico executed $10.8 
million on renovation projects. The fiscal year 2008 
President's Budget Request lays out a further $26.625 million 
for planning and design and military construction projects 
spanning fiscal year 2008 through fiscal year 2010. The 
remaining $2.5 million of the $40 million total is one project 
(squadron operations building) which is currently unfunded. 
However, the Air Force will fund for this project internally.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2006: Operations and Maintenance--Various...          10.8
The specific fiscal year 2008 President's Budget request
 projects are:
    Fiscal year 2008: Planning and Design...............           2.450
    Fiscal year 2009:
        Aerospace Ground Equipment Maintenance and                 2.600
         Storage Facility...............................
        Jet Engine Intermediate Maintenance Facility....           2.125
        Aircraft Maintenance Unit Facility..............           1.000
        Simulator Facility..............................           3.100
        Low Observable/Composite Repair Facility........          11.850
    Fiscal year 2010:
        Conventional Munitions Shop.....................           1.000
        Precision Guided Munitions Facility.............           2.500
    Unfunded: Squadron Operations Building; only project           2.500
     unfunded...........................................
                                                         ---------------
      Total.............................................          39.925
------------------------------------------------------------------------

    Senator Domenici. I appreciate it.
    I've also heard about differences in the number of 
authorized jobs at Holloman, and I'd like that too, if you 
could produce those for us, too, and for the record, not just 
for me.
    General Moseley. Right.
    Senator Domenici. But, for the record, it would be helpful. 
Could you do that?
    General Moseley. Yes.
    [The information follows:]

                      F-22 Beddown at Holloman AFB

    Two hundred and seventy four (274) positions will be lost 
as Holloman Air Force Base transitions from F-117s to F-22s. An 
additional 221 positions will be lost due to other actions 
affecting Holloman Air Force Base. These numbers do not include 
contractor positions.

             MISSIONS AT CANNON AIR FORCE BASE, NEW MEXICO

    Senator Domenici. As you know, Cannon Air Force Base was 
placed in an enclave status, which turned out to be a very good 
thing. It's almost like we planned it. Enclave means we're not 
going to close it, and we're not going to keep it open, but 
we're going to keep it right here to see what it's needed for. 
It turned out that clearly, it was going to be needed, and is 
needed, and you're in the process of developing it as a new 
military air base that will not be related, as in the past, to 
a F-16 Fighter Wing, but rather this will be one that will be 
related, in a different way, to a Air Force Special Operations 
Command Wing, and you're in the process of evaluating how to 
put that together, is that correct?
    General Moseley. That's correct, sir.
    The BRAC Commission directed the 27th Fighter Wing be 
disestablished and we are proposing to stand up the 16th Wing 
by end of the summer at Cannon, and be the second of our main 
operating bases, the western location for our Air Force Special 
Operations Command, which may include fixed-wing, and UAVs, and 
a variety of other things that we can use those ranges in New 
Mexico for.
    Senator Domenici. Seems like that, all of a sudden fell 
right there where you need it, and now you will use it. And 
that seems to me to be a pretty exciting situation for the Air 
Force of the future.
    I have a couple of additional questions, I will submit 
them, we've been here long enough for this Senator.
    General Moseley. Senator, if you'll allow us to include 
those Milcon requests, and infrastructure issues for Cannon, 
also, we will include those in the record, with the amount of 
money and the time.
    [The information follows:]

            Military Construction for Cannon AFB, New Mexico

    The following is a list of military construction 
infrastructure projects programmed for Cannon Air Force Base, 
New Mexico.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                      Projected
                Fiscal year                                       Project Title                          Cost
----------------------------------------------------------------------------------------------------------------
2008.......................................  Add/Alter Hangar 109 for C-130........................          1.7
2010.......................................  Consolidated Communications Facility..................         15.0
2011.......................................  96-Person Dormitory...................................          7.5
2011.......................................  Child Development Center..............................          7.8
2011.......................................  Add/Alter Waste Water Treatment Plant.................          5.0
2012.......................................  96-Person Dormitory...................................          7.5
2012.......................................  Library Education Center..............................          8.0
2012.......................................  96-Person Dormitory...................................          7.5
2012.......................................  Library Education Center..............................          8.0
2013.......................................  Add/Alter Fitness Center..............................          5.0
----------------------------------------------------------------------------------------------------------------

    Senator Domenici. Well, I would like to say to the fellow 
Senators that the base that is going to become a Special 
Operations base, that's already decided, and they know what 
planes are going there. The problem they have is that, clearly 
they're going to need some additional infrastructure on the 
base, to make it what it is going to turn out to be. They don't 
have those requirements ready yet, but they're working 
diligently on them, on three or four levels of military 
involvement, and the statement just made is merely saying, 
could they submit for the record, what those needs are? I think 
it's imperative that we get that Milcon, I know it's in the 
neighborhood of $75 million over a couple of years, which will 
then make Cannon, they say, a total Special Ops base, the likes 
of which we have nothing like in the western United States. I 
think for the record, you were prepared to say that that's a 
very good asset for the Air Force, is that correct, General?
    General Moseley. Absolutely, sir. The proposed action gives 
us an east coast base in Florida, and it gives us a west coast, 
or western base in New Mexico. For 1 million reasons, it's a 
good idea to have a base like that that we can rehearse with 
the Army, with the Special Operations Command, we can operate 
on the ranges there, and there's just a variety of things that 
makes that a good idea.
    Senator Domenici. Thank you very much.
    Thank you, Mr. Chairman.
    I look forward to your reports, General.
    Senator Inouye. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.

       36TH RESCUE FLIGHT AT FAIRCHILD AIR FORCE BASE, WASHINGTON

    Mr. Secretary, Fairchild Air Force Base, in my home State 
of Washington is home to the 36th Rescue Flight. They support 
the 336th Training Group in the Air Force Survival School 
there.
    According to the news reports, each year those helicopters 
evacuate an average of three injured Survival School students, 
and they help locate about 90 students who become lost during 
their survival training. And on top of that, the 36th Rescue 
Flight Civilian Search and Rescue Operations has saved more 
than 600 lives during search and rescue missions in Idaho, 
Oregon, Montana, and Washington State, because of the 
extraordinary crew members and their unmatched capabilities.
    I am very concerned--the President's budget does not 
include funding for this 36th Rescue Flight. If that budget is 
adopted, Fairchild is going to lose those four helicopters and 
crews, and the surrounding States are going to lose a very 
critical ability to respond to emergencies in the event of a 
natural disaster. It is a big concern out in my State and the 
surrounding States, and I wanted to ask you. What is your 
rationale for not funding the 36th Rescue Flight?
    Mr. Wynne. I know that we had spent over 2 million hours 
trying to assemble this budget, and I had the sense that Air 
Education and Training Command--where these helicopters were 
actually routed through, because that's who owns the escape and 
evasion training area--probably took an additional risk that 
maybe we need to mitigate.
    We took another look, a hard look at what those helicopters 
do, they are UH-1Ns, and we are looking at that, and wondering 
whether or not that is really our Air Force contribution to, 
not just the Fairchild Air Force Base area, but to the 
surrounding terrain.
    We may have, in that area, taken a little bit too much 
risk. And so, we're thinking about, where do we go and scrape 
the money from, frankly, to reconstitute that force? Does it 
have to be four? Probably, because they are not new 
helicopters. And we'd love to get, when you have four, you can 
at least count on getting one or two off, so that's kind of one 
of the things we are taking a hard look at. Thank you for 
bringing it to our attention.
    Senator Murray. So you agree that it's important for the 
Survival School, I assume?
    Mr. Wynne. We certainly agree that there's a need there. 
We're, I think the rationale right now, is whether we need all 
four, or whether we need a few, and that's going to be an 
operational consideration. But, it seems to me we have a 
mission, and we have a real need. And it's bigger than the Air 
Force mission, which I don't think really hit home.
    Senator Murray. Okay. So, would you support restoring that 
funding?
    Mr. Wynne. Ma'am, I don't know where I'd get the money 
right now. But I'm going to look hard.
    Senator Murray. Okay, well, I think it's really critical, 
Mr. Chairman. That is a very important function, both for the 
Survival School as well as the region, and its loss to our 
region would be immense. So, we want to hear from you how we 
can restore that funding, and how----
    Mr. Wynne. Yes, ma'am.
    Senator Murray [continuing]. This subcommittee can work 
with you to do that.
    Mr. Wynne. We appreciate your bringing it up.
    Senator Murray. I've also--I know you've been asked about 
tankers a couple of times this morning, and you know, those are 
extremely critical. I heard you say they're your number one 
procurement, many of them 45 years or older, and that they need 
to be procured.
    Your new RFP for the KC-X specifies nine performance 
parameters, and we all, I think, agree the men and women of the 
Air Force deserve the best tanker. I wanted to ask you, with 
the delay in the KC-X RFP release, are you confident the Air 
Force can execute the entire KC-X fiscal year 2008 budget 
request of $314 million?
    Mr. Wynne. Yes, ma'am. As we currently said, and primarily 
because both of the competitors are offering commercial-style 
airplanes, we think that they probably have a set of inventory 
that is going to essentially absorb that money--that they would 
essentially accelerate their response to us, which we really 
appreciate. They know we've been stretched out. They know that 
it's our number one priority. I don't think we'll have a 
problem spending that money.
    Senator Murray. When are the proposals due back? And when 
will the contract be awarded for those?
    Mr. Wynne. We're looking for the proposals to come back, I 
think, in early April, and we're looking for the contract to be 
awarded by year-end.
    Senator Murray. By the end of this year?
    Mr. Wynne. Yes, ma'am.
    Senator Murray. And, will you confirm for me that the Air 
Force will select a new tanker, based on an open and 
transparent acquisition process?
    Mr. Wynne. Yes, ma'am.
    Senator Murray. Okay, I appreciate it very much.
    One other question, Mr. Chairman.

                RESERVE COMPONENT EQUIPMENT AND TRAINING

    I wanted to ask you, because I'm really concerned about the 
long and frequent deployments and the effect they're having on 
our service members, including those in the Air Force Reserve 
and the Air National Guard. I think we all agree that they 
deserve the best equipment and training, and I wanted to know 
if the Air Force has a solution for providing the Air National 
Guard members equipment to train with at home when their 
aircraft is being kept in Iraq?
    Mr. Wynne. Ma'am that has to do with, again, with how much 
budget do you have, and how many airplanes can you dedicate 
simply to training, when you know they are dedicated to 
warfare?
    The National Guard airplanes are the C-130Hs. We've offered 
them backfills of C-130Es and we fully understand why they 
would rather have their Hs back. We will tell you that we have 
a proposal in the supplemental to try to buy some C-130Js and 
we recognize that we think we need some C-130s downstream.
    I would say this, though, about the National Guard, 
throughout, and the Reserve. We even have some Puerto Rican 
National Guardsman, this is the very first time they ever 
deployed in their history, and they came over and were serving 
in Bagram in a C-130 squadron.
    They operated magnificently, they operated right together--
you could not tell that it was a Guardsman or a Reservist or an 
Active Duty person. I can tell you that their training, they 
are top drawer, and the Air Force counts on them. And we have 
maintained a consistent rating throughout the Active, Reserve, 
and National Guard force structure.
    We are worried about the readiness of all of our troops 
together, and we recognize that even as we push forward into 
the joint cargo aircraft, we know we have some great people out 
there, and we are worried about their training.
    Senator Murray. General?
    General Moseley. Senator, if you would allow us, we've just 
signed out our phase four of our total force initiatives that 
includes Guard and Reserve, and we've sent that out to the 
Adjutants General over the signatures of the Secretary, myself, 
General Blum, General Bradley, and General McKinley. If you 
will allow me to put that in the record, I think that'll give 
you a good idea of where we're headed with the Guard.
    [The information follows:]

                   Phase Four Total Force Initiative

    Attached is the Total Force Integration Phase IV 
Initiatives list signed by Secretary of the Air Force Michael 
W. Wynne; Chief of Staff of the Air Force General Moseley, the 
Commander of the Air Force Reserve, Lieutenant General Bradley; 
the Chief of the National Guard Bureau, Lieutenant General 
Blum, and the Director of the Air National Guard, Lieutenant 
General McKinley.

    General Moseley. But, ma'am, you know by watching us, we 
don't do anything without our Guard and Reserve. We have large 
percentages of our major activities that are mixed inside the 
Guard and Reserve. We don't hold Guard or Reserve units in any 
different readiness. All of the money that we fund these units 
with--in fact, over this budget cycle, the Active units are 
funded less than the Guard and Reserve units. And if you would 
like, I'll share those numbers with you.
    Senator Murray. If you could share them with the 
subcommittee in writing, that would be good.
    [The information follows:]

                   Active, Guard, and Reserve Funding

    Senator Murray, this chart breaks out our Total Force 
fiscal year 2008 funding levels in a number of critical areas 
(depot programmed equipment maintenance, contractor logistics 
support, flying hours, base operating support, and operation 
and maintenance facility sustainment) by Active Duty and 
Reserve Component. We worked corporately together as a Total 
Force team to ensure funding equity across these areas. In some 
instances, notice the active Air Force is actually requesting a 
lower percentage of funding relative to its total requirements. 
This was purposefully done to ensure fiscal fairness among the 
Active Air Force, the Air National Guard, and the Air Force 
Reserve Command.

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                      Active           Guard          Reserve
----------------------------------------------------------------------------------------------------------------
DPEM:
    Funded......................................................          $2,696            $588            $400
    Requirement.................................................          $3,676            $799            $490
    Funding Levels (percent)....................................              73              74              81
CLS:
    Funded......................................................          $3,761              NA              NA
    Requirement.................................................          $5,002              NA              NA
    Funding Levels (percent)....................................              75  ..............  ..............
FH:
    10 percent Buyback..........................................            $516            $159             $88
BOS:
    Funded......................................................            $780              $4             $47
    Requirement.................................................          $1,179              $6             $44
    Funding Levels (percent)....................................              66              75             108
Sustainment:
    Funded......................................................          $1,890            $202             $58
    Requirement.................................................          $2,071            $212             $62
    Funding Levels (percent)....................................              91              95              94
----------------------------------------------------------------------------------------------------------------

    General Moseley. One of the key fundamental strengths of 
your Air Force is that we're a seamless Air Force with Guard, 
Reserve, and Active. In fact, the Commander at Kirkuk right now 
in Northern Iraq--the officer that commands that entire base--
is from Senator Bond's unit at St. Louis. He and his senior 
NCO, she is the Command Senior Master Sergeant--they are all 
Missouri Guardsmen.
    In my time as Commander of U.S. Central Command Air Forces, 
I had over 100 Guard and Reserve folks in key command positions 
at big bases. So, this notion of a seamless, Total Force, it is 
one of the fundamental beliefs of this Air Force. And so, if 
you would allow me to share this with you, I think it shows the 
overall notions of how we are looking to make this relationship 
even better.
    Senator Murray. Okay, I appreciate that. I appreciate your 
attention to that, and I hope we can put that in the record, 
Mr. Chairman.
    Senator Inouye. Senator Leahy. You finished?
    Senator Leahy. Thank you, Mr. Chairman.
    General Moseley, last week you wrote a letter to the 
Commission on the National Guard and Reserve. Mr. Chairman, I'd 
ask consent that that letter be inserted in the record.
    Senator Inouye. Without objection.
    [The information follows:]
                       Department of the Air Force,
                              Office of the Chief of Staff,
                                    Washington, DC, March 15, 2007.
The Honorable Arnold L. Punaro,
Chairman, Commission on the National Guard and Reserves, 2521 S. Clark 
        Street, Suite 650, Arlington, VA 22202.
    Dear Mr. Chairman: Thank you for the recent opportunity to testify 
before your Commission on one of the most momentous and potentially 
transformational issues of the day. I appreciate your readiness to 
discuss the Commission's interim report and options to better organize, 
train and equip America's military forces. With the nation engaged in a 
global war, I believe it is especially critical to pursue new avenues 
to properly integrate the Guard, Reserves, and Active Duty Air Force 
into a seamless, Total Force.
    I wholeheartedly agree that the structure for the Reserve and 
National Guard is outdated and has not kept pace with the 
organizational changes mandated by the Goldwater Nichols Defense 
Reorganization Act of 1986. Our reserve components have moved from a 
Cold War strategic reserve posture to active support of ongoing 
operational missions. They also provide the additional capacity to meet 
surge requirements and to support wartime and contingency operations 
across the board. Whether in response to combat tasking or natural 
disasters at home, there is nothing the Air Force does that isn't 
accomplished by the Total Force. Yet, while the United States Air Force 
has served as the model for seamless Total Force integration for 
decades, even our most successful of templates could be better 
positioned to address contemporary requirements. Our military responses 
to recent domestic natural disasters highlighted these seams 
dramatically.
    Therefore, I propose your Commission investigate options that would 
more closely align the Air National Guard and Army National Guard with 
their respective Military Departments, parallel to the Reserves' 
alignment but with a differing mission set. Such realignment would be 
more consistent with how the Air Force and Army currently organize, 
train, equip, and present our forces to the combatant commanders. It 
would help the Departments address these two inherent components' 
issues holistically, as part of the Total Air Force or Army. And it 
would also better facilitate the Military Departments' identification, 
mentoring, and preparation of Air and Army National Guardsmen for 
positions of greater responsibility and authority.
    I would also propose the Commission investigate options to give our 
Governors both an Air and an Army Adjutant General, who would partner 
to create a true joint headquarters for the Governors. This new 
organizational construct would serve the individual Governors better in 
time of crisis by providing true joint competencies and expertise for 
their state headquarters. Concurrently, it would also facilitate the 
identification, training and career development of a larger pool of 
joint Total Force officers from which many additional, higher-ranking 
positions could be filled. In exploring this option, I also propose the 
Commission consider the Air Guard and Air Reserve each being led by a 
four-star general, giving both officers the status of an Air Force 
Major Command (MAJCOM) commander.
    I have committed my tenure to making the Total Air Force even more 
capable of coping with the warfighting, disaster relief and homeland 
security challenges of the 21st Century. We're working to create 
command relationships that are responsive, flexible and meet state and 
national needs seamlessly. We're now in the last of four phases of the 
most encompassing transformation of Total Force partnering 
opportunities in the history of the Department of Defense, a change 
geared toward fielding true, Total Force air, space and cyberspace 
capabilities across the entire range of operations. We plan to field up 
to twelve Total Force squadrons of unmanned aerial vehicles (UAVs) in 
California, Nevada, Arizona, New Mexico, Texas, North Dakota, and New 
York. We have already begun partnering Air National Guard, Air Force 
Reserve and Active Airmen to man new F-22A Raptor units in Virginia and 
Alaska, and plan to follow suit in New Mexico and Hawaii. I've also 
looked to leverage the outstanding initiatives of the Vermont ANG in 
the ``City Basing'' work at Burlington and the South Carolina ANG's 
``reverse associate'' work at McEntire, which are paying great 
dividends.
    I'm pleased with the opportunity to capitalize on the experience 
and maturity of the Missouri ANG through creative partnering with the 
509th Bomb Wing at Whiteman AFB and their B-2 bomber mission. And I'm 
proud to announce creation of an additional association between a new 
ANG security forces squadron (SFS) and an existing active duty SFS at 
Minot AFB, North Dakota--an association that over the next two years 
will help relieve one of our most stressed career fields. Finally, as 
we work the next set of Total Force beddowns of our new jet aerial 
tanked (KC-X), new Combat Search and Rescue helicopter (CSAR-X), new 
stealth fighter (F-35A/Joint Strike Fighter), and the Joint Cargo 
Aircraft (JCA), as well as the continued beddown options for C-17 and 
C-130J airlifters, there is an ever wider set of opportunities that 
will evolve over the coming years.
    I wish you and the Commission all the best in your important 
endeavors. Thank you once again for the opportunity to share my views 
with you.
            Very respectfully,
                                        T. Michael Moseley,
                                     General, USAF, Chief of Staff.

                 DUAL MISSION OF THE AIR NATIONAL GUARD

    Senator Leahy. And you seemed to be greatly uncomfortable 
with unique dual mission with the Air National Guard, and 
somehow want to take over control of it. Do you think it would 
be a good idea if the Air National Guard be organizationally 
revamped to mirror the Air Force Reserve, have the States have 
two units, General, one lead the Air Guard, one lead the Army 
Guard. That the Director of the Air National Guard be a four-
star general, irrespective of the rank and position of the 
Chief of the National Guard Bureau.
    Now, I mention this just because none of these proposals 
will go anywhere up here. Both Republicans and Democrats are 
opposed to the, effectively demolish the National Guard, the 
Air National Guard as we know it. Eviscerate the close 
relationship between the States and local communities, and 
completely undermine the National Guard Bureau, which is 
legally tasked with coordinating National Guard activities, and 
the reason I find it interesting, is the Air National Guard is 
doing a stellar job carrying out missions both at home and 
abroad. They're carrying out a significant proportion of the 
mission--Air Guard is--in Afghanistan, Iraq, they are ready to 
react immediately to emergencies at home, I know that for a 
very significant time after 9/11 they cover flown over New York 
City, were F-16s out of my home State of Vermont, out of 
Burlington, Vermont, from the Guard, and of course they are an 
essential tie between the Air Force and local communities, 
which has many times made life easier, not more difficult for 
the Secretary. So, why do you want to end this?
    General Moseley. Sir, just the opposite. Let me tell you 
from my testimony at the Commission on the National Guard and 
Reserves that it was obvious to me that there were folks 
discussing things that would fundamentally alter the ability of 
the Air National Guard to do business. The problems it appeared 
the Commission was attempting to wrestle with had nothing to do 
with the Air National Guard.
    My testimony to the Commission was, whatever it is you're 
attempting to fix, don't break my Air National Guard and my 
relationship with my Guard. Because this is fundamental to the 
Air Force that this is a seamless relationship.
    I also said that I have----
    Senator Leahy. But it breaks it if you go into--it's 
certainly going to break it in the States and the communities 
if you break it into, in effect, two separate Guards.
    General Moseley. Sir, let me come to that, if you would. 
There's another part of this that I'm concerned about. The 
notion of being a member of the Joint Chiefs of Staff, I'm 
still not supportive of that. The notion of promotion to four 
star, I'm okay with that, as long as there's a provision that 
the Director of the National Guard would then be rotational. 
There was no mention of that in the testimony.
    My experience in this area is that if Steve Blum is made a 
four star, and he would be an ideal candidate, because he's a 
quality officer, where in the legislation would it say that 
this is rotational between the Army Guard and the Air National 
Guard? Nowhere in there was that discussion.
    Senator Leahy. Suppose it was?
    General Moseley. I would be happier, sir.
    The notion of being able to prepare people for command--if 
you had a chance to look at my testimony, I also said that I 
have no problem with the Guardsmen commanding things as big as 
Northern Command. In fact, I'm the only Chief, I believe, that 
said that.
    Senator Leahy. Well, you know that Senator Bond, who was 
here earlier, he and I are co-chairs of the National Guard 
Caucus, and we try to keep this as devoid of politics as 
possible. We sent you a letter.
    General Moseley. Yes, sir.
    Senator Leahy. And I ask that a copy of the letter be 
inserted in the record, but we raise some concerns about your 
proposal.
    General Moseley. Sir, my concern is, don't break it------
    Senator Leahy. I know you'll be responding to that letter.
    General Moseley. Yes, sir. But I would offer in this 
setting, my real concern is don't break my Air National Guard. 
As we attempt to fix other problems, the Air National Guard is 
not broken. And so, the notion of being able to prepare people 
for command--and I'm on record by saying I have no issues with 
this, and I have actually put people in command of big 
operations--there has to be a path to prepare for command.
    The Air National Guard side, I'm happy with. And I would 
like to make that better. That's why I proposed a bit of a 
revolutionary notion that a Governor have a joint headquarters, 
and that a Governor have the ability to grow people inside the 
State, and that the Air National Guard and Reserve, which is 
lost sometimes in these discussions, has the same opportunity.
    And, so my proposal for the Air Guardsman and the Air 
Reservist to be an equal four star, I'm okay with that. In 
fact, that's why I said it. Because I believe my Air Guard, and 
my Air Reserve are key pieces of what I do as the Chief of 
Staff of the Air Force, and I value that relationship.
    Senator Leahy. You say ``your'' Air Guard, and it's sort of 
all of our Air Guard, isn't it?
    General Moseley. Well, sir, I can say that as the Chief of 
Staff of the Air Force, because I'm the senior airman. And I 
view these guys as airmen, they're brothers.
    Senator Leahy. I view them as a major asset of all of ours, 
of the United States.
    Now, let me ask you this, then. If you want to make it 
something that can improve, can grow, use your terms, why won't 
the Air Force expand the community basic initiative? That sends 
active duty persons on a train and fight alongside Guard 
personnel at stand-along Guard bases. I say this, because 
again, using the experience with the 158th Fighter Wing in 
Burlington, Vermont, it's worked out very well, as a superb 
national AP story talked about how well this has done, and I 
ask that that be made part of the record, Mr. Chairman.
    Senator Inouye. Without objection.
    [The information follows:]

                [From the Boston Globe, March 18, 2007]

       Active Duty Air Force Learning From Vermont Guard Members
               (By Wilson Ring, Associated Press Writer)
    SOUTH BURLINGTON, Vt.--When Airman 1st Class Cabe Feller joined the 
Air Force two years ago, he was hoping to see the world beyond his farm 
town. He didn't expect one of his first stops to be Vermont.
    Now, during his working hours, Feller, 20, of Herscher, Ill., is 
learning the intricacies of maintaining F-16 fighter jets. He's getting 
plenty of one-on-one tutoring about the airplanes from Vermont Air 
National Guard technicians, some of whom have worked on the planes for 
longer than he's been alive.
    During his off hours, Feller has learned to snowboard. He's been 
exposed for the first time in his life to what he sees as the 
ethnically diverse communities of Bosnians, Vietnamese and Sudanese who 
live in the Burlington area.
    ``The set-up here is fantastic,'' said Feller, an active duty 
airman taking part in a first-of-its-kind program that sends a small 
number of active duty Air Force personnel on a three-year rotations to 
the Vermont Air National Guard base at the Burlington International 
Airport.
    The program is known as ``community basing'' and is designed to 
help the active duty Air Force work closely with the Air National 
Guard.
    ``It takes advantage of the years of experience that the guardsmen 
have in training our young airmen while at the same time it exposes our 
young airmen to the guard operations,'' said Air Force Col. Michael 
Vidal, commander of the 20th Maintenance Group at Shaw Air Force Base 
in Sumter, S.C., the active duty parent of the service members in 
Vermont.
    There are similar programs under way at another base in South 
Carolina and one in Utah, Vidal said.
    The program was conceived by Vermont Guard Maj. Gen. William Etter, 
who was just appointed to the staff of the chief of the National Guard 
Bureau in Washington. And it was promoted by U.S. Sen. Patrick Leahy, 
the co-chairman of the Senate's National Guard Caucus.
    Leahy saw the program as a way to help the Air Force and to help 
ensure the Vermont National Guard remained important enough to the Air 
Force that the South Burlington base wouldn't be targeted for closing.
    ``It has helped cement the ties between the Air National Guard and 
the active Air Force,'' Leahy said. ``It can and should be a model now 
for the entire Air Force. I'd like to see the program expanded 
aggressively in Vermont and across the Air Guard.''
    Last month, Leahy wrote a letter to Air Force Secretary Michael 
Wynne and Air Force Chief of Staff Gen. T. Michael Moseley, saying the 
Air Force had not followed through with an effective program.
    ``We are not surprised but we are disappointed,'' said the letter 
signed by Leahy and co-chair Sen. Christopher Bond, R-Mo.
    Working with the Air Guard doesn't exempt active duty personnel in 
Vermont from overseas missions. Feller spent about six weeks in Iraq 
last year with the Vermont Guard's 158th Fighter Wing, and he's due to 
return again later this year.
    Currently, there are 14 active duty Air Force personnel at the 
South Burlington base. Two are pilots, the rest are maintenance 
technicians, the majority young people new to the Air Force on their 
first tours after they completed technical training.
    Vermont Guard Lt. Col. T.J. Jackman, who oversees the maintenance 
of the Vermont Guard's 15 aircraft, said when the airmen arrived there 
was some concern the active duty airmen wouldn't fit in with the 
guardsmen. But the two groups have blended well.
    ``We're all Green Mountain Boys,'' Jackman said, using the unit 
nickname that grew out of Vermont's Revolutionary War militia led by 
Ethan Allen.
    Air Force Master Sgt. Roger Harms, 35, originally from Clinton, 
Mo., is the noncommissioned officer in charge of the young airmen.
    He and his wife like living in an area where crime is low and 
schools are good.
    ``It's a real good place to raise a family,'' Harms said.
    For some of the young airmen, the quiet life of Vermont isn't fast 
enough and the military opportunities too few, everything from the lack 
of low-priced military theaters to being able to work on a broader 
range of equipment than are available in Vermont.
    Feller has been working on his own toward a bachelor's degree so he 
can qualify for officer training and, eventually, pilot training.
    ``The family atmosphere here is awesome,'' Feller said.
    The airmen in Vermont are due to leave in the fall of 2008.

    Senator Leahy. It shows that members of the Active Air 
Force get a super training and living opportunity, while the 
Guard gets a chance to working closer with the Active Force, 
and you cite that in the letter we just discussed, but why 
can't you find 100 to 200 people in all of the Air Force to 
expand this program in Burlington? They seem to be setting up, 
basically the model that could be used throughout the country. 
Why can't we find a way to find a way to do it in Burlington 
right? Why can't we find a way to expand it around the country?
    General Moseley. Sir, I will tell you, without being 
flippant, you're singing my song. I'm the guy that bought----
    Senator Leahy. Good, then when will we expect those 100 to 
200----
    General Moseley. Sir, I asked that question this morning. 
The test was successful, the people loved what they did, the 
experience was useful. We're doing the same thing at McEntire 
in South Carolina, we've looked for opportunities to do this. 
As we look at the drawdown of 40,000 people, and we look at the 
global tasking, and we look at over 20,000 of us that have been 
tasked to do ``in-lieu of'' tasking, as we look at the 
youngsters that we would want to put in that unit, we're 
looking hard to find the people to capitalize on the test, 
which was very successful.
    I like this, and I like what this has done, and I'm 
committed to do this.
    Senator Leahy. When?
    General Moseley. Sir, as soon as we can find the people.
    Senator Leahy. Ballpark?
    General Moseley. Sir, let me get back with you. I've asked 
the major commanders to find the people. Of course, they have 
to be fighter folks, they have to be----
    Senator Leahy. Please get back to me on it.
    General Moseley. I will do that, sir.
    Senator Leahy. I'm easy to be found.
    General Moseley. This is a good thing.
    Senator Leahy. I have a listed home phone number, I always 
have had, a listed office number, feel free. We can, otherwise, 
I'm worried that we won't have any of these bases, especially 
the Northeast or the Midwest if we don't do this. It seems 
easier to get bases in warm climates, sometimes it's good to 
train where you have all kinds of weather.
    General Moseley. Sir, the benefit of the unit in your State 
is it has been very aggressive in reaching out for this 
community basing, and it has worked--the test worked, the 
relationship worked, the outcome worked, the challenge for us 
now, is to be able to spread the ``in-lieu of'' tasking and all 
of the other missions we have, and find those people of that 
grade structure, to be able to get them there, and keep them 
there.
    Senator Leahy. Well, please work with me. I'm not saying 
this just out of parochial. As I've told our Guard, both Army 
and Air Guard, I'll go to bat for them if I feel they're doing 
something really well, I won't otherwise. I think they are 
doing very well. General Dube, who is our Adjutant General is 
an Air Force, handles both Air Force and the Army Guard very, 
very well. And, I know that there has been enormous effort from 
the civilian community to make this community base work, as the 
AP story points out, a lot of the people who were assigned 
there like it and especially when some of them were 
interviewed, I think, the day after we had had something like 3 
feet of snow--which, in Vermont sometimes slows up--we 
sometimes open a half hour late on things with 3 feet of snow. 
Not the Air Guard, they're--they fly no matter what it is. I've 
often thought that if, any terrorist organization could learn 
how to make it snow 3 inches in Washington, DC, they could 
close our Government forever. And we'd have to shift it to 
Alaska and Vermont where anything under 10 inches is a dusting, 
and once you get above 3 feet, you've got some logistical 
hurdles to clean out parking lots, but other than that, just 
keep on going.
    General Moseley. Sir----
    Senator Leahy. Mr. Secretary, that was an unnecessary aside 
on my part, but I just thought I'd throw it in.
    Mr. Wynne. Sir, I'm familiar with Burlington, and lived in 
Detroit for a long time.
    Senator Leahy. Well, you know what it's like in Detroit 
when it comes across the water and the snow hits, you know what 
it's like.
    General Moseley. Sir, the other part of this that's lost, 
even in the AP report, is the community opened up and 
effectively adopted these folks, and so these folks now have 
surrogate moms and dads and brothers and sisters in a community 
that we can benefit from the Guard's outreach in those 
communities, and we can learn a whole lot more. So, this is a 
good thing.
    Senator Leahy. Our Guard is very well-appreciated in our 
State. I'll tell you two very brief vignettes in this.
    During my campaign for re-election a couple of years ago, 
there was a concert, a lot of supporters come to it, I would 
guess that the large majority of people probably if polled 
disagreed with us being in Iraq, but here's what happened.
    My wife was on the Guard support team, family support team, 
had suggested we give 150 tickets out to families of Guard 
members who were overseas, either in Iraq or Afghanistan. The 
performer announced that these Guard families were in the 
theater. The result was a longstanding ovation for them by the 
people there. I just, I cannot think of a time in Vermont that 
anybody--certainly myself included--has ever gotten a standing 
ovation like that.
    The other was, as I told the Guard up there, about 3 weeks 
after 9/11, I got a call, my office in Burlington from someone 
who said, ``Do you remember that letter I wrote complaining 
about the noise of the F-16s taking off at the Burlington 
Airport, I wrote it to you in August?'' And somebody said, 
``Yes, we have that right here, and Senator's going to 
answer,'' they said, ``No, no, no, no, please destroy the 
letter. I think they sound pretty darn good.''
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much.
    Gentlemen, I just have a few questions.
    One of the best-kept secrets, I believe, is the age of our 
fleet. We talk about it in this room in the subcommittee, but I 
doubt if fellow Americans realize that we have World War II 
aircraft, you know, active fleet, that our average age is 24 
years old, and I heard the stunning news, Mr. Secretary that 
Brazil is now prohibiting the landing of C-5s?
    Mr. Wynne. Argentina.
    Senator Inouye. Argentina.
    Mr. Wynne. And we're refused overflight rights into our 
diplomatic Embassy and landing rights. This was on the 
presidential South American mission.
    Senator Inouye. That being the case, I would anticipate 
that both of you are seriously, seriously considering a bomber 
replacement for our fleet.
    Mr. Wynne. Yes, sir. You're right on.
    Senator Inouye. And what the subcommittee would like to 
know would be the qualities and the characteristics of the new 
aircraft? What the time schedule is? What are the costs 
involved? I would anticipate just R&D exceeding $50 billion or 
so. And what, how much a copy? I don't expect you to give us 
the answer here, but I think this subcommittee should be 
prepared to sit down with you and assist you in this venture, 
because I still feel the scars of the B-2 challenge. Those were 
difficult times. And so, if you could share that information 
with us, it would be extremely helpful.
    I note that in your budget request, you have decreased the 
flying hour time by 10 percent. I'm not an airman, but I know 
that our men and women need training, know how to handle the 
gadgets that are on the planes--what risks are you taking by 
reducing the time?

                      AIR FORCE BUDGET PRIORITIES

    General Moseley. Sir, the challenge is, as we spent the 2.2 
million man-hours balancing this budget, as we forwarded it to 
the Office of the Secretary of Defense, which became the 
President's budget, in there we had to take some risks to 
protect the investment accounts in our people, our personnel 
accounts. We took some risk in the infrastructure, and we took 
some risk in O&M, and that's where the 10 percent of the flying 
hours are.
    But, I'll tell you, as the Service Chief, I'm less 
comfortable with additional risk in the flying hours. We're a 
country at war, we're an Air Force at war. We have to train, we 
have to generate sorties, and we have to fly. At about 7.5 
percent reduction in flying hours, we're still at low risk, but 
the difference--as you get closer to 10 percent, I'm becoming 
increasingly uncomfortable with that, and I've asked our 
operators and our programmers to look at ways to give me the 
money and put it back, so I can restore those flying hours.
    There's only so many things you can do in a simulator 
before you have to fly. And, I'm sounding like an antique 
fighter pilot here, but there's just certain things you have to 
do airborne. And so the simulator/flying mix, I think we're at 
about the right balance on that, and I'm not willing to go much 
further. And so, I'm asking to find the money to put it back to 
restore the flying hours.
    Senator Inouye. How much money would you need?
    General Moseley. Sir, I can--it's a rough order, if you'll 
let me take that for the record, I'll get that back to you 
quickly.
    Senator Inouye. Because I'd like to share that with the 
subcommittee.
    [The information follows:]

                              Flying Hours

    The cost to buy back the 10 percent flying hour reduction 
in fiscal year 2008 is $763 million.

    General Moseley. Yes, sir. Thank you, Mr. Chairman.
    Senator Inouye. Because, the last thing that we want to do 
is to put our men and women who are going in harm's way at 
risk, unnecessarily.

                     ADDITIONAL COMMITTEE QUESTIONS

    Well, I have many questions which I'd like to submit to you 
for your responses. But, I'd like to thank you very much for 
your presence here, and your candid responses. I'd also like to 
commend and congratulate and thank the five great airmen and 
women, we appreciate your service very much. I salute you.
    Senator Stevens. Mr. Chairman, can we arrange to take a 
photo with those people, please?
    Senator Inouye. Oh, love to. Can we?
    General Moseley. Absolutely, you bet, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted to Hon. Michael W. Wynne

            Questions Submitted by Senator Daniel K. Inouye

                              END STRENGTH

    Question. Secretary Wynne, the Air Force is in the process of 
reducing its end strength by 40,000 airmen. Has a recent Department of 
Defense decision to add 92,000 Army and Marine Corps troops led the Air 
Force to rethink these reductions? If you determine that additional Air 
Force personnel are required, how would you address this within the 
constraints of the fiscal year 2008 budget request?
    Answer. The Air Force has been engaged in combat for the past 16 
years while transforming into a smaller, leaner and more capable force. 
This transformation was highlighted in the fiscal year 2007 President's 
budget request, where the Air Force reduced 40,000 full time equivalent 
Active Duty, Guard, Reserve and Civilian positions to help pay for one 
of the Service's top priorities, the recapitalization and modernization 
of its aging aircraft and spacecraft inventories.
    The reason the Air Force reduced manpower in the fiscal year 2007 
President's budget request was insufficient budget to execute the 
entire spectrum of Air Force taskings and still bring in a balanced 
program. Rather than assume risk in our recapitalization accounts, 
which we have perilously put at risk for many years, we shifted risk to 
the personnel accounts. While painful, these reductions provided a 
catalyst for significant positive transformational changes to the way 
we meet mission challenges.
    The Air Force is clearly linked to Joint ground force operations, 
so a plus up of Army and Marine forces will require an increase in Air 
Force capabilities to support it. For example, Air Mobility units are 
intrinsically tied to supporting the Army and Marines with logistical 
reach to go and be supplied anywhere in the world. This support goes 
beyond aircrews and aircraft, to include maintainers, logisticians, and 
supply technicians to name a few. Additionally, weather teams, tactical 
air control, and other forces are imbedded with or closely tied with 
the ground forces, so there will be an increased demand in these career 
fields.
    The 2006 Quadrennial Defense Review called for an Air Force 
comprised of 86 modern combat wings to fulfill its role in the 1-4-2-1 
strategic plan. The fiscal year 2007 President's budget request, in 
which the Air Force was compelled to take the 40,000 full-time 
equivalent reduction to preserve essential modernization and 
recapitalization efforts, was well into development and already 
finalized at the time the QDR Report was released. Knowing what we know 
today, the Air Force clearly needs additional dollars and end strength 
to halt manpower reductions and remain at the projected fiscal year 
2008 level of near 330,000 and to ensure that added risk in manpower is 
to resource essential future bomber, Intelligence, Surveillance, and 
Reconnaissance, combat airmen, and other emerging joint war fighting 
capabilities is minimized.

                             STRATEGIC LIFT

    Question. Secretary Wynne, there is some uncertainty about the 
Department's strategic lift plans. The C-5 reliability and re-engining 
program has reported a Nunn-McCurdy cost overrun, while the fiscal year 
2008 budget request funds to begin shutting down the C-17 Globemaster 
production line. At the same time, both the Army and the Marine Corps 
are planning significant increases in end strength. What action is the 
Air Force taking to define requirements, assess risk, and refine or 
develop its strategic lift strategy?
    Answer. The Air Force is taking a hard look at its C-5 inventory, 
specifically the economic and operational feasibility of modernizing 
this aging fleet. Study is ongoing to evaluate the impacts and benefits 
associated with recapitalization and modernization decisions. In order 
to maintain the minimum sized fleet of strategic airlifters as defined 
by the 2005 Mobility Capabilities Study (292 aircraft) and the 2007 
National Defense Authorization Act mandate (299 aircraft), any 
reduction in the current fleet size would result in a need for 
procurement of additional aircraft. Increases in land forces are 
currently under review and may impact strategic lift requirements. 
Toward this end, the Air Staff and the lead major command, Air Mobility 
Command, are working together to analyze the associated current and 
future total strategic lift requirements.
    Question. Secretary Wynne, do I have your assurance that the Air 
Force will consult with the Senate as you work through the strategic 
lift issues?
    Answer. We are committed to an open and transparent process to 
ensure America has the assets it needs to protect itself and its 
allies. Strategic lift is an Air Force core competency that projects 
global reach and we are keeping Congress fully informed of our progress 
in determining the right mix of strategic lift assets to fulfill that 
mission.

                             C-40 AIRCRAFT

    Question. Secretary Wynne, the fiscal year 2008 budget includes 
$48.6 million to purchase two C-40 aircraft that are currently leased 
by the Air National Guard at Andrews Air Force Base. The aircraft were 
leased for a six-year term in 2002 and it expires in 2009, at which 
time the Air Force plans to purchase the aircraft. What is the total 
projected Air Force inventory and basing plan for C-40 aircraft?
    Answer. The program of record calls for a total inventory of ten C-
40 aircraft. The basing plan for C-40 aircraft is as follows:
  --Andrews AFB MD--5;
  --Scott AFB IL--3;
  --Hickam AFB HI--1; and
  --Ramstein AB GE--1.
    Question. Is the purchase after lease plan for the two C-40 
aircraft at Andrews the best alternative for the Air Force from a cost 
perspective? Was it part of the original contract?
    Answer. Purchase is the best cost and operational alternative when 
the six-year lease term expires. The option to purchase the aircraft at 
the negotiated residual value of $24 million each is part of the 
original lease contract.
    Question. Does the Air Force plan to retire the C-9s and procure 
more C-40s for the unit at Scott Air Force Base? If so, when will those 
purchases occur?
    Answer. The fiscal year 2008 President's budget funds the C-9C 
through fiscal year 2011. The program of record retires the C-9Cs at 
the end of fiscal year 2011. The fiscal year 2008 President's budget 
does not include funding to procure additional C-40s for the unit at 
Scott Air Force Base, IL.

                         SATELLITE ACQUISITION

    Question. Mr. Secretary, the Air Force has yet to demonstrate that 
it has schedule, costs, and quality under control when building 
satellite systems. When systems seem on the verge of recovering from 
years of challenges, DOD reduces the number of satellites and begins a 
new more high tech satellite as a replacement system to a system that 
hasn't launched yet. In this environment, how can the Air Force bring 
stability to space programs and the industrial base?
    Answer. To stabilize its space programs the Air Force is 
implementing a Block Approach wherever practical. This approach is 
based on delivering capability through discrete value-added increments 
and is consistent with current Department of Defense policy that 
specifies ``evolutionary acquisition as the preferred strategy'' for 
its acquisition. Each capability increment balances capability, budget, 
schedule, and technology maturity. The use of a Block Approach will 
enable a constant, on-going rhythm of design, build, launch, and 
operations that will ultimately reduce the acquisition cycle time, 
foster stability in the industrial base and workforce, and allow the 
Air Force to field better systems over time, all while increasing 
confidence in our production schedule and cost. Ultimately, the 
warfighter should receive a rhythm of needed, timely, affordable 
capability.

                          JOINT STRIKE FIGHTER

    Question. Secretary Wynne, the fiscal year 2008 budget includes 
funding to procure six conventional take-off and landing Joint Strike 
Fighters. The Defense Acquisition Board is scheduled to meet next month 
to review the program and approve the low-rate initial production of 
aircraft. Would you bring us up to date on the status of this program?
    Answer. The F-35 program is in the 6th year of a 12 year 
development program. The F-35 program is on track for Low Rate Initial 
Production (LRIP) I contract award. The Program Executive Officer for 
F-35 briefed the Defense Acquisition Board on April 11, 2007 to garner 
approval for full-award of two Conventional Take Off and Landing (CTOL) 
aircraft and long-lead item purchase for six CTOLs in LRIP II. The F135 
Pratt and Whitney engine has completed over 7,300 hours of testing on 
12 engines and continues to meet performance parameters. The F-35 AA-1 
(first CTOL aircraft) has flown nine times for 8.9 hours as of March 
26, 2007 powered by an F135 engine. This aircraft is validating design, 
manufacturing, test processes and vehicle performance. Eleven 
additional developmental aircraft are being built. All eight partner 
countries signed the Production, Sustainment, and Follow-on Development 
Memorandum of Understanding.
    Question. Secretary Wynne, last year, the Congress directed the 
Department to conduct an analysis of the potential savings and costs 
for developing two engine sources for the Joint Strike Fighter to 
enable competition. The study is due this month. In the interim, the 
Department is required to continue funding the alternative engine 
development program. The Air Force has not complied with that 
direction. Could you give us the Air Force views on this program?
    Answer. Congress appropriated an additional $340 million in fiscal 
year 2007 to continue development of the F136 Engine. The Department is 
continuing the development of the F136 engine in fiscal year 2007 as 
directed by Congress. In accordance with the fiscal year 2007 John 
Warner National Defense Authorization Act, three studies were conducted 
by the Government Accountability Office, the Institute for Defense 
Analysis, and the Cost Analysis Improvement Group to re-examine the 
procurement and lifecycle cost impacts of terminating the alternate 
engine program. Initial out-briefs were given to Congress on March 22, 
2007. Final reports are being written and should be finished by June 
2007. The Air Force stands by the Department of Defense's decision to 
cancel F136 development due to acceptable risk and constrained budgets, 
but sees the potential benefit of a second engine source if funding 
were available. The Department of Defense is awaiting the final reports 
of the studies that are re-evaluating the costs and benefits of an 
alternate engine.

                          JOINT CARGO AIRCRAFT

    Question. Secretary Wynne, the Joint Cargo Aircraft is viewed by 
some as a key program needed to supply ground troops who are deployed 
to areas that cannot be served by larger aircraft. Is the Air Force 
committed to purchasing whichever version of the Joint Cargo Aircraft 
that wins the source selection scheduled for this summer?
    Answer. The Army and Air Force Vice Chiefs signed an agreement in 
June 2006 documenting our commitment to the program and outlining each 
Service's roles and responsibilities. The Joint Cargo Aircraft would be 
added to the Air Force's intra-theater airlift and Homeland Security 
missions.
    Question. Secretary Wynne, has the Air Force determined how many 
Joint Cargo Aircraft it requires? Are these requirements changing in 
light of the proposed growth of the Army and Marine Corps?
    Answer. The Air Force has not determined how many Joint Cargo 
Aircraft (JCA) it requires. The Air Force will know its requirements by 
the time the JCA Defense Acquisition Board meets on May 30, 2007. The 
JCA requirements are not currently expected to change in light of the 
proposed growth of the Army and Marine Corps.

                          JOINT STRIKE FIGHTER

    Question. What funding amount would be required in fiscal year 2008 
to continue the alternative engine project for the Joint Strike 
Fighter?
    Answer. Continued development of the F136 engine would require 
approximately $500 million in fiscal year 2008. The Air Force portion 
of that cost would be approximately $250 million.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

                               C-5 FLEET

    Question. Mr. Secretary, I sent you a letter last week relaying 
extreme concern about statements attributed to U.S. Department of Air 
Force (USAF) officials about retiring some or all of the C-5A Aircraft. 
I look forward to your response and possibly meeting with you sometime 
in the near future about this matter.
    Mr. Secretary, I am advised that the USAF Program of Record 
supports modernization of the entire C-5 fleet. Likewise, I understand 
that the 2006 Quadrennial Defense Review and the 2005 Mobility 
Capabilities Study validated the requirement and support modernization 
of the entire C-5 fleet. Further, the President's fiscal year 2008 
budget request for the Air Force supports C-5 aircraft modernization 
through the Avionics Modernization and the Reliability Enhancement and 
Re-Engining Programs.
    With all of these official milestone C-5 modernization decisions in 
place, what has changed and why is the Air Force publicly discussing 
the retirement of C-5As at this time, conflicting with its own studies 
and analysis?
    Answer. C-5 modernization, specifically the Reliability and Re-
Engining Program (RERP), is facing increasing cost pressures bringing 
into question the cost effectiveness of the program for a fleet of 111 
aircraft. It is also my desire to continue the recapitalization of Air 
Force aircraft. Additionally, the C-5A fleet is showing some 
significant metal corrosion and stress cracking adding to the 
investment required to maintain viability of this fleet. The average 
age of the current Air Force fleet is 26 years per aircraft. The C-5A 
portion of the fleet is, on average, over 35 years old. Continuing the 
retirement of legacy aircraft facilitates the equipping of an Air Force 
able to maintain the required airlift capability for combatant 
commanders in both peacetime and contingency operations.
    Question. Is this the official position of the Air Force on the 
matter? If so, what criteria is the Air Force using to determine 
``worst performing'' aircraft?
    Answer. The Air Force official position is that I would like the 
ability, with the Chief of Staff of the Air Force, to manage the Air 
Force fleet without congressional restriction and mandate. Air Force 
professionals are the best educated and equipped to make force 
structure decisions with regard to air and space power. With that being 
said, we are exploring every option to find the most effective and 
fiscally responsible answer to meet the strategic airlift needs of the 
Air Force of today and tomorrow.
    If the decision is made to retire some number of C-5A aircraft, the 
Air Force would use mission capable rate, maintenance man-hour/flying 
hour, cumulative flight hours, total outstanding structural repair and 
modification costs, total landings, and next programmed depot 
maintenance input dates as factors to stratify the fleet.
    Question. Under what timeline is the Air Force planning to act and 
to inform Congress and the impacted bases of such retirements?
    Answer. There is no current plan to retire specific aircraft or 
from specific bases. The proper fleet mix of strategic airlift aircraft 
is currently under review. Current legislation does not allow the Air 
Force to retire any C-5 aircraft until the Operational Test and 
Evaluation report of the C-5A aircraft, currently in flight test, is 
delivered. The report will not deliver until fiscal year 2010, 2 full 
years after the shutdown of the C-17 production line has begun. If 
relieved of legislative restrictions, the Air Force would be able to 
effectively manage the mix of various aircraft fleets. Preliminary 
options under review include replacing retiring strategic airlift 
aircraft with new C-17s or backfilling with newer C-5Bs from within the 
Air Force. No new units are anticipated. Likewise, closures of existing 
units are not planned. The Air Force will be open and transparent with 
regard to basing plans.
    Question. Are any of the C-5As that are scheduled to arrive at the 
167th Airlift Wing over the next two years among the worst performers 
noted by the Air Force Chief of Staff?
    Answer. The Air Force has not determined which specific C-5A 
aircraft will go to Martinsburg, West Virginia. The Air Force must 
conduct further analysis to finalize the specific aircraft involved and 
when they will be available for transfer to the 167th Airlift Wing.
    Question. Is it true that the Air Force's Fleet Viability Board 
found the C-5A fleet to be healthy and with decades of service life 
remaining? Is it also true that the C-5s have about 70 percent service 
life remaining and can serve through 2040?
    Answer. The Fleet Viability Board found the C-5A fleet could be 
kept viable at least until 2029 (25 years from 2004 assessment) with 
the addition of the Avionics Modernization Program and Reliability 
Enhancement and Re-engine Program modifications. In addition, the Board 
projected the C-5A will likely need an avionics upgrade on the scale of 
today's Avionics Modernization Program around fiscal year 2020 to deal 
with technology obsolescence and future operational requirements. 
According to testing and analyses, from a structural fatigue 
standpoint, it is true the C-5A has at least a 70 percent service life 
remaining. The Board has not performed any further analysis projecting 
beyond 2029.
    Question. Is it true that during IRAQI FREEDOM operations, the C-5 
flew 23 percent of the missions and delivered nearly 47 percent of the 
cargo; carried 63 percent more cargo per mission than the C-17; and 
delivered more cargo than any other aircraft?
    Answer. The following mission data collected by Air Mobility 
Command shows the most current figures:
  --The C-5 flew 16 percent of the missions (C-17 flew 29.8 percent).
  --The C-5 delivered 25.3 percent of the cargo (C-17 delivered 36.4 
        percent).
  --The C-5 carried 25 percent more cargo per mission than the C-17 
        (Average of 50 short tons per mission for C-5; 38 short tons 
        per mission for C-17).
  --The C-5 ranked third in delivered cargo amongst aircraft types (#1. 
        Commercial: 427,769 short tons, #2. C-17: 433,421 short tons, 
        #3. C-5: 301,202 short tons).
    Excluding commercial aircraft from the analysis, and only counting 
military aircraft, the percentages are:
  --The C-5 flew 26.4 percent of the missions (C-17 flew 50.5 percent).
  --The C-5 delivered 39.5 percent of the cargo (C-17 delivered 56.8 
        percent).
  --The C-5 carried 25 percent more cargo per mission than the C-17 
        (Average of 50 short tons per mission for C-5; 38 short tons 
        per mission for C-17).
  --The C-5 ranked second in delivered cargo amongst aircraft types 
        (#1. C-17: 433,421 short tons, #2. C-5: 301,202 short tons).

                                               OPERATION IRAQI FREEDOM DEPLOY/SUSTAINMENT/REDEPLOY TOTALS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                     Flying    Percent    Percent    Percent     STons/
                                             Missions   Sorties      Pax       STons     Offloads    Hours     Missions   Sorties     STons     Mission
--------------------------------------------------------------------------------------------------------------------------------------------------------
               Aircraft Type

C-5.......................................      6,016     32,277    156,526    301,202     13,395    172,481       15.6       19.6       25.3      50.07
C-17......................................     11,514     54,056    232,812    433,421     25,044    216,697       29.8       32.8       36.4      37.64
C-130.....................................      1,440      7,432      6,002      2,253        779     36,811        3.7        4.5        0.2       1.56
C-141.....................................      1,426      8,317     33,356     16,780      3,553     40,042        3.7        5.1        1.4      11.77
Commercial................................     15,856     56,084  2,127,858    427,769     24,649    299,686       41.0       34.1       35.9      26.98
KC-10.....................................        521      2,283     10,403      7,699      1,115     13,609        1.3        1.4        0.6      14.78
KC-135....................................      1,690      3,560     16,986      1,491      1,477     27,939        4.4        2.2        0.1       0.88
OTHER.....................................        185        567        185          2         60        912        0.5        0.3        0.0       0.01
                                           -------------------------------------------------------------------------------------------------------------
      Total...............................     38,648    164,576  2,584,128  1,190,617     70,072    808,177  .........  .........  .........  .........

           Excluding Commercial

C-5.......................................      6,016     32,277    156,526    301,202     13,395    172,481       26.4       29.8       39.5      50.07
C-17......................................     11,514     54,056    232,812    433,421     25,044    216,697       50.5       49.8       56.8      37.64
C-130.....................................      1,440      7,432      6,002      2,253        779     36,811        6.3        6.9        0.3       1.56
C-141.....................................      1,426      8,317     33,356     16,780      3,553     40,042        6.3        7.7        2.2      11.77
KC-10.....................................        521      2,283     10,403      7,699      1,115     13,609        2.3        2.1        1.0      14.78
KC-135....................................      1,690      3,560     16,986      1,491      1,477     27,939        7.4        3.3        0.2       0.88
OTHER.....................................        185        567        185          2         60        912        0.8        0.5        0.0       0.01
                                           -------------------------------------------------------------------------------------------------------------
      Total...............................     22,792    108,492    456,270    762,848     45,423    508,491  .........  .........  .........  .........
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. Please explain why a modernized fleet of 111 C-5s and 190 
C-17s, a ratio that has been validated by the U.S. Air Force and other 
military organizations and studies, is now no longer an adequate 
solution to meet the nation's strategic airlift requirements.
    Answer. The current programs of record and the resulting 301 
strategic airlift aircraft meet current and projected requirements at 
the ``bare minimum'' of acceptable risk. The question at hand is the 
future viability of the Air Force strategic airlift fleet. As the C-5A 
fleet continues to age beyond an average of 35 years, the increased 
investment required to modernize and replace portions of the airframe 
facing stress cracks and corrosion makes this the opportune time to 
shape the future fleet.
    Question. Are there other aircraft in the U.S. inventory, beyond 
the C-5, that are capable of moving 100 percent of the Department of 
Defense airlift requirements?
    Answer. The Air Transportability Test Loading Agency (ATTLA) is the 
Department of Defense agency responsible for the approval of airlift 
cargo. The C-5 is the only aircraft capable of moving 100 percent of 
the ATTLA approved items. Air Mobility Command identified seven 
critical, time-sensitive items or National Security Sensitive items 
that are only airlifted via the C-5. This being said, a robust, 
modernized C-5 fleet is a force multiplier, carrying roughly twice the 
palletized payload of a C-17. This enables the C-17 fleet to fully 
exploit its unique multi-role, aeromedical, airdrop, special-operations 
and austere airfield capabilities (short/unimproved airfields, direct 
delivery). The programmed strategic airlift fleet, when fully mobilized 
and augmented by the Civil Reserve Airlift Fleet, provides sufficient 
airlift capability to support U.S. strategic and operational objectives 
during large-scale deployments, while concurrently supporting other 
high priority operations and sustainment of forward deployed forces.
    Question. Mr. Secretary, let me state for the record that I would 
be very opposed to efforts to prematurely retire C-5A aircraft with out 
a firm commitment from the Air Force that C-5B aircraft will 
alternatively be assigned to the 167th Airlift Wing in Martinsburg, 
West Virginia. We need to ensure that the significant military 
construction investment that has been made at the Martinsburg Air 
National Guard Base in recent years will be fully realized by the U.S. 
military and the U.S. taxpayers. I look forward to your response to my 
letter of March 14, 2007, and to these questions for the record.
    Mr. Secretary, I also understand that at the same hearing, the Air 
Force Chief of Staff made comments about the extensive maintenance 
requirements associated with the C-5 aircraft. As you are aware, the 
Air Force is launching a new regionalized approach to standardizing and 
reducing the time of Isochronal (ISO) Inspections for C-5 Aircraft. In 
fact, the 167th Airlift Wing at the Martinsburg Air National Guard Base 
has recently been selected as one of three regional sites that will 
conduct these inspections. ISO inspections are conducted on C-5 
aircraft every 420 days in accordance with Air Force regulations, and 
include hundreds of inspections covering the airframe, propulsion, and 
all systems of the C-5 aircraft. Under regionalized ISOs on the 420 day 
schedule, inspections will only require 15 days per inspection, rather 
than the current forty-day endeavor.
    Do you believe that this new streamlined process developed by the 
Air Force, which will be in place next year, will help with the C-5 
reliability issues that have been raised by the Air Force?
    Answer. The primary benefit of regionalized Isochronal Inspections 
will be increased aircraft availability through reduced inspection and 
repair time, but it would not address the reliability issues plaguing 
the C-5A.
    Question. Mr Secretary, I have also heard that the Air Force is 
concerned about possible cost overruns associated with the Reliability 
Enhancement and Re-Engining Program (RERP) for the C-5 fleet, which is 
leading the Air Force to consider the premature retirement of C-5A 
aircraft. In reviewing the planned modification schedules for RERP, it 
appears that the Air Force has stretched this program out to the point 
where the Air Force itself has contributed much to the overall program 
cost growth that is currently under discussion.
    Is it possible that the Air Force's desire to slow down the program 
drives inefficiencies, which drives up costs? What would it take to 
accelerate the C-5 RERP program and create greater efficiencies in 
production? Does the C-5 RERP pay for itself and generate substantial 
additional savings over the projected service life of this aircraft?
    Answer. The Air Force does not desire to slow down C-5 RERP. 
Rather, the delays and ``stretch'' to the RERP schedule are due 
primarily to upward cost pressures for RERP production associated with 
GE engines, Goodrich pylons and Lockheed Martin touch labor. A detailed 
Air Force cost estimating effort is underway (projected to be complete 
by July 2007) that will determine the extent of the cost growth and 
result in a service cost position for the C-5 RERP. Given a constrained 
program budget across the Future Years Defense Program (FYDP), any RERP 
production cost growth will translate into reductions to the planned 
annual kit quantities and delays to the RERP schedule and projected 
completion dates.
    To keep RERP on its previous schedule (and limit the inefficiencies 
due to reduced production quantities), it would likely take significant 
RERP funding increases across the FYDP and beyond. The exact amount 
will not be known until the ongoing cost estimating effort is completed 
in July 2007. Adding significant funding within the FYDP above what has 
been previously programmed for RERP will be extremely challenging given 
the current fiscally constrained environment.
    Ongoing evaluation of C-5 RERP has brought previous estimates of 
cost savings into question. The assumptions that led to predictions of 
substantial cost savings through 2040 did not account for the recently 
identified cost pressures associated with engines, pylons, and touch 
labor. Analysis of overall RERP cost savings is part of the cost 
estimating effort projected to complete in July 2007.
    Question. What is the interpretation of the Air Force of Section 
132 of the fiscal year 2004 National Defense Authorization Act that 
precludes the retirement of any number of C-5As that would bring the 
total C-5A/B/C fleet below 112 aircraft until an operational evaluation 
and assessment was performed on a RERPed-modified C5A?
    Answer. The language of Section 132, fiscal year 2004 Defense 
Authorization Act, Limitation on Retiring C-5 Aircraft, provides: ``The 
Air Force may not proceed with a decision to retire C-5A aircraft from 
the active Air Force inventory that will reduce the active C-5 fleet 
below 112 aircraft until two conditions are satisfied: (1) the Air 
Force has modified a C-5A aircraft to the RERP configuration as planned 
under the program as of May 1, 2003, and (2) the DOD Director of 
Operational Test and Evaluation conducts an operational evaluation of 
the RERPed aircraft and provides an operational assessment to the 
Secretary of Defense and Congressional Defense Committees.''
    The operational evaluation referred to above requires an evaluation 
conducted during operational testing and evaluation of the RERPed 
aircraft that addresses the performance of the aircraft concerning 
reliability, maintainability, and availability with respect to critical 
operational issues. The operational assessment referred to above is a 
operational assessment of the C-5 RERP program to determine the overall 
strengths and weaknesses of the program to improve performance of the 
RERPed C-5 aircraft relative to requirements and specifications in 
effect May, 1, 2003, for reliability, maintainability, and availability 
of the RERPed C-5 aircraft.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

              FISCAL YEAR 2008 UNFUNDED REQUEST FOR C-17S

    Question. In its Fiscal Year 2008 Unfunded Priorities List, the Air 
Force requests funding for 2 additional C-17s. How was this number 
determined? Did this determination include a consideration of potential 
requirement emitting from a 92,000 increase in troop endstrength? Did 
this determination include a consideration of a potential requirement 
emitting from the Army's Combat System.
    Answer. The Air Force determined that 2 additional C-17 aircraft 
above the programmed 190 are required to meet Backup Aircraft Inventory 
(BAI) and GWOT overfly requirements. The planned 180 C-17 aircraft 
fleet was assessed to be deficient by 7 BAI aircraft and 5 aircraft 
short due to higher than planned utilization supporting the GWOT. The 
10 aircraft added by Congress in fiscal year 2007 solved the BAI 
deficiency and some of the GWOT overfly requirements. Two additional 
aircraft are needed to meet the GWOT deficiency. The decision to 
identify two C-17 aircraft on the fiscal year 2008 unfunded priorities 
list did not consider emerging requirements such as the increased Army 
and Marine Corps endstrength or the Army's Future Combat System.

                                  C-17

    Question. In its fiscal year 2008 budget request, the Air Force 
once again requests funding to terminate the C-17 program. If the C-17 
line were to close down, how do you anticipate the Air Force would 
respond if the official strategic airlift requirements moved beyond 299 
or in the case of the C-17, 180? If the C-17 program was terminated, 
are there other military transport aircraft currently manufactured in 
the United States that could be used to address an increase in the 
strategic airlift requirement?
    Answer. In the event the strategic airlift requirement increases, 
the Air Force would need to address this requirement with existing 
civilian airlift production lines, procure non-U.S. airlift platforms, 
or procure other existing military aircraft (e.g., C-130J).

                     STRATEGIC AIRLIFT REQUIREMENTS

    Question. In my view, the future drivers of airlift include the 
continuing Global War on Terrorism, the return of forces from forward 
deployed locations to the United States, 92,000 additional soldiers and 
Marines and the planned increase of six Brigade Combat Teams and 33 
Multifunctional brigades in the Army. All of these future drivers point 
to the need for more lift to deploy and sustain them.
    When do you anticipate the Air Force will receive direction 
regarding an updated airlift requirement based on a troop endstrength 
of 92,000? What steps must be completed before the Air Force can inform 
Congress of an updated airlift requirements based on increased military 
endstrength?
    Answer. Please let me address these as two separate questions. The 
Air Force Chief of Staff has directed Air Mobility Command to make an 
initial assessment and provide him with preliminary results by June 
2007. Official direction regarding an updated airlift requirement based 
on a troop end strength increase of 92,000 should emerge during an 
updated mobility study that is scheduled to begin in the Spring of 
2008. At that time, overall deployment and employment requirements will 
be set and the airlift requirements to support those demands can be 
assessed.
    In answer to your second question, the employment timeline for new 
units created as a result of increased military end strength must be 
determined before an updated airlift requirement can be developed.
    Question. Outside any requirements emitting from an increase in 
Army and Marine endstrength, what other factors do you anticipate will 
have a strong influence on strategic airlift requirements over the next 
decade?
    Answer. The Army's Future Force Capstone Concept outlines the 
requirement for operational maneuver from strategic distances, Intra-
theater operational maneuver, and distributed maneuver support and 
sustainment of brigade combat teams equipped with Future Combat Systems 
and Stryker class vehicles. Based on this outline, it can be concluded 
that this future Army maneuver scheme will have a strong influence on 
strategic airlift requirements over the next decade.

                      MOBILITY CAPABILITIES STUDY

    Question. There has been tremendous criticism within the Congress 
regarding the recommendations in the Mobility Capabilities Study (MCS). 
Moreover, the Government Accountability Office (GAO) has questioned 
many of the assumptions of the MCS.
    Outside of the findings of the MCS, what evidence do you have that 
180 C-17s will be sufficient to meet our military's future airlift 
requirements?
    Answer. There are no current studies outside of the Mobility 
Capabilities Study upon which to base an assessment of the military's 
future airlift requirements.
    Question. When will the Air Force complete the comprehensive 
Mobility Requirements Study required by the fiscal year 2007 John 
Warner National Defense Authorization Act?
    Answer. The fiscal year 2007 John Warner National Defense 
Authorization Act required the Secretary of Defense to determine 
Department of Defense mobility requirements and submit a report on 
those requirements to the congressional defense committees. The Air 
Force, while not responsible for completing this report, has 
coordinated on a draft of the required report. The status of the 
report's completion rests with the Defense Department staff.
    Question. Was the 180 requirement number in the MCS a ``static'' 
figure, or did it come within a broader range of recommended airlift? 
If it came within a range, what was that range?
    Answer. The 180 number, mentioned in the Mobility Capability Study, 
refers to the C-17 component of the then-current program of 292 
strategic airlift aircraft, which was judged adequate to support the 
National Military Strategy (NMS) with acceptable risk. (The remaining 
112 aircraft in the 292-aircraft program consisted of C-5s.) While 292 
strategic airlift aircraft support the capability required to meet the 
NMS with acceptable operational risk, the MCS did discuss a range of 
strategic airlift aircraft. The 292 number reflects the lower end of 
that range. The upper end of the range was stated as 383 strategic 
airlift aircraft. The greater number yields reduced operational risk in 
some areas, along with generally improved flexibility.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski

                                MP-RTIP

    Question. The Air Force put a funding request in the fiscal year 
2008 GWOT Supplemental and in the Unfunded Priorities List for the 
large MP-RTIP; however, OSD and the Air Force are taking steps to 
terminate the large MP-RTIP prior to Congress having an opportunity to 
make a decision on continuing the large MP-RTIP. What is OSD and the 
Air Force's plan to protect the large radar's technology until the 
Congress has made a decision?
    Answer. SECAF-OSD and the Air Force are working closely to preserve 
the options for the MP-RTIP technology, but are also working hard to 
keep the costs down during the current fiscal year. The Air Force, in 
coordination with OSD, has taken initial steps in starting to ramp down 
the large MP-RTIP radar development based on the fiscal year 2008 
submission and are working the overall impacts to the fiscal year 2008 
funding elimination on the E-10 program. The timing of congressional 
activities for the fiscal year 2008 budget is being factored into the 
planning currently being done and final direction on fiscal year 2007 
activities has not been given by OSD to the Air Force.

                              E-10 PROGRAM

    Question. In the fiscal year 2008 budget the Air Force stopped 
development of the E-10 program including the development of the large 
radar. What happened to the operational requirement for the program?
    Answer. The operational requirement for the program has not changed 
because of the cancelling of the E-10 program. The Air Force is 
mitigating what the Multi Platform--Radar Technology Insertion Program 
(MP-RTIP) Wide Area Surveillance (WAS) radar would have provided by 
procuring three additional Global Hawk (GH) Block 40 for a total of 15 
GH Block 40s. The GH Block 40 will provide a ground moving target 
indicator and synthetic aperture radar imaging, but with reduced 
coverage area compared to the E-10. The cruise missile defense 
capability the E-10 was bringing to the warfighter will be an unfilled 
capability gap.
    On December 13, 2006, the Office of the Secretary of Defense 
directed ``United States Strategic Command (USSTRATCOM) and USD (AT&L), 
in coordination with the Services, to lead a study to assess the likely 
effectiveness of the United States air and cruise missile defense 
architecture and systems in fiscal year 2015.'' Additionally, 
USSTRATCOM will leverage the results completed on the Sensor Weapon 
Pairing Task Force Study and the ongoing integrated Air and Missile 
Evaluation of Alternatives to provide more complete coverage for air 
and missile defense. If warranted, USSTRATCOM will provide 
recommendations for suggested improvement in capabilities and present 
the results by August 15, 2007 to the Deputy Secretary of Defense.

                                MP-RTIP

    Question. Do you believe the large radar is still needed for force 
protection, including against cruise missiles? If not, what has 
changes? If so, how are you meeting the operational requirement?
    Answer. Yes, the Air Force still believes the large radar is needed 
for force protection including the capability to defend against cruise 
missiles. Component commanders still have a valid requirement to see 
low-observable low-altitude activities, today and in the future. With 
the exception of cruise missile defense, Joint STARS is providing 
ground moving target indicator (GMTI) and synthetic aperture radar 
(SAR) for the warfighter. The capability the Global Hawk Block 40 will 
bring adds to the GMTI and SAR range/coverage beyond Joint STARS' 
capability. For cruise missile defense, there will be a capability gap 
that will not be met and the Department is accepting the risk based on 
fiscal constraints.
    Question. Have you considered moving the mission to the Joint STARS 
aircraft by installing the new radar on the fleet of the already 
operational aircraft?
    Answer. Yes, the Air Force has assessed the value to migrate the 
Cruise Missile Defense mission to Joint STARS. However, in light of 
budget considerations, the ongoing Air and Cruise Missile Defense 
architecture study, and the assessed Cruise Missile Defense capability 
with MP-RTIP on Joint STARS, it was not deemed critical to replace the 
Joint STARS radar at this time. However, if a decision were made to 
replace the Joint STARS radar, it would be replaced with the MP-RTIP.
    Question. Since you are re-engining Joint STARS, why haven't you 
transferred the MP-RTIP radar to the Joint STARS platform? You placed 
the MP-RTIP in your top 20 programs in the Unfunded Requirements List. 
What platform were you planning on using to flight test the radar since 
you terminated the E-10 program?
    Answer. Re-enginging Joint STARS was needed to allow that aircraft 
to better perform its mission and meet operational requirements. While 
the re-engine effort provides for a more capable platform, replacing 
the current radar system on Joint STARS is unaffordable at this time.
    If funding were made available, the unfunded priority list request 
for MP-RTIP would continue the Wide Area Surveillance large radar 
variant for an additional year of development headed towards a flight 
test program. Additional funding would be required to reach a flight 
test.
    Question. In the GWOT Supplemental, you requested funding for 
upgrading the backend of Joint STAS to handle MP-RTIP data, and you 
requested funding for further development of the large MP-RTIP; 
however, you requested funding for the E-10. If you already cancelled 
the E-10, why didn't you request this additional funding to move the 
radar to Joint STARS, instead of continuing on the E-10?
    Answer. The fiscal year 2008 President's budget request included 
funding to complete the development and flight testing of the MP-RTIP 
variant for Global Hawk Block 40, not to continue the E-10 program 
itself. This activity is on schedule to be operational in 2011. We 
evaluated transitioning the MP-RTIP technology to Joint STARS. However, 
the GWOT funding requested to address the diminishing manufacturing 
sources related to the Joint STARS mission equipment is only a small 
fraction of the funding required to transition the MP-RTIP to Joint 
STARS. The notion of keeping the large radar technology alive and 
potentially putting it on the Joint STARS in the future is why it was 
placed on the Air Force's unfunded priority list as the number 15 
priority.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                          JOINT CARGO AIRCRAFT

    Question. Secretary Wynne, I understand the Air Force is working in 
conjunction with the Army on the development of the Joint Cargo 
Aircraft. And I have been informed that the Air Force requirements for 
this aircraft are being developed and should be defined by the fiscal 
year for future procurement starting in fiscal year 2010. I commend the 
Army and Air Force for working together to meet requirements while 
saving resources.
    Could you provide us with the current status of this program?
    Answer. The Army and Air Force are on track to complete the 
documentation required to support a Milestone C decision for low rate 
initial production in May 2007. Additionally, the source selection 
evaluations are nearing completion. We expect the winner to be 
announced very shortly after a successful Milestone C decision.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                              F-22 BEDDOWN

    Question. As you know, Holloman Air Force Base has some amazing 
assets to offer the Air Force, including air space and nearby training 
capabilities at White Sands Missile Range. Your budget proposes 
retiring the remaining Holloman F-117s in fiscal year 2008, but I 
understand that a transition plan is in place to bring F-22s to the 
base. I am excited about working with the Air Force on this transition 
have a few questions about it.
    What total amount does the Air Force need for the F-22 beddown at 
Holloman, and when will those funds be budgeted for?
    Answer. The Air Force needs a total of $40 million in renovation 
and Military Construction projects for F-22A beddown at Holloman, Air 
Force Base, NM. In fiscal year 2006, Holloman executed $10.8 million on 
renovation projects. The fiscal year 2008 President's budget request 
lays out a further $26.625 million for Planning and Design and Military 
Construction projects spanning fiscal years 2008 through 2010. The 
remaining $2.5 million of the $40 million total is one project 
(squadron operations building) which is currently unfunded. The Air 
Force will reallocate funding internally to fund this project.
    Question. I've heard about differences in the number of authorized 
jobs at Holloman as a result of this transition, but what will the end 
difference be between the number of actual jobs at Holloman now and 
after the F-22s are fully operational?
    Answer. Two-hundred and seventy-four positions will be lost as a 
result of the transition from F-117s to F-22s. An additional 221 
positions will leave due to all other actions impacting Holloman Air 
Force Base. These numbers do not include any changes to the contractor 
workforce.

          NEW MISSIONS FOR HOLLOMAN AIR FORCE BASE, NEW MEXICO

    Question. Is the Air Force looking at other missions that could 
benefit from Holloman's air space and other assets, including working 
with other Services on joint missions?
    Answer. Yes, the Air Force is working closely with the Army to 
expand the use of White Sands Missile Range (WSMR)--Holloman airspace 
for future F-22 training. This training will be integrated with 
existing Joint Air and Missile Defense training of PATRIOT crews and 
multi-Service command and control staffs. The Air Force plans to 
conduct extensive supersonic training and will fly defensive missions 
in support of multi-Service air-ground operations as well as air-to-air 
missions in support of unilateral and joint training events. In the 
future, the Air Force will also be looking to leverage Special 
Operations Force forces stationed at Cannon Air Force Base for 
conventional-special operations forces integration training in the 
WSMR-Holloman training complex.

                             46TH TEST WING

    Question. What is in the budget for the 46th Test Wing, including 
the Central Inertial Guidance Test Facility at Holloman?
    Answer. The following table represents the current budget picture 
for the 46th Test Wing at Holloman Air Force Base, NM:

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                   46 Test Wing    46 Test Group
                        Fiscal year 2008                               Total            \1\          CIGTF \2\
----------------------------------------------------------------------------------------------------------------
Institutional and Military Personnel Funding....................         259,605          36,091           8,969
Base Operations Support.........................................             394             394             100
Facility Sustainment, Restoration & Modernization...............           4,588           1,588             200
Military Construction...........................................           9,100  ..............  ..............
Improvement & Modernization.....................................          23,844           4,079           1,289
                                                                 -----------------------------------------------
      Total.....................................................         297,531          42,152          10,558
----------------------------------------------------------------------------------------------------------------
\1\ Values in the 3rd and 4th columns are broken out of the 2nd column.
\2\ Values in the 4th column are broken out of the 3rd column.

                      NEW MISSIONS FOR CANNON AFB

    Question. As you know, Cannon Air Force Base was placed in enclave 
status as a result of the 2005 BRAC process, and the Department of 
Defense was instructed to seek a new mission for Cannon. Last June, the 
Department decided Cannon will be home to a new Air Force Special 
Operations Command wing. I look forward to working with the Air Force 
and Special Operations Command on this new mission and making this 
transition go as smooth as possible. From an Air Force perspective, how 
is the transition process going thus far?
    Answer. In accordance with BRAC 2005, F-16s began departing Cannon 
Air Force Base in January 2007 with all F-16 aircraft reassigned by the 
end of March 2008. Cannon Air Force Base will stand up the 16th Special 
Operations Wing as the new mission in October 2007, with the 73rd 
Special Operations Squadron as the first flying organization. This 
transition is proceeding on the programmed timeline.

                SPECIAL OPERATIONS ASSETS FOR CANNON AFB

    Question. What is the time-line for moving F-16s from Cannon and 
bringing Special Operations assets to Cannon?
    Answer. All F-16s will depart Cannon Air Force Base, New Mexico by 
the 2nd quarter of fiscal year 2008 as follows:
  --Fiscal year 2007/3--last jet leaves from 523rd Fighter Squadron, F-
        16 Block 30.
  --Fiscal year 2007/4--last jet leaves from 524th Fighter Squadron, F-
        16 Block 40.
  --Fiscal year 2008/2--last jet leaves from 522nd Fighter Squadron, F-
        16 Block 50.
    Cannon Air Force Base will transfer from Air Combat Command to Air 
Force Special Operations Command (AFSOC) effective October 2007. The 
AFSOC Detachment 1 has been established and pending completion of the 
ongoing environmental impact statement, AFSOC will move the 73rd 
Special Operations Squadron to Cannon Air Force Base in October 2007. 
The remaining forces will flow to Cannon Air Force Base between fiscal 
years 2008 and 2010.

                  MILITARY CONSTRUCTION FOR CANNON AFB

    Question. What MILCON projects will the Air Force build at Cannon 
as a result of this new mission, and when will these projects be 
completed?
    Answer. Below is a list of Air Force Military Construction 
infrastructure projects programmed to support the new mission at Cannon 
Air Force Base, NM. These projects will typically be completed within 
two years of being authorized and appropriated.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
               Fiscal year                                     Project Title                      Projected Cost
----------------------------------------------------------------------------------------------------------------
08.......................................  Add/Alter Hangar 109 for C-130.......................            $1.7
10.......................................  Consolidated Communications Facility.................            15.0
11.......................................  96-Person Dormitory..................................             7.5
11.......................................  Child Development Center.............................             7.8
11.......................................  Add/Alter Waste Water Treatment Plant................             5.0
12.......................................  96-Person Dormitory..................................             7.5
12.......................................  Library Education Center.............................             8.0
12.......................................  96-Person Dormitory..................................             7.5
12.......................................  Library Education Center.............................             8.0
13.......................................  Add/Alter Fitness Center.............................             5.0
----------------------------------------------------------------------------------------------------------------

             BRAC FUNDS FOR TRANSITION OF AFRL TO KIRTLAND

    Question. New Mexico has a third Air Force base that is well known 
for much of its work. Among other things, Kirtland Air Force Base is 
home to the Nuclear Weapons Center, 58th Special Operations Wing, and 
two Air Force Research Laboratories. How much has the Air Force 
budgeted for in BRAC funds to transition AFRL's Space Weather work to 
Kirtland?
    Answer. Under Base Realignment and Closure recommendation number 
187, the Air Force Research Laboratory Battlespace Environment Space 
Vehicles Division at Hanscom Air Force Base, MA, which includes the 
space weather satellite programs, is scheduled to move to Kirtland Air 
Force Base, NM. The Air Force BRAC program budgeted a total of $57.4 
million--$11.9 million to relocate personnel and equipment from Hanscom 
AFB, $42.7 million for construction of a new lab at Kirtland AFB, and 
$2.8 million for related expenses at Kirtland Air Force Base.

                PARARESCUE/COMBAT RESCUE TRAINING CENTER

    Question. Last year the Senate included $11.4 million in its MILCON 
bill for a new pararescue/combat rescue training center at Kirtland 
because attendance at the school is increasing dramatically as a result 
of the Global War on Terror. Can you tell us a little about the 
school's needs?
    Answer. Combat Search and Rescue (CSAR) is an important Air Force 
core competency. Our CSAR forces have been in a low density/high demand 
(LD/HD) situation since Operations DESERT SHIELD/DESERT STORM and this 
has been exacerbated by the Global War on Terrorism. To fix this we 
have made CSAR-X and our Guardian Angel force, which includes our 
Pararescue Airmen (PJ) and Combat Rescue Officers (CRO), high 
priorities. In addition to CSAR-X, Air Combat Command is growing 143 
additional PJs and CROs over the Future Years Defense Program. This 
will result in removing these valuable forces from LD/HD status. At 
Kirtland Air Force Base this requires us to increase the capacity to 
produce PJs and CROs from 113 to 174 annually. This is going to take 
additional facilities (a rescue and recovery training center, a 
logistics building, and a surgical lab), instructors, equipment, as 
well as the expansion of contracts for paramedic and military freefall 
training.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                          Fiscal year--
             Description                     Type       ------------------------------------------------                     Remarks
                                                              2007            2008            2009
--------------------------------------------------------------------------------------------------------------------------------------------------------
              Equipment               O&M..............        $365,000  ..............  ..............  Outfit additional 32-man class
5th class TDY Augmentation Costs....  O&M..............         128,000        $128,000  ..............  ...............................................
ARC Man days to support 5th class...  O&M..............         ( \1\ )         ( \1\ )  ..............  1,260 man days p/yr for seven ARC augmentees
Paramedic Contract..................  O&M..............  ..............       2,600,000      $3,500,000  Interim until fiscal year 2010 POM cycle
Navy MFF Contract...................  O&M..............  ..............       1,000,000       1,500,000  Interim until fiscal year 2010 POM cycle
                                                        ------------------------------------------------
      Total O&M.....................  .................         500,000       3,700,000       5,000,000  ...............................................
                                                        ================================================
PJ RRTC Design......................  MILCON...........       1,100,000  ..............  ..............  ...............................................
PJ RRTC Build.......................  MILCON...........  ..............      11,400,000  ..............  ...............................................
PJ Logistics........................  MILCON...........  ..............       3,700,000  ..............  ...............................................
PJ Surgical Laboratory..............  MILCON...........  ..............  ..............       4,700,000  ...............................................
--------------------------------------------------------------------------------------------------------------------------------------------------------

                 JOINT TRAINING AND TESTING INITIATIVES

    Question. Clearly New Mexico offers a number of assets of critical 
importance to the Department of Defense, and I'm pleased the Department 
is taking advantage of those assets by locating F-22s at Holloman, 
Special Operations Forces at Cannon, research and space work at 
Kirtland, and a variety of test and evaluation work at White Sands 
Missile Range. Additionally, Fort Bliss often does work in New Mexico, 
either on its own land or on WSMR land. What are you doing to 
coordinate joint training and testing initiatives among these groups?
    Answer. The Air Force coordinates joint training and testing 
whenever possible. For instance, the Defense Planning Guidance 
established the Joint National Training Capability (JNTC) in 2002. 
JNTC's mission is to provide dynamic, capabilities-based training for 
the Department of Defense in support of national security requirements 
across the full spectrum of service, joint, interagency, 
intergovernmental, and multinational operations. Fort Bliss, TX based 
Patriot missiles/crews have routinely participated in air centric 
exercises like RED FLAG-NELLIS. These same Patriot missile battalions 
participated in a variety of virtual, distributed exercises through the 
Distributed Mission Operations Center (DMOC) facility at Kirtland AFB, 
NM. Army Air and Missile Defense units have become habitual training 
partners at our RED FLAG-NELLIS and BLUE FLAG staff training exercises. 
Air Force JNTC funds pay for the sustainment costs for the scenario 
generation server at the DMOC, which provides rapid generation of 
scenarios for exercises and mission rehearsal for personnel from all 
Services and the U.S. Special Operations Command. Additionally, shared 
opportunities for joint test and training in Western Texas and Southern 
New Mexico are actively being explored. As a matter of fact, Mr. 
Manclark (Director of Air Force Test and Evaluation) tentatively plans 
to visit the region in May of this year for that purpose.

                    ARMY AND AIR FORCE COORDINATION

    Question. Will you work with the Secretary of the Army to ensure 
that the Army's and the Air Force's work on New Mexico and Texas are 
coordinated and cooperative whenever possible?
    Answer. Yes. The routine participation of the Fort Bliss, TX Army 
Patriot missile battalions is an example of Army and Air Force 
cooperation. Through the facilities of the Distributed Mission 
Operations Center facility at Kirtland Air Force Base, NM, the Army and 
Air Force conduct a variety of joint, live and virtual exercises and is 
indicative of the integration we seek. Air Force RED FLAG, VIRTUAL 
FLAG, and BLUE FLAG exercises also provide a robust event schedule for 
joint live, virtual, and constructive unit and staff training 
opportunities. We will continue to conduct such cooperate training 
whenever possible.

                   JOINT ARMY AND AIR FORCE TRAINING

    Question. Have you ever considered doing joint Air Force/Army Red 
Team/Blue Team exercises using the diverse groups at New Mexico and 
West Texas military facilities?
    Answer. Yes, Air Force considered using New Mexico/West Texas 
military facilities to meet Red Team/Blue Team training requirements 
between the Army and the Air Force. The primary west coast Red Team/
Blue Team exercise venues are the Army's National Training Center at 
Fort Irwin, CA and the Air Force at Nellis Air Force Base, NV. The east 
coast venue is the Army's Joint Readiness Training Center at Fort Polk, 
LA and the Air Force at Barksdale Air Force Base, LA and Little Rock 
Air Force Base, AR. Additionally, the Army/Air Force routinely conduct 
Red Team/Blue Team staff exercises at the Battle Command Training 
Program at Fort Leavenworth, KS and BLUE FLAG at Hurlburt Air Force 
Base, FL. Fort Bliss provides both Red and Blue air defense 
participation in joint training exercises, primarily RED FLAG-NELLIS 
and VIRTUAL FLAG, as well as to numerous Joint Forces Command sponsored 
joint exercises/events. The Air Force will continue to explore new ways 
to further integrate and connect the other Services' diverse war 
fighters who require this type training. New Mexico's Distributed 
Mission Operations Center at Kirtland AFB will remain the hub for 
connecting not only Air Force but also other Service participants to 
joint training exercises/events.

                        150TH FIGHTER WING F-16S

    Question. The 150th Fighter Wing at Kirtland Air Force Base has a 
proud heritage as part of the Air National Guard. The 150th used to fly 
Block 40 F-16s, but gave them to the Active Duty force to assist in 
meeting mission priorities. Now the 150th flies Block 30 F-16s, which 
are at risk as a result of BRAC. What is the Air Force doing to develop 
a new mission for the Air National Guard at Kirtland Air Force Base?
    Answer. The 150th Fighter Wing have made great contributions to the 
national defense. They have volunteered to participate in numerous Air 
Expeditionary Force deployments to support wartime taskings. As a 
result of the Base Realignment and Closure 2006 decisions, the 150th 
Fighter Wing increased from a 15 Primary Aircraft Authorized Block 30 
F-16 unit to an 18 PAA Block 30 F-16 unit. As the Air Force moves from 
older generation aircraft to fifth generation aircraft, the Air Reserve 
Component will be a full participant. The current Air Force aircraft 
roadmap has reserve units receiving low time fourth generation fighters 
and fifth generation fighters to keep the units relevant and ready to 
participate in the Air Expeditionary Force.
    Question. Has the Air Force considered giving Block 40 or 50 F-16s 
to the 150th to enable them to continue providing their outstanding 
service to New Mexico and the United States?
    Answer. The current Air Force aircraft roadmap has a modernization 
plan for Air Reserve Component units to recapitalize legacy airframes 
and migrate to fifth generation aircraft. The 150th will be considered 
for new platforms and/or missions as part of the Air Force roadmap.

                NEW MISSIONS AT CANNON AND HOLLOMAN AFBS

    Question. Can you tell us about the potential Air National Guard 
work with the new missions at Cannon and Holloman?
    Answer. The Air Force Total Force Integration (TFI) initiative 
forms a classic associate F-22 unit with the New Mexico Air National 
Guard and the 49th Fighter Wing at Holloman Air Force Base, New Mexico. 
This association will begin in fiscal year 2008 with the first aircraft 
arriving during fiscal year 2009. The Air National Guard and the Air 
Force continue to explore other TFI initiatives to maximize 
efficiencies and increase combat capability.
                                 ______
                                 
           Questions Submitted to General T. Michael Moseley

            Questions Submitted by Senator Daniel K. Inouye

        AIR FORCE EXECUTIVE AGENCY FOR UNMANNED AERIAL VEHICLES

    Question. General Moseley, have the other Services expressed 
opinions on the Air Force serving as executive agent for unmanned 
aerial vehicles? What have been the major comments or critiques?
    Answer. We have received no formal correspondence; however, we are 
aware of many concerns, expressed primarily by Army representatives. 
The Deputy Secretary of Defense received a letter dated March 22, 2007 
from the Alabama Congressional Delegation which expresses their 
``serious concerns'' and which, we believe, sum up the Army issues.
    Their concerns center on the delineation of UAV missions as 
``tactical'' (Army) and ``strategic'' (Air Force) and presumed 
derivative capabilities, such as aircraft size (thus expense), flight 
profiles, response times; and, ultimately, competencies, concluding 
that the Air Force ``. . . has little expertise in tactical UAVs . . 
.'' and designating it as Executive Agent would be 
``counterintuitive.''
    They also state the Army conducts nearly 80 percent of the current 
UAV operations with less than 20 percent of the DOD budget.
    The following facts diminish these concerns:
  --The Air Force is currently flying 75 percent of the medium-altitude 
        UAV sorties and 100 percent of the high-altitude UAV sorties.
    --In 2006, the Army flew 93 percent of the 70,000 low-altitude UAV 
            hours or about 65,000 hours.
    --In 2006, the Air Force flew 75 percent of the 80,000 medium-
            altitude UAV hours or about 60,000 hours, and 100 percent 
            of the 3,500 high-altitude UAV hours.
  --It is of the utmost importance to understand that the delineation 
        of UAVs as ``tactical'' or ``strategic'' is to misunderstand 
        the attributes of airpower.
    --Aircraft are not inherently strategic or tactical--how aircraft 
            are used will determine whether they achieve strategic or 
            tactical effects.
    --As airpower doctrine evolved along with advances in technology, 
            the Air Force came to understand that it is limiting to 
            consign an extremely flexible system to a limited mission 
            set: A B-52 can do close air support, an F-16 can do 
            strategic attack.
    --Because of their persistence, range, sensor flexibility, and 
            responsiveness, UAVs defy categorization regarding the 
            effects they have the potential to achieve.
    --A Global Hawk can support a ``tactical'' commander or a special 
            ops team in a remote location while fulfilling requirements 
            for ``strategic'' imaging of 40,000 square miles, over the 
            rest of its 40-hour mission,
    --A Predator, during one 24-hour mission, can support missions at 
            all levels of war.
    --A Shadow UAV can support a mission of strategic scope and 
            importance.
    The Air Force is committed to maximizing the effectiveness of UAVs 
to support the Joint warfighter and minimizing wasted resources on 
inefficient or redundant UAV acquisition.
    Question. General Moseley, I understand that you recently sent a 
memorandum to the Deputy Secretary of Defense and the senior military 
leadership recommending that the Air Force assume an ``executive 
agent'' role for medium and high-altitude unmanned aerial vehicles. 
What problems are occurring due to the current decentralized approach 
and how does having an executive agent help solve them?
    Answer. One problem lies in the current decentralized control of 
Intelligence, Surveillance, and Reconnaissance (ISR) assets in the 
theater--particularly the aircraft operating in the very crowded 
airspace above 3,500 feet, that the Services, notably the Army, term 
``organic.'' This organic assignment or ``ownership'' of critically 
needed ISR aircraft by individual units severely limits otherwise very 
flexible aircraft from responding quickly to changing battlefield 
situations across the entire theater. All ISR assets are in constant 
demand; yet, under decentralized control, one unit's ``organic'' ISR 
UAVs may be idle when they could be supporting another unit's mission. 
This concept is not only wasteful and inefficient, but is contrary to 
DOD Directive 5100.1, Functions of the DOD and Its Major Components, 
which assigns the Air Force, as a primary function to ``. . . provide 
forces for . . . tactical air reconnaissance.'' This approach is also 
in conflict with established Joint Doctrine.
    The existing role of the Air Force in conducting warfare from the 
air, through space, and in cyberspace--as well as the assigned missions 
of the Air Force--make assignment of Executive Agent to the Air Force 
for medium- and high-altitude UAVs the right decision for acquiring, 
integrating UAVs to achieve optimal joint warfighting effects, and 
interdependency among the Services.
    Recognizing that UAVs must be treated like any other aircraft from 
an operational and acquisition perspective is key:
  --Aviation is a core competency of the Air Force.
  --From their beginning, the Air Force has treated UAVs as aircraft 
        and integrated them as full participants in joint air 
        operations.
  --The Air Force knows how to optimize utility of aircraft to achieve 
        jointness, efficiency, and warfighting effectiveness.
    The benefits of the Chief of Staff's proposal to mid- and high-
altitude UAVs fall in three major categories:
  --Achieving efficiencies in acquisition.
  --Enhanced interoperability by directing common, synchronized 
        architectures, data links, radios, etc.
  --Increasing warfighting effectiveness in designing an optimal 
        medium-/high-altitude UAV concept of operations.
    Achieving efficiencies in acquisition.--The Department of Defense 
(DOD) could save considerable resources in the current Future Years 
Defense Program with an integrated approach to the acquisition of 
medium- and high-altitude UAVs:
  --Combining the MQ-1 Predator, MQ-1C Warrior, RQ-4 Global Hawk, BAMS 
        (whether the Navy's Mariner or a maritime Global Hawk variant), 
        and MQ-9 Reaper programs could achieve significant savings 
        through purchase economies of scale, production efficiencies, 
        and integrated priorities.
    --Army MQ-1C Warrior fiscal year 2008 President's budget request is 
            $312 million in Research, Development, Testing, and 
            Evaluation (RDT&E) and $1,231 million in production.
    --Navy BAMS fiscal year 2008 President's budget request is $2,318 
            million RDT&E and $743 million in production.
  --DOD has to pay twice for duplicative cost categories if separate 
        contracts are maintained for the MQ-1 Predator and MQ-1C 
        Warrior programs, as well as RQ-4 Global Hawk and BAMS.
  --The Air Force can leverage its core competencies to streamline 
        medium- and high-altitude UAV acquisition, programming, and 
        operational concepts to minimize or eliminate most of these 
        inefficiencies.
  --The Air Force is rapidly fielding as much Predator, Global Hawk, 
        and Reaper capability as possible.
    --The Air Force's fiscal year 2007 budget submission reprogrammed 
            $2.3 billion to nearly double UAV coverage by accelerating 
            Predator acquisitions.
    --The Air Force's fiscal year 2008 budget includes nearly $13 
            billion to buy 241 UAVs--a 265 percent increase in UAVs and 
            ground support equipment over the previous baseline to 
            equip 12 Total Force Predator squadrons (battalion 
            equivalents) and better meet warfighter needs.
    --By April 2007, the Air Force will have fielded a total of 12 
            Predator UAV Combat Air Patrols.
    --By 2010, the Air Force will field a total of 21 Predator Combat 
            Air Patrols.
    Enhanced interoperability by directing common, synchronized 
architectures, data links, radios, etc.--The Executive Agent (EA) could 
be empowered to ensure all DOD medium- and high-altitude UAVs operating 
above the coordination altitude are equipped with standardized/
interoperable equipment (transponders, radios, etc.).
  --The Air Force has extensive, relevant experience as a DOD EA. The 
        Air Force is already the EA for Space and Common Data Link. 
        These activities are directly applicable to supporting the 
        infrastructures and architectures required for UAV employment.
  --The Air Force can leverage its extensive investments in developing 
        medium- and high-altitude UAVs and appropriate architectures. 
        Unique Service solutions waste valuable resources through 
        duplication of effort; stove-piped collection, processing, and 
        dissemination architectures; unsynchronized command and 
        control; and unnecessary competition for bandwidth and 
        spectrum.
    Increasing warfighting effectiveness in designing an optimal 
medium/high-altitude UAV concept of operations.--A joint theater ISR 
strategy can best be achieved through mission responsiveness, and 
command and control architectures directed by the commander responsible 
to the Joint Force Commander for that purpose--the Combined/Joint Force 
Air Component Commander (C/JFACC).
  --Some critics tend to confuse a sufficiency problem for a lack of 
        responsiveness. There will remain insufficient UAV capacity to 
        satisfy every desire for the information those UAVs provide. 
        Accordingly, optimal efficiency is gained by prioritizing UAV 
        allocation based on Joint Force Commander (JFC) guidance to 
        task them where they are needed most.
  --Per Joint Publication 2.0, Doctrine for Intelligence Support to 
        Joint Operations, ``Because intelligence needs will always 
        exceed intelligence capabilities, prioritization of efforts and 
        ISR resource allocation are vital aspects of intelligence 
        planning.'' This argues for ``centralized control and 
        decentralized execution'' to optimize ISR assets with respect 
        to the JFC's highest priorities. It argues against organically 
        assigning medium/high altitude UAVs to units that will preclude 
        their benefit to the entire theater joint fight.
  --All operational Air Force Predators are currently operating in the 
        U.S. Central Command. The appropriate theater/Joint Task Force 
        (JTF) commanders (Army Generals) allocate those--not the Air 
        Force. If the Army has a problem with allocation, it has an 
        issue with the Army theater/JTF Commanders.
  --DOD needs joint solutions that support the JFC; ensuring 
        information dissemination across an entire theater of 
        operations is a key enabler. Each Service operates UAVs with 
        their own limited architectures that only provide products to a 
        specified number of users. On the other hand, the Air Force 
        architecture provides information to all joint users including 
        the individual soldier through the use of ROVER. It is critical 
        to joint warfighting effectiveness that DOD field systems with 
        interoperable architectures that provide information to all 
        joint users.
  --The Air Force has an established reachback, distributed 
        architecture that leverages the total force in order to deliver 
        capability to the warfighter. Through using our mature 
        Distributed Common Ground System coupled with our reachback 
        technologies for operating medium- and high-altitude UAVs, we 
        reduce the forward deployed footprint and expedite 
        responsiveness to crisis or contingency.
  --Predator is a very responsive system which can deliver effects from 
        tactical to strategic. In many instances, a tactical commander 
        is given direct command and control of the asset. Predator's 
        long loiter time provides a tactical commander an entire kill 
        chain (from find/fix to strike and bomb damage assessment) with 
        no breaks in coverage.
  --A key element of CFACC-control of medium- and high-altitude UAVs is 
        the ability to rapidly re-task and respond across the Area of 
        Responsibility to meet emerging shifts in the JFC's priorities.
  --The 3,500 foot delineation in the CSAF EA proposal is used to 
        introduce a nominal demarcation of UAV activities between UAVs 
        organic to small unit command and control, and C/JFACC command 
        and control. EA will provide the concept of operations for UAVs 
        operating above the coordination altitude to ensure effective 
        airspace control, area air defense, and optimal employment of 
        those systems for the joint force commander.
  --In terms of airspace control and coordination, the Army recognizes 
        the growing issue with the proliferation of UAVs. Per the Joint 
        Airspace Command and Control Joint Feasibility Study sponsored 
        by the Army (November 2006), ``An ever increasing proliferation 
        of multi-role unmanned systems which are difficult to track and 
        have no eyes' to support onboard deconfliction are competing 
        for airspace traditionally occupied by manned aircraft are 
        adding to the joint airspace command and control challenge. 
        This results in sub-optimized use of airspace. Inability to 
        rapidly deconflict and provide airspace clearance has resulted 
        in the failure to engage attacking forces or insurgents, 
        permitting them to leave the area unscathed with weapons to be 
        used again on United States, Coalition and civilian targets.''
  --Per DOD Directive 5100.1, Functions of DOD and its Major 
        Components, November 21, 2003: The Air Force is directed to 
        ``organize, train and equip and provide forces for CAS and . . 
        . tactical air reconnaissance . . . ''

         E-10 MULTI-SENSOR COMMAND AND CONTROL AIRCRAFT (MC2A)

    Question. General Moseley, in the fiscal year 2008 budget 
submission, the Air Force has cancelled the E-10 aircraft program. 
However, funds are still requested for the Multi-Platform radar 
program. What are the termination costs associated with this decision? 
How much funding is required to complete the radar development?
    Answer. The funds associated with Multi-Platform Radar Technology 
Insertion Program (MP-RTIP) in the fiscal year 2008 President's budget 
request are for the continued development and testing of the Global 
Hawk MP-RTIP variant, which was unaffected by the cancellation of the 
E-10 program. No additional funds have been requested to pay for the 
cancellation decision. The cancellation costs associated with the E-10 
program are anticipated to come from the remaining fiscal year 2007 
funding. However, the final cost estimates for cancellation will not be 
complete until after contractual discussions with the prime contractor 
and direction from the Office of the Secretary of Defense for 
Acquisition, Technology, and Logistics.
    In addition to the President's budget for Global Hawk MP-RTIP 
Development, a total of approximately $410 million between fiscal years 
2008 to 2011 is required to complete the radar development for the MP-
RTIP Wide Area Surveillance (WAS) large variant associated with the E-
10 program. This funding, however, does not include the funding 
necessary to complete a technology development program for a weapon 
system platform, including integration into a wide body test bed and a 
flight demonstration of the WAS capability.

                     ROLE OF THE AIR FORCE IN GWOT

    Question. General Moseley, as I said in my opening statement, Iraq 
and Afghanistan are seen by the public as Army and Marine Corps 
operations. Please explain the Air Force's current role in supporting 
operations in the Global War on Terror. What sort of vital roles are 
the Air Force undertaking?
    Answer. The Air Force is fully engaged 24/7 with our sister 
services in the Global War on Terror, executing full spectrum missions 
to achieve Coalition objectives. Beyond our traditional roles of 
airlift and Close Air Support (CAS), current Air Force missions range 
from Airmen performing non-traditional convoy security operations to 
Air Force Joint Tactical Air Controllers embedded in Army and Marine 
units calling in satellite-guided airstikes on enemy positions. Roughly 
21,000 In-Lieu-Of Airmen are currently doing, have done, or are 
preparing to do, jobs typically done by Soldiers and Marines. We 
continue to maintain our steady state rotation of 23,000 Airmen into 
U.S. Central Command (USCENTCOM) supporting Operation Iraqi Freedom 
(OIF) and Operation Enduring Freedom (OEF) from 56 locations located 
within the USCENTCOM Area of Responsibility. Additionally, another 
191,000 Airmen provide global strategic support to USCENTCOM and all of 
the Combatant Commanders in roles such as mobility, mid-air refueling, 
homeland defense, space operations (including global positioning 
satellites), weather, secure communications, persistent C4ISR, and so 
forth.
    Since 2001, the Air Force has flown 430,000 combat sorties in 
support of OIF and OEF representing 82 percent of coalition sorties in 
OIF and 78 percent of coalition sorties in OEF. Additionally, our Total 
Force construct of Active Duty, Air National Guard and Air Force 
Reserve has flown over 47,000 Operation Noble Eagle sorties from home 
stations in the United States in support of GWOT homeland defense.
    Since 2003, just in support of OIF, we've airlifted over 455,000 
personnel, roughly equivalent to moving the entire population of Kansas 
City, Missouri by air; 763,000 short-tons of goods; and completed over 
18,000 aeromedical evacuation missions back to the United States.
    In the past, to resupply troops on the ground in OEF, we could only 
generate the accuracy to airdrop supplies in an area one mile wide by 
half mile wide, while the aircrew put itself and the survival of the 
aircraft at risk. Through precision airdrop methods such as the Joint 
Precision Airdrop System (JPADS), we now airdrop ammo and critical 
supplies to troops engaged in firefights with the enemy, with the cargo 
delivered to an area the size of a football field, and from an altitude 
where the aircraft can operate with an increased margin of safety.
    Since 2001, in support of Army, Marine, Air Force and Coalition 
personnel on the ground, the Air Force has employed 20,000 precision 
guided munitions, and expended 675,289 rounds of ammunition against 
enemy targets, supporting troops in contact with the enemy with on-call 
CAS. The average response to a call for support to bombs on target is 
measured in scant minutes. The combined efforts of the Coalition, Army 
and Air Force working as a team were able to rapidly find, fix, and 
kill Al Zarqawi, Al Qaeda's top operative in Iraq with airpower.

                             AGING AIRCRAFT

    Question. General Moseley, this Subcommittee recognizes the 
challenges of finding the right balance between recapitalization, 
purchasing new aircraft, and modernization of existing aircraft. How do 
you determine tradeoffs between meeting today's needs while at the same 
time ensuring the Air Force is prepared to face potential threats in 
the future?
    Answer. As the Service Chief you are counting on me to organize, 
train and equip the United States Air Force to be able to fly, fight 
and win our Nation's wars as a member of the Joint Warfighting team. 
The U.S. Air Force has been engaged in combat for over 16 consecutive 
years. The U.S. Air Force is doing everything in its power to become 
more effective and efficient while simultaneously preparing for the 
long-term. Unfortunately, despite our best efforts, we have declining 
readiness and our recapitalization rates are up to 50 years. Our 50 
year recapitalization rate is like planning to use P-51s in Vietnam or 
F-86s in Iraq. To meet the needs of our Nation at war now and in the 
future, we must build an Air Force fully capable of executing its 
mission in air, space and cyberspace as outlined in the fully 
recapitalized and modernized planning force. We have been making 
tradeoffs every year through the iterative budgeting process, which is 
ultimately focused on pushing resources to the warfighter. To ensure 
America and our future Airmen inherit an Air Force that is ready, 
capable and sustainable with acceptable risk is problematic without 
additional resources and tough strategic choices by the Nation. I look 
forward to detailing these concerns and Air Force plans to reverse 
these trends in the coming weeks.

                  COMBAT SEARCH AND RESCUE HELICOPTER

    Question. General Moseley, you have consistently stated that a 
replacement for the Pave Hawk combat search and rescue helicopter is a 
top priority for the Air Force. Last month, GAO upheld a protest 
against the Air Force's selection. What is the current status of the 
protest, and when do you expect a resolution of the issue?
    Answer. In its March 29, 2007 decision, the GAO denied all of the 
additional arguments raised by Sikorsky and Lockheed Martin Systems 
Integration, ``finding that none furnished an additional basis for 
sustaining the protests.'' In response to the GAO's recommendation in 
their February 26, 2007 decision, the Air Force intends to amend the 
Request for Proposals to clarify its intent with respect to the 
evaluation of operations and support costs, reopen discussions with 
offerors, and request revised proposals. If the evaluation of the 
revised proposals results in a change to the CSAR-X Best Value Source 
Selection decision, the Air Force will make any necessary changes in 
the contract award decision.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                                  C-17

    Question. I understand that the C-17 is performing remarkably well 
in Iraq and Afghanistan as a medivac, personnel, and cargo transport. 
Could you describe the intra-theater utilization rate of the C-17 in 
support of contingency operations since September 2001? Assuming these 
rates remain consistent over the next several years, what affect do you 
believe attrition could have on the Air Force's projected strategic 
airlift requirements?
    Answer. Please let me address these as two separate questions. Due 
to C-130 fleet limitations, C-17s are utilized to augment intra-theater 
operations. This method of employment--Theater Direct Delivery (TDD)--
utilizes approximately 12 C-17s (and a smaller number of other 
aircraft) to sustain passenger and cargo movement in theater for the 
warfighter. In addition to extra lift capacity, these C-17s have two 
inherent advantages: First, the number of C-130s required in theater is 
reduced by roughly one-third and second, this has prevented 35,977 
trucks and 15,380 buses from being exposed to potential insurgent 
attack. This course of action has provided much success but it has come 
at an increased ``cost'' to our C-17 fleet.
    While aircraft status, as well as all other maintenance indicators 
for intra-theater C-17 utilization usage, was not tracked until June 
2005, we've determined this method of employment has created additional 
operational stresses to the C-17 fleet. Although not solely 
attributable to TDD missions, across the Air Force, hourly use rates 
have decreased from 2003 to present but the number of annual sorties 
has more than doubled from 2001 to 2006 (22,392 to 52,135). We are 
flying more sorties of shorter duration (fitting the profile of the TDD 
mission) which creates more stress to the system (i.e. cycles on the 
engines, landing gear, and flight controls). A quantifiable example of 
the operational stress to the C-17 is found in the upper wing skin 
which is almost two times the baseline usage. The increased damage is 
driven by take offs and landings and landing fuel weights higher than 
design assumptions. This existed prior to OEF, but OEF/OIF has 
exacerbated the issue.
    In answer to your second question, from 2001-2006, the C-17 fleet 
has over flown its service life by over 159,000 hours. The overfly can 
be attributed to the GWOT and the lack of proper Basic Aircraft 
Inventory resulting in additional aircraft wear and tear. Congress 
added 10 additional C-17s to the established 180 purchase, of which 7 
will be used to correct the shortfall and 3 will go towards recovering 
the wear and tear caused by GWOT. An additional 2 C-17s are required to 
recover the remaining capability lost due to wear and tear caused by 
GWOT for a total of 12 additional C-17s.
    Question. As you know, General Handy--the U.S. TRANSCOM Combatant 
Commander until mid-2005--repeatedly and publicly stated that a minimum 
of 42 additional C-17s (past the 180) were necessary to meet the Air 
Force's mobility needs. Outside the findings of the Mobility 
Capabilities Study (MCS)--a study that many believe fails to consider a 
number of critical factors related to airlift requirements post-9/11--
what evidence do you have that 180 C-17s will be sufficient to meet our 
military's future airlift requirements?
    Answer. The C-17 has been supporting Global War on Terror inter-
theater and intra-theater airlift missions. There are no current inter-
theater specific studies outside of the Mobility Capabilities Study 
upon which to base an assessment that 180 C-17s will be sufficient for 
the military's future airlift requirements. The C-17 will be evaluated 
as part of the Intra-theater Lift Capabilities Study to determine the 
preferred mix of capabilities needed to accomplish Intra-theater lift. 
Additionally, the MCS identified a range of strategic airlift aircraft 
of 292-383. With the current fleet of 111 C-5s and 190 C-17s (164 of 
190 C-17s have been delivered) the Air Force will have 301 strategic 
airlifters.
    Question. Based on what you know today--considering the recent 
changes in operational requirements and airlift missions--are you able 
to confidently tell the Committee that the Mobility Capabilities Study 
(MCS) projections will adequately meet our military's lift requirements 
for the so-called ``long war''?
    Answer. The Mobility Capability Study (MCS), as reported in 2005, 
set a baseline for mobility forces to meet the demands of the National 
Military Strategy. The MCS, by design, was constructed as a ``warm'' 
database from which further study could be accomplished as factors and/
or conditions changed. Some of that additional study is ongoing. What 
we have seen is that we are using our mobility aircraft at greater 
rates than envisioned in the MCS. As such, the Air Force has requested 
additional assets in both our supplemental and unfunded requirements 
list to offset this increased usage rate. In the way ahead, the Air 
Force is committed to recapitalizating of the airlift fleet. The MCS 
substantiated the need to continue airlift recapitalization in order to 
meet the capability demands on the inventory. Hence, our efforts to 
offset increased utilization, modernize the C-5, recapitalize the C-
130, and explore options for a future Joint Cargo Aircraft (JCA) are 
very consistent with the MCS and necessary to meet the demands of the 
long war. Ongoing study of the JCA requirements, as well as the 
progress of the C-5 modernization program, will no doubt shape the 
requisite choices to maintain our airlift capability. Further, we are 
assessing the impact of changes to our ground forces. The 92,000 
increase in the Army and Marine forces could eventually require our 
lift assets to support a larger, more diverse force in the field. In 
the near term we do not see a major change in support to the rotational 
forces. However, understanding the size, composition, and mission sets 
of our future ground force is something we must consider in planning. 
We look to the Army and the Marines to assess their programmed growth 
and changes in operational planning, and then identify requirements so 
that we can quickly refocus our lift capabilities to meet the emergent 
demands. We are meeting the demands of the long war but 
recapitalization is a mandate we must stay ahead of or we will fall 
below the capabilities required. Your continued support of future 
ground force requirements is key to posture our forces correctly in the 
future.
    Question. The Mobility Capabilities Study (MCS) validated a program 
of record to procure 180 C-17s. However, the MCS assumed that 112 of 
the older C-5 transports would remain in the fleet, due to 
Congressional restrictions barring the retirement of those aircraft. If 
the Congress eased the retirement restrictions placed on the 111 C-5s, 
how might you manage the strategic fleet differently?
    Answer. Without congressional restrictions, we, the Air Force 
senior leadership would be empowered to manage the fleet in the most 
effective manner. The Secretary and I feel it is our responsibility to 
recapitalize an Air Force fleet that averages 26 years old per 
aircraft. The average C-5A is over 35 years old. We, as Air Force 
leaders, are obligated to build an Air Force today, capable of meeting 
the challenges of tomorrow. We are investigating every option in order 
to identify and procure the most effective strategic airlift mix.
    Question. What if the C-5 modernization program is unsuccessful and 
you've already proceeded with closing the C-17 line? What would the Air 
Force do at that point? Doesn't it make more sense to preserve the C-17 
line until you can unequivocally confirm that upgrading the C-5 is a 
viable option? Are you concerned about the cost increases in the C-5 
modernization program? If so, when do you plan to inform Congress of 
any cost ``breaches'' in the program?
    Answer. The Air Force continues to evaluate all options as to how 
to meet strategic airlift requirements with the most suitable airlift 
asset. Significant cost growth of the C-5 Reliability Enhancement and 
Re-Engining Program (RERP), combined with the costs associated with the 
shut-down of the current C-17 line and the potential start-up of a new 
aircraft line may indicate the need to re-evaluate the business case of 
using RERP on older C-5As versus the efficiencies and long-term 
benefits of procuring additional C-17s.
    A detailed Air Force cost estimating effort is underway (projected 
to be complete in July 2007) that will determine the cost position for 
the C-5 RERP. The Air Force will notify Congress if an actual cost 
breach is identified.
    Question. If you retire some C-5s, how many C-5As would you retire? 
How many C-5Bs?
    Answer. We are investigating every option in order to identify the 
most effective strategic airlift mix. Preliminary options being 
evaluated include retiring approximately 30 C-5A aircraft. There are 
currently no plans to retire C-5Bs.
    Question. Would the Air Force work with Congress to implement a 
transition plan to replace any retired C-5s?
    Answer. There is currently no plan to retire specific aircraft from 
specific bases. The proper fleet mix of strategic airlift aircraft is 
currently under review. Current legislation does not allow the Air 
Force to retire any C-5 aircraft until the Operational Test and 
Evaluation report of the C-5A aircraft, currently in flight test, is 
completed. The report will not be completed until fiscal year 2010, two 
full years after the shutdown of the C-17 production line has begun. If 
relieved of legislative restrictions, the Air Force would be able to 
manage effectively the fleet mix of various aircraft fleets. The 
options under review include replacing the strategic airlift aircraft 
identified for retirement with new C-17s or backfilling with newer C-
5Bs from within the Air Force. No new units are anticipated and no 
closures of existing units are planned.

                      MOBILITY CAPABILITIES STUDY

    Question. It is my understanding that the Air Force has at least 5 
ongoing studies--following up from the MCS--looking at the issue of 
future airlift requirements. Can you provide an overview of each study 
related to airlift that the Air Force is currently working on? Do you 
anticipate that any of these studies will provide guidance on future 
airlift requirements? When do you anticipate you will complete each 
study and when will they become available to Congress?
    Answer. The Mobility Capabilities Study 2006 (MCS-06) is the 
follow-on to the original MCS completed in 2005. The Air Force is a 
participant in MCS-06, which is actually a Department of Defense and 
Joint Staff led effort that includes the following three sub-studies:
Intra Theater Lift Capabilities Study
    Purpose--Determine the preferred mix of capabilities needed to 
accomplish intra theater lift to support the defense strategy.
    DOD Sponsor/OPR--JS J4, OSD PA&E.
    Suspense--Complete, awaiting OSD release.
Global Responsiveness: Prepositioning
    Purpose--Facilitate development of an integrated Department-wide 
prepositioning strategy that supports U.S. strategic objectives in the 
context of the evolving global defense posture.
    DOD Sponsor/OPR--OSD PA&E.
    Suspense--Estimated completion Summer 2007.
Tanker Operations
    Purpose--Add to the body of knowledge regarding air refueling. 
Direct outgrowth of the original MCS that identified tanker mission 
sharing and alternate mission concepts for additional study.
    DOD Sponsor/OPR--JS J8, OSD PA&E.
    Suspense--Complete, awaiting final General Officer Steering Group 
review.
    In addition to the MCS-06 studies, the Air Force is also 
participating in two Joint-led efforts involving airlift issues and 
related to discussion in the MCS:
Joint Intra Theater Distribution Assessment
    Purpose--Assess tactical distribution capabilities and shortfalls 
from air and sea points of debarkation to the lowest distribution point 
(``the last tactical mile'').
    DOD Sponsor/OPR--JCS J4.
    Suspense--Estimated completion Summer 2007 for Major Combat 
Operations-1 analysis.
Joint Future Theater Airlift Capabilities Analysis
    Purpose--Analyze future Joint Force theater airlift requirements in 
light of distribution processes, examining non-material and material 
solutions for the 2015-2024 timeframe.
    DOD Sponsor/OPR--U.S. Transportation Command.
    Suspense--Estimated completion Spring 2007.
    Although each of these studies will contribute to the discussion on 
future airlift force structure requirements, none of them alone will 
provide a comprehensive answer.
    Actual study completion dates and determination on the availability 
of these studies to Congress resides with the Department of Defense and 
the Joint Staff.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                            CIVIL AIR PATROL

    Question. General Moseley, I noticed the fiscal year 2008 
Operations & Maintenance budget proposed for the Civil Air Patrol is 
less than what was funded for fiscal year 2007. The Civil Air Patrol 
performs a wide variety of mission ranging from supporting disaster 
relief to playing the role of hostile forces during training exercises. 
Can you tell the subcommittee how the Civil Air Patrol will maintain 
the same level of effort in fiscal year 2008 as they do today with the 
proposed budget reduction?
    Answer. The Air Force truly appreciates the contributions the Civil 
Air Patrol makes to our Nation and our Air Force. These professionals 
contribute to the defense support of civil authorities and the non-
combat programs and missions of the Air Force. However, as with all 
members of the Air Force team, the Civil Air Patrol operates in a 
constrained budget environment. Due to fiscal constraints, the Air 
Force reduced the Operations and Training budget request for the Civil 
Air Patrol by 4.2 percent or $1.05 million. This reduction is in line 
with reductions we have made across the entire Air Force. To prepare 
for these potential reductions the Civil Air Patrol has streamlined its 
headquarters staff and reduced personnel by 25 percent. Additionally, 
the Civil Air Patrol is prepared to transition wing administrators, who 
are corporate employees, to part-time, if further costs savings are 
required. These actions should allow the Civil Air Patrol to continue 
to conduct its missions in the excellent manner which we have all come 
to expect.
    With that said, Congress might consider a measure that would 
mitigate the impact of these cuts. The Congress could remove language 
in the DOD appropriations bill (Section 8025, paragraph (b)) that 
prevents the Secretary from seeking reimbursement for counter-drug 
missions in support of Federal, State and local government agencies.

                               AESA RADAR

    Question. It is my understanding that starting in 2010 the Air 
Force will be procuring Active Electronically Scanned Array (AESA) 
radar systems for a number of your F-15E's. I understand this type of 
radar is presently being used on a number of other fighter aircraft as 
well and significantly enhances the radar capability of these aircraft 
and helps our pilots detect and engage enemy threats.
    I have been informed there is some effort underway to also upgrade 
the radar systems for Air National Guard F-15s with this system. 
General Moseley, can you elaborate on the importance of the AESA radar 
system and can you tell us about the need for such systems, to conclude 
the Air National Guard F-15 fleet?
    Answer. The Air National Guard (ANG) does not possess F-15E Strike 
Eagles and cannot speak for that program. For the F-15C, the APG-63 
(V3) AESA radar is an Air Force Total Force effort, initially led by 
the ANG, through recent Congressional adds. The Air Force has now 
programmed follow-on funds for their F-15Cs in the Future Years Defense 
Program.
    The ANG needs the AESA for the F-15C fleet for reliability, 
maintainability, and enhanced capability. The APG-63 (V)3 AESA radar 
will replace the current ANG F-15 APG-63(V)0 mechanically scanned radar 
that is increasingly more difficult to maintain due to parts 
obsolescence and diminishing manufacturer support. The APG-63 (V)3 
offers greatly enhanced capability required by the combatant commanders 
for both deployed and homeland operations. Leveraging the use of a 
stationary radar antenna covered with an array of over one thousand 
transmitter-receiver modules, the (V)3 AESA combines added signal power 
and performs greatly enhanced detection, tracking, communication, and 
jamming functions in multiple directions simultaneously. AESA provides 
significant increases in precision to detect, track, and eliminate 
multiple threats faster and with greater efficiency than the current 
mechanically scanned radars. In the traditional air superiority mission 
areas, the ANG F-15C's primary advantage in air-to-air combat needs to 
dominate the beyond-visual-range arena, detecting both current and 
future generation airborne threats and retaining the first shot, first 
kill capability vital for mission effectiveness. For the Air 
Sovereignty Alert mission, the F-15Cs need a greatly enhanced 
capability to detect challenging targets (small aircraft, cruise 
missile defense, asymmetric threats, etc.) in a very dense air traffic 
area normally found around the major airports in the United States. 
With the current funding, the first delivery of the APG-63 (V)3 for the 
ANG F-15Cs is scheduled for mid 2009.

                    HOME STATION SIMULATORS FOR ANG

    Question. General Moseley, we appreciate the Air Force's continued 
contributions to homeland defense and to supporting operation in Iraq 
and Afghanistan. Particularly noteworthy is the statement contained in 
the Air National Guard's 2007 posture statement that the Air National 
Guard fulfills 34 percent of Air Force missions with 7 percent of the 
budget. Combined with a recruiting shortfall last month, Air National 
Guardsmen are contributing significantly to this joint fight. Despite 
these heroic efforts, challenges to sustain adequate training at home 
station continue to exist mainly due to equipment shortages. Does the 
Air Force's fiscal year 2008 budget request adequately funding to make 
full use of simulations to augment limitations in home station training 
programs for the Air National Guard?
    Answer. A 10 percent reduction in flying hours can be somewhat 
mitigated by increased use of simulators for training purposes. 
However, the reality is that the Air National Guard has very few 
simulators at its flying wing installations. The Air National Guard 
plans to fully utilize simulators at home station where available. 
Travel and other related costs necessary for wings without simulators 
will be an ``out-of-hide'' execution year bill in an already 
challenging budget environment. The 2008 budget request does not 
specify funding to cover the added expense to the Air National Guard 
home station straining resulting from the 10 percent reduction in 
flying hours.

                          SUBCOMMITTEE RECESS

    Senator Inouye. If there is nothing further, the 
subcommittee will stand in recess.
    [Whereupon, at 12:10 p.m., Wednesday, March 21, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
